No. 19In the

Supreme Court of the United States
LAURIE A. WHITE, Judge, Section A of the Orleans
Parish Criminal District Court, et al.
Petitioners,
v.
ALANA CAIN, et al.,
Respondents.
HARRY E. CANTRELL, Magistrate Judge of Orleans
Parish Criminal District Court,
Petitioner,
v.
ADRIAN CALISTE, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI
Dennis J. Phayer
Mindy Nunez Duffourc*
Burglass & Tankersley, LLC
5213 Airline Drive
Metairie, LA 70001-5602
(504) 836-2220
mnunezduffourc@burglass.com
Counsel for Petitioners
*Counsel of Record
293142

i
QUESTIONS PRESENTED
Does the federal court have jurisdiction to disqualify
state criminal court judges from adjudicating matters,
over which they have exclusive jurisdiction, based upon
an alleged unconstitutional conflict of interest created by
the state’s statutory funding and fines and fees schemes?
Does the due process clause disqualify state criminal
court judges from hearing certain criminal matters
because those judges collectively administer a statutorilycreated operating fund that is partially sourced, pursuant
to state law, by certain categories of statutorily-authorized
fines and fees?

ii
LIST OF PARTIES
The Defendants-Petitioners in the Cain case are the
Judges of the Orleans Parish Criminal District Court:
Judge Laurie White; Judge Tracey Flemings-Davillier;
Judge Benedict Willard; Judge Keva Landrum-Johnson;
Judge Robin Pittman; Judge Byron Williams; Judge
Camille Buras; Judge Karen Herman; Judge Darryl
Derbigny; Judge Arthur Hunter; Judge Franz Zibilich;
and Magistrate Judge Harry Cantrell. The PlaintiffsRespondents in the Cain case are Alana Cain, Ashton
Brown, Reynaud Variste, Reynajia Variste, Thaddeus
Long, and Vanessa Maxwell, individually and on behalf
of all others similarly situated.
The Defendant-Petitioner in the Caliste case is
Orleans Parish Criminal District Court Magistrate Judge
Harry Cantrell. The Plaintiffs-Respondents in the Caliste
Case are Adrian Caliste and Brian Gisclair, individually
and on behalf of all others similarly situated.

iii
CORPORATE DISCLOSURE STATEMENT
The Defendants-Petitioners in both the Cain and
Caliste cases are individuals.

iv
LIST OF PROCEEDINGS
A. Cain v. White
1. In the United States Court of Appeals for the Fifth
Circuit, the Opinion was filed on August 23, 2019 and the
Order denying petitions for panel and en banc rehearing
was filed on September 30, 2019 in docket number 1830955 under the caption: Alana CAIN; Ashton Brown;
Reynaud Variste; Reynajia Variste; Thaddeus Long;
Vanessa Maxwell, Plaintiffs – Appellees v. Laurie A.
WHITE, Judge, Section A of the Orleans Parish Criminal
District Court; Tracey Flemings-Davillier, Judge, Section
B of the Orleans Parish Criminal District Court; Benedict
Willard, Judge, Section C of the Orleans Parish Criminal
District Court; Keva Landrum-Johnson, Judge, Section
E of the Orleans Parish Criminal District Court; Robin
Pittman, Judge, Section F of the Orleans Parish Criminal
District Court; Byron C. Williams, Judge, Section G of the
Orleans Parish Criminal District Court; Camille Buras,
Judge, Section H of the Orleans Parish Criminal District
Court; Karen K. Herman, Judge, Section I of the Orleans
Parish Criminal District Court; Darryl Derbigny, Judge,
Section J of the Orleans Parish Criminal District Court;
Arthur Hunter, Judge, Section K of the Orleans Parish
Criminal District Court; Franz Zibilich, Judge, Section L
of the Orleans Parish Criminal District Court; Harry E.
Cantrell, Magistrate Judge of the Orleans Parish Criminal
District Court, Defendants – Appellants.
2. In United States District Court for the Eastern
District of Louisiana, the Order and Reasons granting
summary judgment on the issue on appeal was filed
on December 13, 2017 and the declaratory judgment

v
concerning the issue on appeal was filed on August 3,
2018 in docket number 15-4479 under the caption: Alana
Cain, et al. v. City of New Orleans, et al. Other Orders in
the same-docketed and captioned case were filed by the
district court on December 3, 2015, April 21, 2016, April
22, 2016, May 3, 2016, May 11, 2016, May 13, 2016, May
23, 2016, December 8, 2016, February 3, 2017, and March
7, 2017.
B. Caliste v. Cantrell
1. In the United States Court of Appeals for the Fifth
Circuit, the Opinion was filed on August 29, 2019 and the
Order denying petitions for panel and en banc rehearing
was filed on October 1, 2019 in docket number 18-30954
under the caption: Adrian CALISTE, individually
and on behalf of all others similarly situated; Brian
Gisclair, individually and on behalf of all others similarly
situated, Plaintiffs – Appellees v. Harry E. CANTRELL,
Magistrate Judge of Orleans Parish Criminal District
Court, Defendant – Appellant.
2. In United States District Court for the Eastern
District of Louisiana, the Order and Reasons granting
summary judgment on the issue on appeal was filed on
August 6, 2018 and the declaratory judgment concerning
the issue on appeal was filed on August 14, 2018 in docket
number 17-6197 under the caption: Adrian CALISTE et
al. v. Harry E. CANTRELL. Other Orders in the samedocketed and captioned case were filed by the district
court on August 25, 2017, December 12, 2017, and March
16, 2018.

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
LIST OF PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . iv
A. Cain v. White  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
B. Caliste v. Cantrell . . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . .  ix
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  xi
OPINIONS AND ORDERS BELOW . . . . . . . . . . . . . . . 1
A. Cain v. White  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
B. Caliste v. Cantrell . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
A. Cain v. White  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
B. Caliste v. Cantrell . . . . . . . . . . . . . . . . . . . . . . . . . . 2

vii
Table of Contents
Page
CONST I T U T IONA L A N D STAT U T ORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR ALLOWANCE OF THE WRIT . . . . 7
I.

REVIEW IS WARRANTED TO CORRECT
A SIGNIFICANT DEPARTURE FROM
FEDER A L COU RT S ’ ACCEP T ED
A N D USUA L EX ERCISE OF
JURISDICTION ONLY OVER CASES
THAT IN VOLVE AN ARTICLE III
CASE OR CONTROVERSY . . . . . . . . . . . . . . . . 7
A. Respondents’ Alleged Injuries are
Not Redressible because the Judges
Have No Power to Change State Laws
Designing either OPCDC’s Funding or
the Fines and Fees Structures . . . . . . . . . . . 8
B. R e sp ondent s’ I nju r ie s a r e Not
Redressible because the Rule of
Necessity Dictates that the Judges Must
Preside Over State Court Criminal
Cases, Including Pre-Detention Abilityto-Pay Hearings and Bail Hearings,
despite any Conflict of Interest Created
by Their Roles as Both Adjudicators
of Criminal Matters and Collective
Administrators of the JEF. . . . . . . . . . . . . . 14

viii
Table of Contents
Page
II. R E V I E W I S WA R R A N T E D T O
RESOLVE A CONFLICT WITH THIS
COURT’S DECISION IN CAPERTON
R E G A R DI N G T H E S T A N DA R D
A PPLICA BLE T O J U DICI A L
DISQUALIFICATION UNDER THE
DUE PROCESS CLAUSE . . . . . . . . . . . . . . . . . 16
III. R E V I E W I S WA R R A N T E D T O
CORRECT THE FIFTH CIRCUIT’S
IMPERMISSIBLE EXTENSION OF
T H E T U ME Y/ WA R D / C A PERT ON
PR I NCI PL E S F OR J U DICI A L
DISQUALIFICATION TO A BROAD
CATEGORY OF INTERESTS . . . . . . . . . . . . . 20
A. The Judges’ Interest is Neither Direct
nor Personal  . . . . . . . . . . . . . . . . . . . . . . . . . 22
1.

The Judges’ Interest in Cain v.
White . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

2. Judge Cantrell’s Interest in
Caliste v. Cantrell . . . . . . . . . . . . . . . . . 25
B. The Fifth Circuit Ignored this Court’s
Prior Precedents in Finding that
the Judges’ Interest is Substantial
Enough to Violate Due Process . . . . . . . . . 28
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

ix
TABLE OF APPENDICES
Page
A ppendix A — opinion of the
united states court of appeals
for the fifth circuit, filed
	august 23, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A P P E N D I X B — D eclaratory
Judgment OF THE UNITED STATES
DISTRICT COURT FOR THE EASTERN
DI ST RIC T OF LOU I SI A NA , DAT ED
AUGUST 3, 2018  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18a
Appendix c — order and reasons
of the united states district
court for the eastern district of
	louisiana, filed december 13, 2017 . . . .20a
Appendix D — order and reasons
of the united states district
court for the eastern district
	of louisiana, filed april 22, 2016 . . . . . . 94a
Appendix e — denial of rehearing
of the united states court of
appeals for the fifth circuit,
	filed september 30, 2019  . . . . . . . . . . . . . . 119a
Appendix F — opinion of the united
states court of appeals for the
	fifth circuit, filed august 29, 2019 . . 122a

x
Table of Appendices
Page
APPENDIX G — DECLARATORY JUDGMENT
OF THE UNITED STATES DISTRICT
COURT OF THE EASTERN DISTRICT OF
LOUISIANA, DATED AUGUST 14, 2018 . . . . . . 140a
Appendix h — order & reasons of
the united states district court
for the eastern district of
	louisiana, filed august 6, 2018 . . . . . . . 143a
APPENDIX I — DENIAL OF REHEARING
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT,
FILED OCTOBER 1, 2019 . . . . . . . . . . . . . . . . . . . 185a

xi
TABLE OF CITED AUTHORITIES
Page
Cases
Aetna Life Ins. Co. v. Lavoie,
475 U.S. 813 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Cain v. City of New Orleans,
281 F. Supp. 3d 624 (E.D. La. 2017)  . . . . . . . . . . . . . . 1
Cain v. White,
937 F.3d 446 (5th Cir. 2019) . . . . . . . . . . . . . . . . passim
Caliste v. Cantrell,
329 F. Supp. 3d 296 (E.D. La. 2018) . . . . . . . . . . . . . . 1
Caliste v. Cantrell,
937 F.3d 525 (5th Cir. 2019) . . . . . . . . . . . . . . . . passim
Caperton v. A.T. Massey Coal Co., Inc.,
556 U.S. 868 (2009) . . . . . . . . . . . . . . . . . . . . . . . passim
Dugan v. State of Ohio,
277 U.S. 61 (1928)  . . . . . . . . . . . . . . . . . . . . . . . . . 28, 29
Lujan v. Defenders of Wildlife,
504 U.S. 555 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . 8, 12
Rosenfield v. Wilkins,
468 F. Supp. 2d 806 (W.D. Va. 2006) . . . . . . . . . .  15, 16
State v. Griffin,
180 So. 3d 1262 (La. 2015) . . . . . . . . . . . . . . . . . . 13, 21

xii
Cited Authorities
Page
Tumey v. State of Ohio,
273 U.S. 510 (1927)  . . . . . . . . . . . . . . . . . . . . . . . passim
U. S. v. Will,
449 U.S. 200 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Ward v. Village of Monroeville, Ohio,
409 U.S. 57 (1972)  . . . . . . . . . . . . . . . . . . . . . . . . passim
Statutes and Other Authorities
U.S. Const., amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . 2, 3
U.S. Const. art. III . . . . . . . . . . . . . . . . . . . . . . . . . .  7, 8, 16
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 19
La. Code Crim. Proc. art. 883.2 . . . . . . . . . . . . . . . . . . 5, 6
La. Code Crim. Proc. art. 887(A) . . . . . . . . . . . . . . . . . . . 5
La. Rev. Stat. § 13:1335 . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
La. Rev. Stat. § 13:1336 . . . . . . . . . . . . . . . . . . . . .  4, 11, 14
La. Rev. Stat. § 13:1346 . . . . . . . . . . . . . . . . . . . . .  4, 11, 14

xiii
Cited Authorities
Page
La. Rev. Stat. § 13:1377(A)  . . . . . . . . . . . . . . . . . . . . . . . . 5
La. Rev. Stat. § 13:1381.1(B) . . . . . . . . . . . . . . . . . . . . . 5, 6
La. Rev. Stat. § 13:1381.4 . . . . . . . . . . . . . . . . . . . . . . . 6, 11
La. Rev. Stat. § 13:1381.4(A)(1) . . . . . . . . . . . . . . . . . . . . . 5
La. Rev. Stat. § 13:1381.4(A)(2) . . . . . . . . . . . . . . . . . . . . . 5
La. Rev. Stat. § 13:1381.5(B) . . . . . . . . . . . . . . . . . . . . . . . 6
La. Rev. Stat. § 15:168 . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
La. Rev. Stat. § 15:571.11 . . . . . . . . . . . . . . . . . . . . . . . . . . 6
La. Rev. Stat. § 15:571.11(D) . . . . . . . . . . . . . . . 5, 6, 11, 12
La. Rev. Stat. § 22:822(A)(2) . . . . . . . . . . . . . . . . . . . . . . . 5
La. Rev. Stat. § 22:822(B)(3) . . . . . . . . . . . . . . . . . . . . . . . 6
La. Stat. Ann. § 13:1381.4(B) . . . . . . . . . . . . . . . . . . . . . . .6
Kurtis A. Kemper, Annotation, Construction
and Application of Rule of Necessity in
Judicial Actions, Providing that a Judge Is
Not Disqualified to Try a Case Because of
Personal Interest If Case Cannot Be Heard
Otherwise, 27 A.L.R.6th 403 (2007) . . . . . . . . . .  14, 15

xiv
Cited Authorities
Page
Raymond McKowski, Judicial Disqualification
A f t e r Ca p e r t o n v. A .T. Ma s s e y Co a l
Company: W hat’s Due Process Got To
Do With It?, 63 Baylor L. Rev. 368 (2011) . . . . . . . . . 17

1
OPINIONS AND ORDERS BELOW
A. Cain v. White
The Fifth Circuit Opinion is reported at Cain v. White,
937 F.3d 446 (5th Cir. 2019). (Appendix A) The Fifth
Circuit’s denial of Petitioners’ petitions for panel and en
banc rehearing is unreported. (Appendix E) The district
court’s Order and Reasons granting Respondents’ Motion
for Summary Judgment on the issue on appeal is reported
at Cain v. City of New Orleans, 281 F.Supp.3d 624 (E.D.
La. 2017). (Appendix C) The district court’s Declaratory
Judgment on the issue on appeal is unreported. (Appendix
B)
B. Caliste v. Cantrell
The Fifth Circuit Opinion is reported at Caliste
v. Cantrell, 937 F.3d 525 (5th Cir. 2019). (Appendix F)
The Fifth Circuit’s denial of Petitioners’ petitions for
panel rehearing and rehearing en banc is unreported.
(Appendix I) The district court’s Order and Reasons
granting Respondents’ Motion for Summary Judgment on
the issue on appeal is reported at Caliste v. Cantrell, 329
F.Supp.3d 296 (E.D. La. 2018). (Appendix H) The district
court’s Declaratory Judgment on the issue on appeal is
unreported. (Appendix G)
STATEMENT OF JURISDICTION
A. Cain v. White
On August 3, 2018, the district court issued the
declaratory judgment from which the Defendants-

2
Petitioners appeal. Defendants-Petitioners filed a timely
appeal to the Fifth Circuit Court of Appeals, which
affirmed the district court’s judgment on August 23, 2019.
Defendants-Petitioners filed timely petitions for panel
rehearing and rehearing en banc, which were denied on
September 30, 2019. This Court has jurisdiction under 28
U.S.C. § 1254(1).
B. Caliste v. Cantrell
On August 14, 2018, the district court issued the
declaratory judgment from which the DefendantsPetitioners appeal. Defendants-Petitioners filed a timely
appeal to the Fifth Circuit Court of Appeals, which
affirmed the district court’s judgment on August 29, 2019.
Defendants-Petitioners filed timely petitions for panel
rehearing and rehearing en banc, which were denied on
October 1, 2019. This Court has jurisdiction under 28
U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
United States Constitution, Amendment XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the
State wherein they reside. No State shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.

3
42 U.S. Code § 1983:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress, except
that in any action brought against a judicial
officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall
not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.
For the purposes of this section, any Act of
Congress applicable exclusively to the District
of Columbia shall be considered to be a statute
of the District of Columbia.
STATEMENT OF THE CASE
The Cain Respondents are former criminal defendants
in the Orleans Parish Criminal District Court (“OPCDC”)
who all pled guilty to crimes between 2011 and 2014.
Respondents filed this civil rights action on behalf of
themselves and others similarly situated under 42 U.S.C.
§ 1983 claiming that the Judges’ authority over both fines
and fees revenue and ability-to-pay determinations, which
are required prior to a convicted criminal’s detention
for failure to pay fines and fees, violates the Fourteenth
Amendment’s Due Process Clause.

4
The Caliste Respondents are former criminal
defendants in the OPCDC who appeared before Petitioner
Magistrate Judge Harry Cantrell for bail hearings.
Respondents filed a civil rights action on behalf of
themselves and others similarly situated under 42 U.S.C.
§ 1983, claiming that Judge Cantrell’s adjudication of
bail hearings violates their right to due process because,
pursuant to Louisiana law, 1.8% of the bond amount
collected from commercial sureties is deposited into an
account over which the Court, including Judge Cantrell,
has discretionary use.
The Cain Petitioners are the Judges of the OPCDC,
including Judge Harry Cantrell. The Caliste Petitioner is
Judge Harry Cantrell. Petitioners are collectively referred
to as “the Judges.”
The district court had subject matter jurisdiction
over both the Cain and Caliste matters pursuant to 28
U.S.C. § 1331, which grants the district courts “original
jurisdiction of all civil actions arising under the . . . laws
. . . of the United States.”
Pursuant to Louisiana law, the OPCDC has, “exclusive
jurisdiction of the trial and punishment of all crimes,
misdemeanors, and offenses committed within the parish
of Orleans if the jurisdiction is not vested by law in
some other court.” La. Rev. Stat. § 13:1336; see LA Rev
Stat § 13:1335 (establishing one criminal district court,
composed of twelve judges, for Orleans Parish). Louisiana
law further requires Judge Cantrell, as the Magistrate
Judge, to preside over initial appearances and make bail
determinations. La. Rev. Stat. § 13:1346.

5
The Judges are statutorily authorized, and in some
cases required, to assess the following fines and fees to
criminal defendants at sentencing:
1.

A fine pursuant to La. Rev. Stat. § 15:571.11(D),
to be divided evenly between the OPCDC and the
District Attorney;

2.

Restitution pursuant to La. Code Crim. Proc. art.
883.2;

3.

A mandatory $5 fee pursuant to La. Rev. Stat.
§ 13:1381.4(A)(1);

4.

Fees of up to $500 for a misdemeanant and
$2,500 for a felon pursuant to La. Rev. Stat.
§ 13:1381.4(A)(2);

5.

Court costs of up to $100 pursuant to La. Rev.
Stat. § 13:1377(A);

6.

A $14 fee for the Indigent Transcript Fund
pursuant to La. Rev. Stat. § 13:1381.1(B); and

7.

Additional costs for the Indigent Transcript Fund
pursuant to La. Code Crim. Proc. art. 887(A).

State law also requires commercial sureties in Orleans
Parish to pay a bond fee of “three dollars for each one
hundred dollars worth of liability underwritten by the
commercial surety.” La. Rev. Stat. § 22:822 (A)(2).
Pursuant to Louisiana law, OPCDC’s revenue is
divided into two funds: (1) a restricted fund used for

6
specified purposes and (2) the Judicial Expense Fund
(“JEF”), which is the general operating fund for the court.
See La. Rev. Stat. § 13:1381.4. Louisiana law requires
certain fines and fees to be deposited into the JEF. La.
Rev. Stat. §§ 13:1381.4; 15:571.11(D). In addition, state law
requires 1.8% of the commercial surety fee to be deposited
into the JEF. La. Rev. Stat. §§ 22:822(B)(3); 13:1381.5(B).
Fines and fees, including bond fees, also benefit the
district attorney, the sheriff, indigent defenders, victims
of crimes, and indigent defendants. See La. Rev. Stat.
§§13:1381.5(B); 13:1381.1(B); 15:571.11(D) (remitting fines
and fees to entities other than the OPCDC); La. Code
Crim. Proc. art. 883.2 (providing for restitution payments
to victims).
State law gives the Judges collective administrative
control over the JEF, with the exception that it cannot
be used for the Judges’ own salaries. La. Rev. Stat.
§§ 15:571.11; 13:1381.4; The Judges must conduct an
annual audit of the JEF, which shall be filed with the
legislative auditor and available publicly. La. Stat. Ann.
§ 13:1381.4(B).
OPCDC’s annual revenue from 2012 through 2015
ranged from $7,567,875 to $11,232,470. Approximately
$4,000,000 of the total revenue was placed into the
JEF. The overwhelming majority of the court’s funding,
approximately $7,000,000 to $8,000,000, comes from the
State of Louisiana and the City of New Orleans. Courtordered fines and fees and commercial surety fees each
contributed approximately $1,000,000 to the JEF.1 The
1. The contribution of fines and fees to the JEF has
drastically decreased in recent years. For example, in 2018, fines

7
Judges receive no personal monetary benefit from the
JEF. Instead, each Judge’s division of court receives
$250,000 for operating expenses from the JEF regardless
the fines and fees collected in each division.
When the court has an expected budgetary shortfall,
the Judges go to the City of New Orleans executives for
funding. In the past, the Judges have requested and
received additional funds from the City of New Orleans to
fund OPCDC. In response to this suit, the Judges wrote off
$1,000,000 in court debts, an entire year’s worth of courtordered fines and fees revenue, yet the court remained
operational because state and city executives responsible
for funding the court continued to provide funding.
REASONS FOR ALLOWANCE OF THE WRIT
I.

REVIEW IS WARRANTED TO CORRECT A
SIGNIFICANT DEPARTURE FROM FEDERAL
COURTS’ ACCEPTED AND USUAL EXERCISE
OF J U RISDIC T ION ON LY OV ER CA SE S
THAT INVOLVE AN ARTICLE III CASE OR
CONTROVERSY.

This case does not present a justiciable case or
controversy under Article III because the defendant
Judges have no power to provide the relief that
Respondents seek, namely the elimination of the Judges’
and fees collections only totaled $507,735.52, and the OPCDC is
still operational. The Judges’ sought to supplement the record on
appeal to update the fines and fees collections’ statistics to include
statistics from the years 2016-2018, but the Fifth Circuit denied
that motion. The Judges contend that that denial was in error.

8
roles as both adjudicators of criminal matters and
administrators of the JEF. See U.S. Const. art. III. As a
result, no judgment in favor of Respondents and against
the Judges, declaratory or otherwise, from a federal
court can redress Respondents’ alleged injuries because
(A) the Judges have no power to change the state laws
designing either the OPCDC’s funding or the fines and
fees structures and (B) the Principle of Necessity demands
that the Judges hear criminal matters despite any conflict
of interest created by their roles as both adjudicators of
criminal matters and collective administrators of the JEF.
“[T]he core component of standing is an essential and
unchanging part of the case-or-controversy requirement
of Article III.” Lujan v. Defenders of Wildlife, 504 U.S.
555, 560 (1992). The “core” of standing, expressed by
Lujan as “the irreducible constitutional minimum,”
demands an injury that is “likely” to be “redressed by a
favorable decision.” Id. at 561 (internal quotations omitted).
Respondents do not have standing because their alleged
injuries cannot be redressed, and without standing, there
is no Article III case or controversy over which a federal
court can exercise subject matter jurisdiction.
A.

Respondents’ Alleged Injuries a re Not
Redressible because the Judges Have No
Power to Change State Laws Designing either
OPCDC’s Funding or the Fines and Fees
Structures.

Respondents’ alleged injury is the potential deprivation
of their right to an impartial tribunal in pre-detention
ability-to-pay hearings in Cain and bail hearings in
Caliste. This deprivation purportedly stems from the

9
Judges’ dual roles as adjudicators in ability-to-pay and bail
hearings and administrators of the JEF, both of which are
mandated by Louisiana law. Yet, instead of challenging
the constitutionality of the statutes establishing the JEF
and the OPCDC’s jurisdiction, Respondents attack the
Judges’ impartiality.
The district court, in fact, issued decisions favorable
to Respondents in both cases. In Cain the district court
entered a judgment declaring that, “the Judges’ failure to
provide a neutral forum for determination of such persons’
ability to pay is unconstitutional.” (App. B at 19a.) In its
Order and Reasons, the district court explained that, “[t]
he Judges’ control over both fines and fees revenue and
ability-to-pay determinations violates due process.” (App.
C at 76a.) The Fifth Circuit agreed in Cain that, “the
Judges’ administrative supervision over the JEF, while
simultaneously overseeing the collection of fines and fees
making up a substantial portion of the JEF, crosses the
constitutional line.”2 (App. A at 10a.)
2. The Fifth Circuit opinion in Cain seemingly confuses
the issue on appeal by focusing on the Judges’ assessment of
fines and fees instead of the Judges’ ability to preside over predetention ability-to-pay hearings. The District Court in Cain
was careful to note that, “Plaintiffs do not challenge the Judges’
initial assessment of fines and fees and the Court does not
address it.” (App. C at 77a. fn. 156) Nevertheless, the subsequent
Fifth Circuit decision in Caliste referenced the Cain opinion as,
“holding that Orleans Parish judges’ role in both imposing and
administering court fees and fines violated due process.” (App.
F at 137a.) (emphasis added) To the extent that the Fifth Circuit
in Cain mistakenly decided the constitutionality of fines and fees
assessments, an issue not decided (and specifically excluded) by
the district court, that decision is squarely outside of its appellate
jurisdiction. (See App. C at 77a. fn. 156 (stating that the district
court will not address fine and fees assessments))

10
In Caliste, the district court entered a judgment
declaring that, “Judge Cantrell’s institutional incentives
create a substantial and unconstitutional conflict of
interest when he determines their ability to pay bail
and sets the amount of that bail.” (App. G at 142a.) In
its Order and Reasons, the district court explained
that, “Judge Cantrell . . . has a financial interest in
these determinations . . . because revenue collected as a
percentage of the bail set by him is promptly sent to the
[Judicial Expense] Fund.” (App. H at 178a.) The Fifth
Circuit agreed in Caliste that Judge Cantrell’s dual role as
both a decisionmaker in bail hearings and administrator
of the JEF violates due process. (App. F at 136a.)
However, these otherwise favorable rulings do not
redress Respondents’ alleged deprivation of a neutral
forum because the Judges have no power to change state
law to either redesign the OPCDC’s funding structure
or to change the scope of the OPCDC’s jurisdiction. That
power rests solely with Louisiana’s legislature. The Fifth
Circuit nearly admits as much, observing that, “[G]iven
today’s ruling and last week’s in Cain, it may well turn
out that the only way to eliminate the unconstitutional
temptation is to sever the direct link between the money
the criminal court generates and the Judicial Expense
Fund that supports its operations.” (App. F at 139a.) The
Fifth Circuit further acknowledges that the federal court
has no power to undo the state statutes that direct portions
of fines and fees into the JEF. Id. at 13. Nevertheless, it
exercised jurisdiction over the Caliste case, seemingly
because it mistakenly believes that, “Judge Cantrell’s
dual role . . . is not mandated by Louisiana Law.” Id. at 13.

11
A clear reading of Louisiana law reveals that Judge
Cantrell’s dual role as an adjudicator in bail hearings
and administrator of the JEF is indeed designed by
the legislature and mandated by law. The state statute
creating the Magistrate Judge position in OPCDC states
that Judge Cantrell, “shall preside over the Magistrate
Section.” La. Rev. Stat. § 13:1346. It further states that he,
“shall have jurisdiction to act as committing magistrate in
felony and misdemeanor charges and to hold preliminary
examinations, with the authority to bail or discharge,
or to hold for trial, in all cases.” Id. As a result, Judge
Cantrell must fulfill his statutory mandate to make bail
determinations. Similarly, in Cain, the Judges must
make pre-detention ability-to-pay determinations when
convicted criminals fail to pay court-ordered fines and
fees because the OPCDC has exclusive jurisdiction over
criminal cases in Orleans Parish. La. Rev. Stat. § 13:1336.
Regarding the Judges’ collective administration of
the JEF, the Louisiana statute creating the JEF allows
the Judges to use money from the JEF, “for any purpose
connected with, incidental to, or related to the proper
administration or function of the court or the office of the
judges thereof.” La. Rev. Stat. § 13:1381.4. State law further
mandates that fines and fees be deposited into an “account
to be administered by the judges of the criminal district
court of Orleans Parish.” La. Rev. Stat. § 15:571.11(D).
The state legislature recognized the statutorily-created
dual role of the judges as both adjudicators of criminal
matters and administrators of the JEF and provided
further conditions to the Judges’ administration of the
JEF to combat against any perceived conflict of interest.
One condition is that, “judges of the court shall cause to be
conducted annually an audit of the fund and the books and

12
accounts relating thereto and shall file the same with the
office of the legislative auditor where it shall be available
for public inspection.” Id. Another condition is that, “[n]
o salary shall be paid from the judicial expense fund to
any judges of the court.” Id. As a result, Louisiana law
is clear: The Judges’ duties include both making judicial
determinations and collectively administering the JEF,
subject to statutory restrictions and oversight.
The Lujan court denied standing to Plaintiffs whose
injury could not be redressed by the defendant Secretary
when the funding agencies whose actions could redress
the alleged injuries were neither parties to the suit nor
“obliged to honor an incidental legal determination the suit
produced.” See Lujan at 570-71. Similarly, the only party
whose actions can eliminate the alleged unconstitutional
dual role of the Judges and redress Respondents’ alleged
deprivation of a neutral forum is the State of Louisiana,
and the State is neither a party to this action nor obliged
to change otherwise valid state law and policy based upon
an incidental legal determination made by a federal court
in these cases.
Respondents claim that the Judges are bound by the
principle of supremacy to eliminate their unconstitutional
conflict of interest regardless of Louisiana state law. But
this is not a case where the Judges can choose between
applying either a federal law or a directly conflicting state
law. There is no judicial mechanism for the Judges to
either eliminate the statutorily-created JEF or to refuse
the funds that are automatically deposited into it pursuant
to state law. Respondents are seemingly proposing that
the Judges not adjudicate matters over which they have
exclusive jurisdiction – bail hearings in Caliste and predetention ability-to-pay hearings in Cain.

13
Of course, what Respondents are really doing is
launching disguised political attacks on what they
perceive as general failings of the criminal justice
system. In Cain, Respondents seek to eliminate a “userpays” criminal justice system by attempting to force the
Judges to forego the legal imposition of fines and fees as
valid terms of criminal sentences 3 in order to avoid the
necessity of presiding over ability-to-pay hearings for
convicted criminals who fail to pay their debts. In Caliste,
Respondents seek to eliminate the money bail system
by attempting to prevent Judge Cantrell from setting
monetary conditions on pre-trial release in order to avoid
the statutorily-mandated fee on commercial sureties that,
pursuant to state law, is deposited into the JEF.
However noble or well-intentioned Respondents’
political goals may be, the structure and funding of
Louisiana’s criminal justice system is controlled by the
State’s legislative and executive branches, not the judicial
branch. And whatever the Judges’ own opinions may be
regarding the wisdom of their court’s funding structure,
they have no more power to change state law than they do
to shirk their responsibility to hear cases over which the
Louisiana legislature gives them exclusive jurisdiction.
3. The District Court noted that “[T]he Louisiana Supreme
Court has recently held that state trial courts maintain discretion
to impose a “broad category of costs” under Louisiana law. See
generally State v. Griffin, 180 So. 3d 1262, 1268 (La. 2015).
Moreover, the imposition of some costs, such as the ‘special costs
to the district indigent defender fund,’ are not discretionary; a
Louisiana trial court has no choice but to impose these costs on
a criminal defendant who has been convicted. See generally La.
Rev. Stat. § 15:168 (“Every court of original criminal jurisdiction
. . . shall remit the following special costs . . .”).” (App. D at
112a-113a.)

14
B. Respondents’ Injuries are Not Redressible
because the Rule of Necessity Dictates that
the Judges Must Preside Over State Court
Criminal Cases, Including Pre-Detention
Ability-to-Pay Hearings and Bail Hearings,
despite any Conflict of Interest Created by
Their Roles as Both Adjudicators of Criminal
Matters and Collective Administrators of the
JEF.
The longstanding common law Rule of Necessity
dictates that judges who might otherwise be disqualified
from hearing cases as a result of a conflict of interest can
nevertheless hear cases when there is no alternative judge
or forum available to hear the matter. Kurtis A. Kemper,
Annotation, Construction and Application of Rule of
Necessity in Judicial Actions, Providing that a Judge
Is Not Disqualified to Try a Case Because of Personal
Interest If Case Cannot Be Heard Otherwise, 27 A.L.R.6th
403 (2007). Any disqualifying conflict of interest resulting
from the Judges’ roles as adjudicators of criminal matters
and administrators of the JEF is defeated by the Rule of
Necessity because the Judges, whose Court has exclusive
jurisdiction over pre-detention ability-to-pay and bail
hearings in Orleans Parish, all collectively administer the
JEF, leaving no alternative judge or forum to adjudicate
ability-to-pay and bail hearings in Orleans Parish. See La.
Rev. Stat. § 13:1336 (granting exclusive jurisdiction to the
OPCDC over all criminal matters in Orleans Parish and
giving the Judges authority to set bail in felony cases);
La. Rev. Stat. § 13:1346 (giving the Magistrate judge
authority to set bail in felony and misdemeanor cases). As
a result, a decision in Respondents’ favor declaring that
the Judges have a disqualifying conflict of interest based

15
upon their administration of the JEF cannot redress
the Respondents’ complaints that they are deprived of
an impartial tribunal in ability-to-pay and bail hearings
because the Rule of Necessity requires the Judges to
preside over those hearings.
Courts have specifically approved application of the
Rule of Necessity when judges have a financial interest
in the outcome of the case. See Kemper at §§5-10. In U.
S. v. Will, 449 U.S. 200 (1980), this Court found that the
Rule of Necessity permitted federal court judges to decide
issues that could affect their personal salaries. Will at 217
(noting that “The Rule of Necessity has been consistently
applied in this country in both state and federal courts.”).
The federal judges’ pecuniary interest in their personal
compensation in Will implicated an interest far more
concerning than the Judges’ institutional interest in a
fraction of the court’s operating funds that cannot be
used to pay their salaries. The Will Court found that
application of the Rule of Necessity was necessary to serve
the public’s interest in the resolution of crucial matters.
Id. Similarly, the Judges’ adjudication of criminal cases in
Orleans Parish serves a crucial public interest in having
a functioning criminal court.
Courts have also applied the Rule of Necessity
when judges might have been disqualified as a result
of an institutional interest stemming from a judge’s
administrative functions. See Kemper at §22. In Rosenfield
v. Wilkins, 468 F.Supp.2d 806 (W.D. Va. 2006), the Chief
Judge found that the Rule of Necessity allowed him to
preside over a case challenging the court’s procedures for
compensating attorneys who represent indigent criminal
defendants despite the fact that he had an institutional

16
interest in administering the Criminal Justice Act
pursuant to which attorneys appointed to represent
indigent defendants were compensated. Rosenfield at
808-09. The Chief Judge concluded that, “every Article III
judge shares my “institutional interest” in the statutory
regime we are required to implement.” Id. at 809.
Similarly, the OPCDC Judges all share an institutional
interest in administering the statutorily-created JEF,
which, pursuant to statute, is partially funded by certain
statutorily-authorized fines and fees.
In conclusion, even though a federal court has declared
that the Judges have an unconstitutional conflict of
interest by virtue of their collective administration of the
JEF, the Respondents’ alleged injury – the deprivation of
an impartial tribunal – cannot be redressed because the
Principle of Necessity overrides any institutional conflict
of interest and demands that the Judges hear criminal
matters over which only they have jurisdiction.
II. REVIEW IS WARRANTED TO RESOLVE A
CONFLICT WITH THIS COURT’S DECISION
IN CAPERTON REGARDING THE STANDARD
APPLICABLE TO JUDICIAL DISQUALIFICATION
UNDER THE DUE PROCESS CLAUSE.
The Fifth Circuit’s assessment of the Judges’ interest
in the Judicial Expense Fund wholly disregards the
principles articulated by this Court in Caperton for
evaluating judicial disqualification under the due process
clause. Caperton v. A.T. Massey Coal Co., Inc., 556 U.S.
868 (2009). Caperton articulated the “probability of
actual bias” standard for assessing allegations of judicial
impartiality. Id. at 886-87; see also Id. at 881 (“whether

17
the average judge . . .is ‘likely’ to be neutral”); 881
(“constitutionally intolerable probability of actual bias”);
883-84 (“whether . . . the interest poses a risk of actual
bias.”).
The Fifth Circuit never evaluated the Judges’ alleged
interests for a “probability of actual bias” as required by
Caperton. Instead, it based its opinion that the Judges’
interests violate due process by finding the existence of
a “temptation” and the mere possibility of bias. (See App.
F at 136a (“The dual role thus may make the magistrate
‘partisan’”) (emphasis added); at 137a. (“vulnerable to
the ‘temptation’”); see also App. A at 17a (finding that the
“temptation” confronting the Judges was “too great”))
The Fifth Circuit extracts this “temptation” test from
the Tumey line of cases but fails to recognize Caperton’s
instruction that such a “temptation” violates due process
only when it introduces a “probability of actual bias.”
See Caperton at 882; Tumey v. State of Ohio, 273 U.S.
510 (1927); see also Raymond McKowski, Judicial
Disqualification After Caperton v. A.T. Massey Coal
Company: What’s Due Process Got To Do With It?, 63
Baylor L. Rev. 368, 372 (2011) (“[U]nder the Tumey test
as interpreted by Caperton, due process requires recusal
whenever the circumstances: (1) viewed objectively; (2)
demonstrate a serious risk of actual bias; (3) on the part
of the average judge.”)
Caperton further warned that finding a probability
of actual bias violative of due process happens only
in “extreme,” “extraordinary,” and “rare” cases. See
Caperton, 556 U.S. at 887. “This Court’s recusal cases
are illustrative. In each case the Court dealt with extreme
facts that created an unconstitutional probability of

18
bias.” Id. Caperton characterized its decision as one
that “addresse[d] an extraordinary situation where the
Constitution requires recusal.” Id. at 888. It also warned
that, “[a]pplication of the constitutional standard implicated
in th[at] case will thus be confined to rare instances.” Id.
at 890. The Fifth Circuit never characterized these cases
as extreme, extraordinary, or rare. Instead, it evaluated
them under the less stringent professional standard for
recusal, such as the one articulated by the ABA Model
Code of Judicial Conduct, which seeks “to eliminate even
the appearance of partiality.” Caperton at 888-90. (See
App. A at 14a. (quoting “appearance of justice” language);
App. F at 133a. (using “mere threat of impartiality”
language)) But Caperton is quick to note that, “the codes
of judicial conduct provide more protection than due
process requires.” Id. at 890; see also McKowski at 391
(noting while the ABA test is judged by the standard of
an “ordinary reasonable person,” the due process test
is judged by the “average judge” standard.). A proper
inquiry under Caperton asks whether the Judges are
likely to be or will probably be partial when making
decisions in pre-detention ability-to-pay and bail hearings.
The Fifth Circuit never engaged in this inquiry because
it applied the wrong standard to evaluate the Judges’
alleged interest.
If this Court allows the Fifth Circuit’s “appearance/
temptation” standard to stand as the measure of a
disqualifying interest for judges under the due process
clause, the repute and operation of all courts hang in
the balance. This Court pays more than lip service to
the policy implications that can result from a relaxed
approach to finding due process violations based upon
judges’ conflicts of interest and emphasizes the extremity

19
required to violate due process. See Caperton, 556 U.S.
868, 887 (“It is true that extreme cases often test the
bounds of established legal principles, and sometimes
no administrable standard may be available to address
the perceived wrong.”). The dissenters in Caperton
highlighted the potential implications that judicial bias
cases can have on the justice system:
To its credit, the Court seems to recognize
that the inherently boundless nature of its
new rule poses a problem. But the majority’s
only answer is that the present case is an
“extreme” one, so there is no need to worry
about other cases . . . But this is just so much
whistling past the graveyard. Claims that
have little chance of success are nonetheless
frequently filed . . . Every one of the “Caperton
motions” or appeals or §1983 actions will claim
that the judge is biased, or probably biased,
bringing the judge and the judicial system into
disrepute. And all future litigants will assert
that their case is really the most extreme thus
far . . . Extreme cases often test the bounds of
established legal principles. There is a cost to
yielding to the desire to correct the extreme
case, rather than adhering to the legal principle.
That cost has been demonstrated so often that
it is captured in a legal aphorism: “Hard cases
make bad law.”
Id. at 899 (dissenting opinion). If Caperton was a hard
case that tested the bounds of due process, these cases
are easily within those boundaries.

20
All judges have an institutional interest in keeping
their courts functional. If a criminal court judge cannot
constitutionally hear matters that might have some effect
on their court’s funding when that same judge partially
manages a portion of those funds, what is next? A claim
that a judge with no administrative role can no longer
constitutionally hear matters in her court because she
has an institutional interest in and benefits from fines
and fees that are used to fund the court? Or an argument
that criminal judges cannot decide criminal cases because
certain fines and fees used to fund the court can only
be assessed to convicted criminals, thereby giving the
judges an institutional interest in convicting rather than
acquitting criminal defendants? Expanding the Caperton
scope of extremity to encompass the Judges’ adjudication
of bail and ability-to-pay hearings not only breaks from the
controlling precedent involving judicial disqualification, it
calls into question the integrity of the judiciary and the
impartiality of every judge whose court benefits from fines
and fees assessments.
III. REVIEW IS WA RRA N TED TO CORRECT
THE FIFTH CIRCUIT’S IMPERMISSIBLE
E X T E N S I O N O F T H E T U M E Y / WA R D /
CA PERTON PRINCIPLES FOR JUDICIA L
DISQUALIFICATION TO A BROAD CATEGORY
OF INTERESTS.
The Fifth Circuit impermissibly extends the Tumey/
Ward/Caper ton principles to the Judges’ general
institutional interest in the OPCDC’s operating funds.
See Tumey v. State of Ohio, 273 U.S. 510 (1927); Ward
v. Village of Monroeville, Ohio, 409 U.S. 57 (1972);
Caperton, 556 U.S. 868. Tumey adopted the common

21
law rule that a judge’s “direct, personal, substantial
pecuniary interest” in a case disqualifies the judge from
adjudicating the matter. Tumey, 273 U.S. at 523. Ward
extended Tumey to encompass the interest of a mayorjudge with broad executive power finding that he could
not serve as an impartial adjudicator even though, unlike
the Tumey mayor, his salary was not paid from the
fines and fees he collected. Ward, 409 U.S. 57. Though
the Ward mayor’s interest was institutional rather than
personal, the mayor’s findings of guilt directly led to the
collection of a fine, which in turn directly increased the
village’s revenue, for which the mayor was ultimately
responsible as chief executive. In Caperton, this Court
synthesized the Tumey/Ward lines of cases to articulate
a “probability of actual bias” standard and warned that
finding an interest violative of due process happens only in
“extreme,” “extraordinary,” and “rare” cases. Caperton,
556 U.S. at 882, 887.
While the district court in both cases was clear that
the Judges’ interest here was neither direct nor personal4 ,
the Fifth Circuit is seemingly conflicted about how to
classify the Judges’ interest. The district court in both
4. The Louisiana Supreme Court has rejected that idea
institutional revenue derived from court costs demands recusal. In
response to a criminal defendant’s assertion that prosecutors, whose
office collects a portion of fines and fees following a conviction, were
“‘interested’ in a conviction,” the Court noted the district attorneys’
duty is to “seek ‘equal and impartial justice – not to seek a conviction
or a fee’” and emphasized that, “[T]his Court has never held — and
declines to hold here — that a standardized fee collection, set forth in
a public schedule and imposed on convicted criminals, is tantamount
to, or in any way equates to, a ‘personal interest’ in a matter.” State
v. Griffin, 180 So. 3d 1262, 1272 (La. 2015).

22
cases agreed that the Judges’ interest is “institutional,
rather than direct and individual.” (App. C at 85a.); (App.
H at 181a.) In Cain, the Fifth Circuit appears to adopt
the district court’s classification of the Judges’ interest
as “institutional,” noting that the JEF revenue “does not
support the Judges’ personal salaries.” (App. A at 16a.)
In Caliste, however, the Fifth Circuit disagrees with
the district court and classifies Judge Cantrell’s interest as
“direct and personal.” (App. F at 136a.) Interestingly, the
Fifth Circuit in Caliste appears to find Judge Cantrell’s
interest to be non-pecuniary, noting that “Judge Cantrell
does not receive a penny, either directly or indirectly, from
his bail decisions. But requiring a secured money bond
provides him with substantial nonmonetary benefits.”
(App. F at 133a-134a.); See also App F at 134a (“So we
do not think it makes much difference that the benefits
Judge Cantrell and his colleagues receive from bail bonds
are not monetary.”).
Taking both cases together, the Fifth Circuit whittles
down the Tumey/Ward principle to encompass interests
that can be neither direct, personal, nor pecuniary as long
as they are judged to be substantial. This impermissible
extension (or destruction) of the Tumey/Ward principle
for disqualification directly conflicts with Caperton’s
requirement that disqualification of judges be restricted
to interests that create a likelihood of actual bias.
A.

The Judges’ Interest is Neither Direct nor
Personal.

In Cain, the outcome of ability-to-pay hearings do not
directly affect the financial well-being of the court. More

23
specifically, a Judge’s finding that a convicted criminal
who failed to pay a debt is able to pay that debt, and
therefore can be imprisoned for such failure to pay, does
not directly affect each Judge’s institutional interest in
the money he or she receives from the JEF for operating
expenses. Likewise, in Caliste, neither Judge Cantrell’s
bail decisions nor the amount of money collected by the
OPCDC from commercial sureties affect his institutional
interest in the money he receives from the JEF for
operating expenses. In both cases, operating expenses
paid by the JEF do not inure to the Judges’ personal
benefit.
1.

The Judges’ Interest in Cain v. White

Neither the district court nor the Fifth Circuit classify
the Judges’ interest in Cain as a personal interest. While
the lower courts seemingly dispose of both the direct and
personal requirements of Tumey with one finding that the
Judges’ interest is “institutional, rather than direct and
individual,” a proper analysis of the interest for directness
reveals that the Judges’ interest, while institutional, is not
direct. First, there is no evidence that an ability-to-pay
finding increases the amount of money in the JEF. To
find that a Judge’s decision directly affects the amount
of money in the JEF, two unsupported assumptions must
be made. First, one must assume that the fines and fees
that the convicted criminal owes belong to a category of
fines and fees that is deposited into the JEF. Second, one
must assume that an ability-to-pay finding directly leads
to the collection of the outstanding fines and fees. 5 To the
5. The district court found, and Appellants do not dispute,
that the Judges should hold ability-to-pay determinations prior to

24
contrary, if the Judges determine that a defendant is able
to pay, then the defendant’s failure to pay could lead to
imprisonment, which, in turn, would make it more difficult
for the defendant to earn money to pay the outstanding
debt.
Next, even if the Judges’ ability-to-pay findings did
increase outstanding debt payment and assuming that the
outstanding debts were in the categories of fines and fees
that are deposited into the JEF, there is no relationship
between the amount of fines and fees collected in each
Judge’s division of court and the amount of money each
division receives annually from the JEF for operating
expenses. Each Judge’s division of court receives $250,000
for operating expenses from the JEF regardless of the
amount of fines and fees each judge assesses or collects.
(See App. A at 4a; App. H at 181a.)
Finally, there is no evidence the Judges will not have
money to cover operating expenses absent the deposit of
any outstanding fines and fees into the JEF. The Judges
imprisonment for nonpayment of court debt. The prior absence of
pre-imprisonment ability-to-pay determinations had the practical
effect of assuming an ability-to-pay determination for all criminal
defendants with outstanding court debts absent an affirmative
assertion of indigence, which the Judges have always considered.
The district court describes how under this assumed ability-topay system, the court collected “only 40% and 50% of the fines
and fees it assesses” and how “[t]he amounts that go uncollected
run in the hundreds of thousands of dollars.” If an assumption
that every criminal defendant with an outstanding court debt
had the ability to pay did not result in collection of debts, it is
hard to imagine, as the Fifth Circuit assumes, that the Judges’
determinations of ability to pay on a case-by-case basis will lead
to increased collection of debts.

25
manage the JEF in accordance with legislative mandates,
but when the court has a budgetary shortfall, state and
city executives are ultimately responsible for funding the
court. For example, in response to this suit, the Judges
wrote off $1,000,000 in court debts, yet the OPCDC still
received enough funding from other sources to pay its
operational expenses. Unlike Ward, where the mayor’s
“broad executive powers and the significance of the
mayor’s court revenues to the fiscal health of the village,
for which he was responsible, made his position inherently
partisan,” the Judges do not exercise broad executive
power over the court’s revenue nor are they ultimately
responsible for the fiscal health of the court.
2.

Judge Cantrell’s Interest in Caliste v.
Cantrell

The Fifth Circuit hinges its finding of a direct and
personal interest in the Caliste case on the conclusion that
Judge Cantrell might lose his job if he does not make bail
decisions that ultimately increase a portion of the funds
that help support the operation of his chambers. (See App.
A at 134a. (“The fees the Orleans Parish Criminal District
Court receives from commercial sureties thus help fund
critical pieces of a well-functioning chambers. And if an
elected judge is unable to perform the duties of the job, the
job may be at risk.”); at 136a. (“Because he must manage
his chambers to perform the judicial tasks the voters
elected him to do, Judge Cantrell has a direct and personal
interest in the fiscal health of the public institution that
benefits from the fees his court generates and that he also
helps allocate.”)) This conclusion has several flaws.

26
First, the Fifth Circuit misstates the relevant
interest. The interest implicated by Judge Cantrell’s bail
decisions is an interest in the 1.8% commercial surety
fee, not the general fiscal health of the court. Judge
Cantrell’s bail decisions hardy impact the overall fiscal
health of OPCDC, which is primarily funded by the State
of Louisiana and the City of New Orleans.6 On the other
hand, Judge Cantrell’s bail decisions might possibly
impact, though indirectly, the collection of a 1.8% fee
charged to commercial sureties. As a result, the interest
that should be evaluated when determining whether
Judge Cantrell has an unconstitutional conflict of interest
in making bail determinations is his interest in the 1.8%
commercial surety fee that is deposited into the JEF; that
interest is neither direct nor personal. Judge Cantrell does
not receive any personal money from the JEF. Instead,
the magistrate division of the OPCDC receives $250,000
for operating expenses from the Judicial Expense Fund
regardless of the amount of commercial surety fees
deposited into the JEF.
Next, even assuming that the relevant interest is
Judge Cantrell’s interest in the general fiscal health of
the court, the Fifth Circuit further assumes that the
Magistrate’s court will be forced to close its doors without
the 1.8% fee that it receives from commercial sureties
because, as the opinion explains, Judge Cantrell cannot
serve as his own court reporter. (See App. F at 134a.)
However, there is no precedent to support this assumption.
Though OPCDC has had funding challenges in the past, it
has never shut its doors and fired the Magistrate Judge.
6. From 2012 through 2015, bond fees from commercial
sureties accounted for only 9.5-11% of the court’s total revenues.

27
Additionally, though Louisiana law allows the Judges
to use the JEF to pay for court reporters, law clerks,
and secretaries, it does not provide that the JEF is the
exclusive source of revenue for those operating expenses,
and it is unreasonable to assume that the city and state
executives responsible for funding the court would force
Judge Cantrell to serve as his own court reporter if the
JEF did not cover the cost of one.
Finally, assuming that OPCDC does experience a
funding deficiency because of inadequate contribution
from commercial surety fees, the opinion further assumes
that voters would hold Judge Cantrell responsible for that
deficiency. In reality, because Judge Cantrell is an elected
judge, voters are more likely to hold him accountable
for his judicial decisions, including those made at bail
hearings, than for funding the court. As a result, his
personal job security relies upon his public service as an
impartial decision-maker7, not his fictitious responsibility
for funding the entire court through commercial surety
fees. To the extent that voters are concerned with the
court’s fiscal health, they will look to elected city and state
executives who are ultimately responsible for funding the
states’ courts.

7. It is not lost on Judge Cantrell that Plaintiffs’ simultaneously
accuse him of categorically keeping criminal defendants in
jail because they are poor and categorically letting criminal
defendants out of jail on a secured money bond so that he can
generate revenue for the court.

28
B. The Fifth Circuit Ignored this Court’s Prior
Precedents in Finding that the Judges’ Interest
is Substantial Enough to Violate Due Process.
The Judges’ interest in the portion of fines and fees
deposited into the JEF does not compare to the interests
that this Court has found violate due process. In Ward
v. Village of Monroeville, Ohio, 409 U.S. 57 (1972), the
case most relied upon by the Fifth Circuit to classify the
Judges’ interest as substantial, the fines and fees assessed
by the mayor-judge contributed between 37-51% of the
total village revenues, serving in at least one year as the
majority of the village’s funding. Ward, 409 U.S. at 58.
The Fifth Circuit determined that the 20-25% contribution
by each court-ordered fines and fees (in Cain) and bond
fees (in Caliste) to the JEF was comparable to Ward, but
a true comparison of this interest to the interest in Ward
requires the court to determine what percentage courtordered fines and fees and bond fees from commercial
sureties contribute to the court’s total revenue, not only
the revenue of the JEF. (See App. F at 136a; App. C at 26a.)
From 2012 through 2015, court-ordered fines and fees and
bond fees from commercial sureties each accounted for
approximately 10% of the court’s total revenues, less than
one third of the lowest contribution considered in Ward.
The Judges’ institutional interest in the Judicial
Expense Fund is less than the institutional interest of the
mayor in Dugan v. State of Ohio, 277 U.S. 61 (1928). In
Dugan, this Court found that a mayor who maintained no
executive power in the city, served on the five-member city
commission, and received his salary from the same fund
that drew revenue from his fines and fees assessments,
but received a salary regardless of how he decided cases,

29
did not have an unconstitutional conflict of interest. Id.
Like the mayor in Dugan, the Judges do not have any
executive power over the city nor are their salaries or
the amount of money they receive from the JEF affected
by their judicial decisions. Unlike the Dugan mayor, the
Judges have no presence on the city council, which has
executive responsibilities for funding the OPCDC, and
their salaries are not drawn from any fund that receives
revenue from fines and fees. See Id. at 62-62 (noting that
the mayor-judge was a member of the city commission
whose salary was paid from the same fund in which fines
and fees were deposited).
Though they involve both a personal and direct
interest (unlike the Judges’ interest here), two additional
Supreme Court cases indicate what constitutes an interest
substantial enough to disqualify a judge. In Aetna
Life Ins. Co. v. Lavoie, 475 U.S. 813 (1986), the Court
found that a judge’s personal receipt of $30,000 was a
substantial interest violative of due process. In Caperton,
when determining whether a litigant’s judicial campaign
contribution violated due process, the Court stated that,
“[t]he inquiry centers on the contribution’s relative size in
comparison to the total amount of money contributed to
the campaign, the total amount spent in the election, and
the apparent effect such contribution had on the outcome
of the election.” Caperton, 556 U.S. at 884. The Caperton
Court ultimately concluded that because the litigant’s
$3 million campaign contribution to the judge was three
times more that the amount spent by the judge’s own
campaign committee and $1 million more than the total
amount spent by both candidates’ campaign committees
combined, the contribution’s influence was significant and
disproportionate. Id.

30
Here, the amount of money that the OPCDC receives
from the State of Louisiana is five to six times more, and
the amount that it receives from the City of New Orleans
is at least two times more, than the amount received from
court-ordered fines and fees or bond fees. Additionally, the
amount of money that the Judges receive annually from
the JEF is $250,000, approximately 2-3% of OPCDC’s
total revenue, and is not affected the Judges’ decisions in
ability-to-pay or bail hearings. As a result, the revenue
that the OPCDC receives from court-ordered fines and
fees or bond fees collected from commercial sureties is
neither substantial nor disproportionate considering its
other sources of funding and considering that the Judges’
judicial decisions do not affect the amount they receive
annually for operating expenses.
CONCLUSION
For all the foregoing reasons, Petitioners respectfully
request that the Supreme Court grant review of these
matters.
			Respectfully Submitted,
Dennis J. Phayer
Mindy Nunez Duffourc*
Burglass & Tankersley, LLC
5213 Airline Drive
Metairie, LA 70001-5602
(504) 836-2220
mnunezduffourc@burglass.com
Counsel for Petitioners

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the fifth
circuit, filed august 23, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-30955
ALANA CAIN; ASHTON BROWN; REYNAUD
VARISTE; REYNAJIA VARISTE; THADDEUS
LONG; VANESSA MAXWELL,
Plaintiffs-Appellees
v.
LAURIE A. WHITE, Judge Section A of
the Orleans Parish Criminal District
Court; TRACEY FLEMINGS-DAVILLIER,
Judge Section B of the Orleans Parish
Criminal District Court; BENEDICT
WILLARD, Judge Section C of the Orleans
Parish Criminal District Court; KEVA
LANDRUM-JOHNSON, Judge Section E of
the Orleans Parish Criminal District
Court; ROBIN PITTMAN, Judge Section
F of the Orleans Parish Criminal
District Court; BYRON C. WILLIAMS,
Judge Section G of the Orleans Parish
Criminal District Court; CAMILLE
BURAS, Judge Section H of the Orleans
Parish Criminal District Court; KAREN
K. HERMAN, Judge Section I of the

2a
Appendix A
Orleans Parish Criminal District Court;
DARRYL DERBIGNY, Judge Section J of the
Orleans Parish Criminal District Court;
ARTHUR HUNTER, Judge Section K of the
Orleans Parish Criminal District Court;
FRANZ ZIBILICH, Judge Section L of the
Orleans Parish Criminal District Court;
HARRY E. CANTRELL, Magistrate Judge of
the Orleans Parish Criminal
District Court,
Defendants-Appellants
Appeal from the United States District Court
for the Eastern District of Louisiana
Before HAYNES, GRAVES, and HO, Circuit Judges.
JAMES E. GRAVES, JR., Circuit Judge:
Plaintiff-Appellees are former criminal defendants
in Orleans Parish, Louisiana who sued DefendantAppellants, Judges of the Orleans Parish Criminal
District Court (“OPCDC”), under 42 U.S.C. § 1983.
Plaintiffs alleged the Judges’ practices in collecting
criminal fines and fees violated the Due Process Clause
of the Fourteenth Amendment. The district court granted
summary judgment in Plaintiffs’ favor. We affirm,
although we emphasize at the outset that the resolution
of this case is dictated by the particular facts before us.

3a
Appendix A
I. BACKGROUND
A.	The Parties
Plaintiff-Appellees are Alana Cain, Ashton Brown,
Reynaud Variste, Reynajia Variste, Thaddeus Long, and
Vanessa Maxwell, former criminal defendants in OPCDC
who pleaded guilty to various criminal offenses between
2011 and 2014. All but Reynaud Variste qualified for and
were appointed public defenders. At sentencing, Plaintiffs
were assessed fines and fees ranging from $148 to $901.50.
All were arrested for failure to pay their assessed fines
and fees, given a $20,000 bond, and spent anywhere from
six days to two weeks in jail.
Defendant-Appellants are twelve OPCDC judges,
Judges Laurie A. White, Tracey Flemings-Davilier,
Benedict Willard, Keva Landrum-Johnson, Robin
Pittman, Byron C. Williams, Camille Buras, Karen K.
Herman, Darryl Derbigny, Arthur Hunter, Franz Zibilich,
and Magistrate Judge Harry Cantrell (the “Judges”)1.
B.	The Judicial Expense Fund (“JEF”)
The JEF is established pursuant to La. Rev. Stat.
§ 13:1381.4 and consists of OPCDC revenue that is not
designated or restricted for a specific purpose. Accordingly,
1. All claims against the OPCDC and the City of New
Orleans were dismissed prior to the district court’s order granting
summary judgment at issue here. Judicial Administrator Robert
Kazik and Orleans Parish Sheriff Marlin Gusman are not parties
to this appeal.

4a
Appendix A
it is also known as the General Fund. The JEF receives
funding from a variety of sources, including the City of
New Orleans and bail bond fees, but approximately one
quarter of the monies it receives comes from the court’s
collection of fines and fees.
The Judges have exclusive control over how the JEF
is spent, and generally use it for the following:
salaries and related-employment benefits
(excluding the judges), CLE travel, legislative
expenses, conferences and legal education,
ceremonies, office supplies, cleaning supplies,
law books, bottled water, jury expenses,
telephone, postage, pest control, dues and
subscriptions, paper supplies, advertising,
building maintenance and repairs, cleaning
services, capital outlay, equipment maintenance
and repairs, lease payments, equipment rentals,
professional and contractual expenses, the drug
testing supplies, coffee, transcripts, insurance,
and miscellaneous.
Money from the fund may not be used to supplement the
Judges’ own salaries, although, as noted above, it can
be used to pay the salaries of court personnel. La. Rev.
Stat. § 13:1381.4(D). Each judge is allocated $250,000 per
annum for personnel salaries and $1,000 for court costs
from the JEF. The fund also covers the cost of professional
liability insurance coverage as authorized by the Louisiana
Supreme Court. “For some time prior to 2011, some
judges received supplemental benefits” from the JEF

5a
Appendix A
in the form of supplemental health insurance policies
and reimbursement for out-of-pocket medical expenses;
however, this practice fully ended by 2012 following an
investigation by the Louisiana Legislative Auditor.
When collection of the fines and fees is reduced, the
OPCDC can have a difficult time meeting its operational
needs, leading to cuts in services, reduction of staff
salaries, and leaving some positions unfilled. During
these times, the Judges have attempted to increase their
collection efforts and have also requested assistance
from other sources of funding, including the City of New
Orleans.
C.	The Fines and Fees
Several Louisiana statutes and codes permit the
Judges to assess fines and fees to criminal defendants at
sentencing. Some fines and fees have specific purposes
and are collected to be distributed for specific statutory
purposes, 2 while others are collected and then split
between the court and other agencies. 3 However, some
2. Restitution is collected to benefit the victims of crime, see
La. Code Crim. Proc. Art. 883.2, and a $14 fee is collected to be
deposited into the indigent transcript fund to compensate court
reporters. La. Rev. Stat. § 13:1381.1. Additionally, Louisiana
statute allows the assessment of the costs of drug treatment
or drug testing if the defendant is found not to be indigent.
§ 13:5304(B)(3)(e), (C)(3)–(4). After 2012, it appears that these the
indigent transcript fund fee and drug testing costs were deposited
into the JEF.
3. For example, fines pursuant to La. Rev. Stat. § 15:571.11
are split between the OPCDC and the District Attorney, and

6a
Appendix A
fines and fees go directly into the JEF.4 The statutory
requirements of yet other fines and fees is ambiguous. 5
D.	OPCDC’s Debt Collection Practices
Prior to this lawsuit, the Judges delegated collection
authority to the Collections Department, established by
the OPCDC judges 6 in the late 1980s “to (1) facilitate
the collection of costs and fines [and] (2) to minimize the
“court costs” assessed by the Judges can include fees that go to
other agencies, including the Orleans Public Defender, the District
Attorney, the Criminal Sheriff, etc. The Sheriff also collects a 3%
fee on bail bonds, two thirds of which goes to an “administration of
criminal justice fund” overseen by the chief judge of the OPCDC,
the Orleans Parish sheriff, the district attorney, and the director
of the Orleans Parish indigent defender’s program, or their
designees. § 22:822(A)(2), (B)(3); § 13.1381.5. The remaining third
goes to the OPCDC. § 22.822(3).
4. These include a mandatory $5 fee, La. Rev. Stat.
§ 13:1381.4, an “additional cost” of up to $500 for a defendant
convicted of a misdemeanor and $2,000 for a defendant convicted
of a felony. § 13:1381.4(A)(2), (B).
5. For instance, three Plaintiffs were charged a $100 or
$200 fee to go into the indigent transcript fund as a “condition of
probation,” which went into the JEF. Louisiana Code of Criminal
Procedure Article 887(A) also allows for the collection of “all costs
of the prosecution or proceeding, . . . recoverable by the party or
parties who incurred the expense.” The Judges assessed these
costs, but it is not clear where these costs went once collected.
6. None of the Judges who are defendants in this lawsuit were
on the bench or otherwise employed at the court when Collections
was created.

7a
Appendix A
administrative and logistical burden on” the OPCDC’s
dockets. The Collections Department, supervised by
both Mr. Kazik and the Judges, worked with criminal
defendants in creating pay ment plans, accepting
payments, and granting extensions. The Collections
Department had “no standard list of factors or questions
. . . to ask a criminal defendant except those at intake when
collections obtained address, telephone and employment
information and used it for purposes of contacting the
criminal defendant when they did not pay.”
Before issuing a warrant for a defendant’s arrest for
failure to pay a court debt, the Collections Department
would send two form letters to the defendant warning
them of their overdue fines and fees and the possibility
of arrest for failure to pay. If checking the court dockets
or probation and jail records did not reveal a reason for
nonpayment, the Collections Department issued an alias
capias warrant for contempt of court and generally set
surety bail at $20,000. A person imprisoned on one of these
warrants would usually remain “in jail until their family
or friends could make a payment on their court debt, or
until a judge released them.”
After Plaintiffs filed the instant suit, the Judges
withdrew the Collections Department’s authority to issue
warrants, recalled all active fines and fees warrants
issued prior to September 18, 2015 (except those where
restitution remained unpaid or the individual had not
appeared in court), and wrote off approximately $1,000,000
in court debts. The Judges now handle collection issues
on their own dockets, although they still issue alias capias

8a
Appendix A
warrants for failure to pay fines and fees. At the time of
the district court’s summary judgment ruling, there was
no evidence that the Judges had ever instituted a practice
of considering a defendant’s ability to pay before jailing
them for failure to pay their court debts.
E. Procedural Background
Plaintiffs brought this action under 42 U.S.C. § 1983,
alleging that the Judges’ collection practices violated their
Fourth and Fourteenth Amendment rights, as well as
Louisiana tort law. The only one of their seven claims at
issue on appeal is Count Five, summarized by the district
court as follows:
Defendants’ policy of jailing indigent debtors for
nonpayment of court debts without any inquiry
into their ability to pay is unconstitutional under
the Due Process clause and the Equal Protection
Clause of the Fourteenth Amendment, and
the Judge’s authority over both fines and fees
revenue and ability-to-pay determinations
violates the Due Process Clause.
Cain v. City of New Orleans, 281 F. Supp. 3d. 624, 633 (E.D.
La. 2017) (emphasis added). The district court ordered the
parties to submit cross-motions for summary judgment
on Count Five (and several other counts) and granted
summary judgment to Plaintiffs on both portions of Count
Five. The district court then certified a class and issued
a declaratory judgment.

9a
Appendix A
The Judges only challenge the portion of the district
court’s declaratory judgment which declared that “with
respect to all persons who owe or will incur court debts
arising from cases adjudicated in OPCDC, and whose
debts are at least partly owed to the OPCDC Judicial
Expense Fund, the Judges’ failure to provide a neutral
forum for determination of such persons’ ability to pay
is unconstitutional.” They do not challenge the district
court’s judgment stating that “the Judges’ policy or
practice of not inquiring into the ability to pay of such
persons before they are imprisoned for nonpayment of
court debts is unconstitutional.”
II. STANDARD OF REVIEW
“This court reviews a district court’s grant of summary
judgment de novo, applying the same legal standards as
the district court.” Tradewinds Envtl. Restoration, Inc.
v. St. Tammany Park, LLC, 578 F.3d 255, 258 (5th Cir.
2009) (quoting Condrey v. SunTrust Bank of Ga., 429
F.3d 556, 562 (5th Cir. 2005)). “Summary judgment is
appropriate when ‘the movant shows that there is no
genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.’” United States v.
Nature’s Way Marine, L.L.C., 904 F.3d 416, 419 (5th Cir.
2018) (quoting Fed. R. Civ. P. 56(a)).
III. DISCUSSION
“It is axiomatic that ‘[a] fair trial in a fair tribunal
is a basic requirement of due process.’” Caperton v. A.T.
Massey Coal Co., 556 U.S. 868, 876 (2009) (quoting In re

10a
Appendix A
Murchison, 349 U.S. 133, 136 (1955)). “That officers acting
in a judicial or quasi judicial capacity are disqualified
by their interest in the controversy to be decided is of
course the general rule.” Tumey v. State of Ohio, 273
U.S. 510, 522 (1927). However, “[a]ll questions of judicial
qualification may not involve constitutional validity.” Id. at
523. The issue here is whether the Judges’ administrative
supervision over the JEF, while simultaneously overseeing
the collection of fines and fees making up a substantial
portion of the JEF, crosses the constitutional line.
A. “Average Man as Judge” versus “Average . . . Judge”
The Judges primary argument is that the district
court improperly applied the “average man as judge”
standard rather than the “average judge” standard
when determining whether the Judges’ interest in the
JEF violated due process. According to the Judges, the
“average man as judge” standard is applied in situations
where “the impartiality of non-judges acting as judges” is
called into question, not cases where the “average judge’s”
impartiality is under debate. Essentially, the Judges argue
that an average man might be swayed by the institutional
interest at play here, but not an average judge. The
caselaw simply does not support such a distinction.
1.	Legal Background
In Tumey, the mayor of an Ohio village presided over
a “liquor court,” which allowed him to try and convict
individuals alleged to unlawfully possess intoxicating
liquor within the county. Tumey, 273 U.S. at 515. The Ohio

11a
Appendix A
statutes which established the liquor courts allowed the
mayor to impose a fine on those convicted and to order
the person sentenced to remain in prison until the fine
was paid. Id. at 516. As remuneration for his troubles, the
mayor could retain the amount of his costs in each case
from the convicted defendant over and above his regular
salary. Id. at 519–20. In addition, the village over which the
mayor presided received half the funds from the imposed
fines (the other half went to the state). Id. at 534–35.
Eventually, a defendant challenged the mayor’s
qualifications to hear his case and the Court found the
defendant “was entitled to halt the trial because of the
disqualification of the judge, which existed both because of
his direct pecuniary interest in the outcome, and because
of his official motive to convict and to graduate the fine
to help the financial needs of the village.” Id. at 535. The
Court observed,
Every procedure which would offer a possible
temptation to the average man as a judge to
forget the burden of proof required to convict
the defendant, or which might lead him not to
hold the balance nice, clear, and true between
the state and the accused denies the latter due
process of law.
Id. at 532.
While Tumey was generally thought to focus on a
judge’s financial interest, both personal and institutional,
In re Murchison, 349 U.S. 133 (1955) established a

12a
Appendix A
separate line of Supreme Court cases focusing on a
judge’s possible “conflict arising from his participation
in an earlier proceeding.” Caperton, 556 U.S. at 880. In
Murchison, the unconstitutional conflict came from a
judge who, as allowed by statute, had been examining
witnesses as a “one-man judge-grand jury” in deciding
whether criminal charges should be brought. Murchison,
349 U.S. at 133–34. The judge, unhappy with the responses
of two witnesses, subsequently charged, tried, and
convicted each one of contempt based on his belief that
one witness lied and the other refused to answer questions
before him as “judge-grand-jury.” Id. at 134–35. The
Court concluded this dual-role violated due process, and
quoted Tumey in saying that “[e]very procedure which
would offer a possible temptation to the average man
as a judge * * * not to hold the balance nice, clear, and
true between the State and the accused denies the latter
due process of law.” Murchison, 349 U.S. at 136 (quoting
Tumey, 273 U.S. at 532).
In a case fairly similar to Tumey, the Supreme Court
again addressed the possible institutional biases inherent
in another mayor’s court. Ward v. Vill. of Monroeville,
Ohio, 409 U.S. 57 (1972). In Ward, an Ohio statute allowed
“mayors to sit as judges in cases of ordinance violations
and certain traffic offenses” and the “fines, forfeitures,
costs, and fees imposed by” the mayor in these courts
formed a major part of the village’s funding. Ward, 409
U.S. at 57–58. In addition, the mayor was the “president
of the village council, preside[d] at all meetings, vote[d] in
case of a tie, account[ed] annually to the council respecting
village finances, fill[ed] vacancies in village offices and

13a
Appendix A
ha[d] general overall supervision of village affairs.” Id.
at 58.
The Court applied the same test espoused in Tumey:
Although ‘the mere union of the executive power
and the judicial power in him cannot be said to
violate due process of law,’ the test is whether
the mayor’s situation is one ‘which would offer
a possible temptation to the average man as a
judge to forget the burden of proof required
to convict the defendant, or which might lead
him not to hold the balance nice, clear, and true
between the state and the accused . . . .’
Ward, 409 U.S. at 60 (quoting Tumey, at 532, 534) (internal
citations removed)). Because “that ‘possible temptation’
may also exist when the mayor’s executive responsibilities
for village finances may make him partisan to maintain
the high level of contribution from the mayor’s court,”
the Court found the mayor’s court in Ward presented
“a ‘situation in which an official perforce occupies two
practically and seriously inconsistent positions, one
partisan and the other judicial, (and) necessarily involves a
lack of due process of law in the trial of defendants charged
with crimes before him.’” Id. at 60.
Over a decade later, the Supreme Court again had
occasion to discuss what level of financial interest might
render “the average . . . judge” unable “to hold the balance
nice, clear and true.” Aetna Life Ins. Co. v. Lavoie, 475
U.S. 813, 821 (1986). In Aetna, a justice on the Alabama

14a
Appendix A
Supreme Court participated in a decision regarding
punitive damages in bad faith insurance claims while he
was simultaneously a lead plaintiff in a class action suit
seeking punitive damages on a bad faith claim. Id. at 817.
While the Court discussed many factors that might bear
on the necessity for recusal, the Court held “simply that
when Justice Embry made that judgment, he acted as ‘a
judge in his own case.’” Id. at 824 (quoting Murchison,
349 U.S. at 136).
While it was possible that the justice was not influenced
by his participation in the state court case, under the
principles laid out in Tumey, Murchison, and Ward, actual
influence was not necessary—it only mattered whether the
situation “would offer a possible temptation to the average
. . . judge to . . . lead him to not to hold the balance nice,
clear and true.” Aetna, 475 U.S. at 825 (quoting Ward,
409 U.S. at 60). Because of Justice Embry’s participation
in the case, the Court found the “appearance of justice”
best “served by vacating the decision and remanding for
further proceedings.” Id. at 828.
2.

Judges’ Argument

Disregarding the principles undergirding Aetna,
the Judges argue that Aetna essentially came along and
established a new standard by shortening Tumey and
Ward’s “average man as judge” to “average . . . judge.”
Aetna, 475 U.S. at 822, 825. While the Court did alter
“average man as judge,” the Court applied the exact same
principles discussed in Ward, Murchison, and Tumey
to the Alabama Supreme Court justice. There was no

15a
Appendix A
articulation of a higher standard for judges, much less
an explanation as to how such a standard might differ
from that applied to mayors acting as judges. Aetna,
475 U.S. at 825. Furthermore, reading Aetna as the
Judges suggest would mean reading Aetna to overrule
Murchison, which applied the “average man as judge”
standard to a sitting judge. Murchison, 349 U.S. at 136. We
find it hard to believe that the Court overruled one of its
cases with an ellipsis. Finally, the recent Supreme Court
case of Caperton reinforces the idea that the standards
announced, and the situations presented, in Tumey and
Ward apply equally to judges and non-judges acting as
judges. Caperton, 556 U.S. at 877–82 (discussing the
various principles from Tumey, Ward, Murchison and
Aetna as applying to “judges”).
The district court did not err in applying the principles
from Tumey and Ward to the facts of this case.
B.	The Judges’ Institutional Interest in the JEF
1.	The District Court’s Reliance on Ward
The Judges next contest the district court’s reliance
on Ward to find that the Judges’ pecuniary interest in
the JEF “crosses the constitutional line.” They allege
“[t]he district court erred in its blanket comparison of
the Judges’ institutional interest here to the mayor’s
institutional interest in Ward.” The Judges distinguish
Ward by noting the mayor there had broad executive
power over all the village finances and he was politically
responsible for the town’s funds, whereas here the Judges

16a
Appendix A
only directly manage a portion of the revenue from the
fines and fees. Plaintiffs argue that the Judges’ interest
here is almost exactly like that in Ward because the
Judges impose the fines and fees and exercise complete
control over how the revenue generated from the fines
and fees is spent.
The district court very thoroughly examined the
ways in which the Judges have an institutional interest
in the JEF. It observed that the “[f]ines and fees revenue
goes into the Judicial Expense Fund,” over which “the
Judges exercise total control.” Cain, 281 F. Supp. 3d at
654. It noted that while the money does not support the
Judges’ personal salaries, it largely goes to support the
salaries of each Judges’ staff. In addition, the district
court noted that while some of the money collected from
fees is earmarked for specific purposes, the revenue all
goes to the JEF and makes up approximately one-fourth
of the OPCDC’s budget.
In Ward, “[a] major part of village income [was] derived
from the fines, forfeitures, costs, and fees imposed” by the
mayor in his court, and the mayor had “wide executive
powers” that included accounting to the village council
regarding village finances, filling vacancies in village
offices, and “general overall supervision of village affairs.”
Ward, 409 U.S. at 58. Here, the Judges have exclusive
authority over how the JEF is spent, they must account
for the OPCDC budget to the New Orleans City Council
and New Orleans Mayor, and the fines and fees make up a
significant portion of their annual budget. We agree with
the district court that the situation here falls within the

17a
Appendix A
ambit of Ward. In doing so, we emphasize it is the totality
of this situation, not any individual piece, that leads us to
this conclusion. In sum, when everything involved in this
case is put together, the “temptation” 7 is too great.
Given this constitutional infirmity, we find the Judges’
remaining arguments unavailing.
IV. CONCLUSION
For the foregoing reasons, we AFFIRM the judgment
of the district court. The Judges’ motion to supplement
the record is DENIED.

7. In so concluding, we do not in any way suggest that the
Judges actually succumbed to that “temptation.”

18a
Appendix B
Appendix B — Declaratory
Judgment
of the UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF LOUISIANA,
dated august 3, 2018
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION
NO. 15-4479
SECTION “R” (2)
ALANA CAIN, ET AL.
VERSUS
CITY OF NEW ORLEANS, ET AL.
DECLARATORY JUDGMENT
Named Plaintiffs, on behalf of all persons similarly
situated, filed this action against, among others, the Judges
of the Orleans Parish Criminal District Court (OPCDC),
challenging the debt collection practices of that court. The
undisputed evidence in this case establishes that the Judges
have a policy or practice of not inquiring into criminal
defendants’ ability to pay before those individuals are
imprisoned for nonpayment of court debts. The undisputed
evidence further establishes that because of the Judges’
institutional conflict of interest, the Judges fail to provide
a neutral forum for determination of criminal defendants’
ability to pay. The Fourteenth Amendment to the U.S.
Constitution prohibits a state actor from arresting or
detaining a criminal defendant solely for failure to pay a

19a
Appendix B
court-imposed debt absent a determination of ability to
pay. See Bearden v. Georgia, 461 U.S. 660 (1983). The
Fourteenth Amendment also requires a state court to
provide a neutral forum in which to adjudicate ability to
pay. See Ward v. Village of Monroeville, 409 U.S. 57 (1972);
Tumey v. Ohio, 273 U.S. 510 (1927). Considering this law,
the evidence in the record, and the Court’s orders and
reasons on file herein,
IT IS ORDERED, ADJUDGED AND DECREED
that judgment is hereby entered in favor of Plaintiffs on
Count Five of the Complaint. The Court DECLARES
that with respect to all persons who owe or will incur court
debts arising from cases adjudicated in OPCDC, the Judges’
policy or practice of not inquiring into the ability to pay of
such persons before they are imprisoned for nonpayment
of court debts is unconstitutional. The Court further
DECLARES that with respect to all persons who owe
or will incur court debts arising from cases adjudicated
in OPCDC, and whose debts are at least partly owed to
the OPCDC Judicial Expense Fund, the Judges’ failure to
provide a neutral forum for determination of such persons’
ability to pay is unconstitutional.
New Orleans, Louisiana, this 3rd day of August, 2018.
/s/

SARAH S. VANCE
UNITED STATES DISTRICT JUDGE

20a
Appendix
C reasons of the
Appendix c — order
and
united states district court for the
eastern district of louisiana,
filed december 13, 2017
United States District Court
Eastern District of Louisiana
CIVIL ACTION
NO. 15-4479
SECTION “R” (2)
ALANA CAIN, et al.,
VERSUS
CITY OF NEW ORLEANS, et al.
December 13, 2017, Decided
December 13, 2017, Filed
ORDER AND REASONS
Plaintiffs Alana Cain, Ashton Brown, Reynaud
Variste, Reynajia Variste, Thaddeus Long, and Vanessa
Maxwell filed this civil rights putative class action under
42 U.S.C. § 1983, challenging the manner in which the
Orleans Parish Criminal District Court collects postjudgment court debts from indigent criminal defendants.
Before the Court are the parties’ cross-motions for partial
summary judgment.1 These motions turn on justiciability,
the constitutionality of defendants’ debt collection
1. R. Docs. 250, 251.

21a
Appendix C
practices, and the constitutionality of the legislative
framework that vests both judicial and executive power in
the judges of the Orleans Parish Criminal District Court.
For the following reasons, the Court grants in part and
denies in part each motion.
I. 	BACKGROUND
Plaintiffs are former criminal defendants in the
Orleans Parish Criminal District Court (OPCDC). Each
named plaintiff pleaded guilty to various criminal offenses
between 2011 and 2014. 2 All named plaintiffs, except
Reynaud Variste, were appointed counsel. 3 The Court
previously dismissed Reynaud Variste’s and Long’s claims
for equitable relief.4 Thus, only Cain, Brown, Reynajia
Variste, and Maxwell have live claims for equitable relief.
The remaining defendants are OPCDC Judges
Laurie A. White, Tracey Flemings-Davillier, Benedict
Willard, Keva Landrum-Johnson, Robin Pittman, Byron
C. Williams, Camille Buras, Karen K. Herman, Darryl
Derbigny, Arthur Hunter, Franz Zibilich, and Magistrate
Judge Harry Cantrell (collectively, the Judges); OPCDC
Judicial Administrator Robert Kazik; and Orleans Parish
Sheriff Marlin Gusman.

2. R. Doc. 248 at 4-5.
3. R. Doc. 59-3 at 2, 6, 9, 18, 23; R. Doc. 95-7 at 1.
4. See R. Doc. 109 at 19-21.

22a
Appendix C
A. 	Fines and Fees Imposed by OPCDC
The Judges impose various costs on convicted criminal
defendants at their sentencing. First, the Judges may
impose a fine, which is divided evenly between OPCDC and
the District Attorney (DA). La. Rev. Stat. § 15:571.11(D).
Second, the Judges may order a criminal defendant to pay
restitution to victims. La. Code Crim. Proc. art. 883.2.
Third, the Judges impose various fees that go to OPCDC:
• A mandatory $5 fee, La. Rev. Stat. § 13:1381.4(A)
(1);
• Additional fees up to $500 on a misdemeanant and
$2,500 on a felon, id. § 13:1381.4(A)(2);
• Court costs up to $100, id. § 13:1377(A);
• A fee of $14 for the Indigent Transcript Fund,
id. § 13:1381.1(B), which “compensate[s] court
reporters for the preparation of all transcripts for
indigent defendants,” id. § 13:1381.1(A); and
• Additional costs under Louisiana Code of Criminal
Procedure Article 887(A) for the Indigent Transcript
Fund. 5
Fourth, the “court costs” imposed by Judges also include
5. For example, both Alana Cain and Ashton Brown were
assessed $100 for the Indigent Transcript Fund as a condition of
their probation. R. Doc. 248 at 4.

23a
Appendix C
fees that go to other entities, such as the Orleans Public
Defender, the DA, and the Louisiana Supreme Court.6
After sentencing, OPCDC may further assess criminal
defendants for the costs of drug treatment and drug
testing. La. Rev. Stat. § 13:5304.
Separately, the Sheriff collects a 3% fee on bail bonds
secured by commercial sureties. Id. § 22:822(A)(2). Sixty
percent of this fee, or 1.8% of the bonds, goes to OPCDC.
Id. §§ 22:822(B)(3), 13:1381.5(B)(2)(a).
As a result of their criminal convictions, the named
plaintiffs were assessed fines and fees ranging from
$148 (imposed on Long) to $901.50 (imposed on Cain).7
Cain pleaded guilty to felony theft on May 30, 2013. 8 At
sentencing, the court stated that payment of fines and fees
was a special condition of probation.9 The court directed
Cain to make the first $100 payment at the courthouse
on July 8, 2013, and stated, “[e]ven if you don’t have the
money, you have to come here to the courtroom . . . for an
extension.”10 The court later ordered Cain to pay $1,800
in restitution.11
6. See R. Doc. 248-1 at 5 (breakdown of court costs that go to
OPCDC and other entities).
7. R. Doc. 248 at 4-5.
8. R. Doc. 255-3 at 2, 16.
9. Id. at 13.
10. Id. at 19.
11. R. Doc. 59-3 at 2.

24a
Appendix C
Brown received a 90-day suspended sentence after
pleading guilty to misdemeanor theft on December 16,
2013.12 The court imposed $500 in fees: $146 for the
Judicial Expense Fund, $100 for the Indigent Transcript
Fund, $234 in court costs, and a $20 special assessment
for the DA.13 As with Cain, the court instructed Brown to
make his first $100 payment at the courthouse on January
13, 2014.14 The judge told Brown that if he could not pay
on that date, he should go to the judge’s courtroom and
request an extension.15
Reynajia Variste was sentenced to two years of
probation after she pleaded guilty to aggravated battery
on October 21, 2014.16 Variste was assessed fees in the
amount of $886.50: $286.50 in court costs, $200 for the
Indigent Transcript Fund, and $400 for the Judicial
Expense Fund.17 The judge warned Variste that “[f]ailure
to make those payments will result in contempt of Court
proceedings.”18

12. R. Doc. 255-4 at 2, 4, 11.
13. Id. at 11, 15. Again, “court costs” include fees that go to
other entities besides OPCDC. See R. Doc. 248-1 at 5.
14. R. Doc. 255-4 at 15.
15. Id. at 16.
16. R. Doc. 95-6 at 8-9, 13.
17. Id. at 13.
18. Id.

25a
Appendix C
Vanessa Maxwell was sentenced to eighteen months
imprisonment for battery and six months for simple
criminal damage after pleading guilty on March 6, 2012.19
Maxwell was assessed $191.50 in court costs, although the
judge did not specify this amount at sentencing. 20
B. 	The OPCDC Budget
The Judges manage the budget of OPCDC. 21 From
2012 through 2015, the court’s revenue ranged from
$7,567,857 (in 2012) to $11,232,470 (in 2013). 22 Some of
this revenue could be used only for specified purposes and
went into a restricted fund; unrestricted revenue went into
OPCDC’s Judicial Expense Fund, which is the general
operating fund for court operations. 23 See La. Rev. Stat.
§ 13:1381.4. The Judges exclusively control this fund and
may use it “for any purpose connected with, incidental to,
or related to the proper administration or function of the
court or the office of the judges thereof.” Id. § 13:1381.4(C).
They may not use it to supplement their own salaries. Id.
§ 13:1381.4(D). Most money for salaries and benefits of
OPCDC employees (apart from the Judges) comes from
the Judicial Expense Fund. 24
19. R. Doc. 95-8 at 8, 12, 15.
20. Id. at 1, 15; R. Doc. 248 at 5.
21. R. Doc. 251-2 at 3; R. Doc. 255-5 at 5.
22. R. Doc. 248 at 2.
23. Id.; R. Doc. 251-2 at 3. The Judicial Expense Fund is also
known as the General Fund. R. Doc. 248 at 2.
24. R. Doc. 251-2 at 5; R. Doc. 255-5 at 9.

26a
Appendix C
From 2012 through 2015, the Judicial Expense Fund’s
annual revenue was approximately $4,000,000. 25 Roughly
half of this revenue came from other governmental entities,
especially the City of New Orleans. 26 About $1,000,000
came from bail bond fees, and another $1,000,000 from
fines and other fees. 27 Since at least 2013, all fines and fees
revenue has gone to the Judicial Expense Fund. 28
C. 	OPCDC’s Debt Collection Practices
All named plaintiffs were subject to OPCDC’s debt
collection practices. At least until September 18, 2015,
the Judges delegated authority to collect court debts
to the Collections Department, which the Judges and
Administrator Kazik jointly instructed and supervised. 29
The Collections Department created payment plans for
criminal defendants, accepted payments, and granted
extensions. 30 Some Judges also delegated authority to
the Collections Department to issue alias capias warrants
against criminal defendants who failed to pay court
debts. 31
25. R. Doc. 248-1 at 1-4. Specifically, the Judicial Expense Fund
had $4,090,707 in revenue in 2012; $4,100,413 in 2013; $3,928,025 in
2014; and $3,940,535 in 2015.
26. Id. at 1-3.
27. R. Doc. 248 at 2.
28. R. Doc. 251-2 at 12.
29. R. Doc. 248 at 7.
30. Id.
31. Id.

27a
Appendix C
Before the Collections Department issued these alias
capias warrants, its agents were trained to send two form
letters to criminal defendants who had missed payments. 32
The first letter stated: “Recently, at your sentencing in
court, you were given probation. At such time the Judge
instructed you, that as a condition of probation you were
to report to our office and make arrangements to pay your
fines that are now delinquent.” The letter also directed its
recipient to appear at the court “to resolve this matter”
by a given date. “Failure to comply with the conditions
of probation,” the letter warned, “will result in your
immediate arrest.” 33 The second letter stated: “Unless
arrangements are made with [the collections agent] or
payment is received in full within 72 hours[,] . . . we will
request your immediate arrest.” 34
The Collections Department then checked court
dockets to determine whether the court had granted an
extension on or accepted a payment toward an individual’s
court debts. 35 The Collections Department also checked
probation and local jail records. 36 If these checks revealed
no reason for an individual’s failure to pay, the Collections
Department issued an alias capias warrant for the
individual’s arrest. 37
32. R. Doc. 251-2 at 20; R. Doc. 255-5 at 27; R. Doc. 1-2 at 6.
33. R. Doc. 251-5 at 328.
34. Id. at 329.
35. R. Doc. 248 at 7.
36. Id.
37. Id.; R. Doc. 251-5 at 330 (example of a blank alias capias
warrant).

28a
Appendix C
These alias capias warrants stated that the individual
named in the warrant was charged with contempt of
court. 38 The warrants usually set surety bail at the
predetermined amount of $20,000. 39 Although the Judges
did not review these warrants, the Collections Department
affixed a judge’s signature to each one. 40 OPCDC’s
Collections Department issued such warrants to arrest
the named plaintiffs for failure to pay fines and fees.41
Individuals arrested pursuant to these warrants
ordinarily remained in jail until their family or friends
could make a payment on their court debt, or until a judge
released them.42 The named plaintiffs were imprisoned for
periods ranging from six days to two weeks.43
Alana Cain was arrested pursuant to an alias capias
warrant on March 11, 2015.44 Apparently unable either to
make a payment or to post the $20,000 bond, she spent a
week in jail before she obtained a court hearing on March

38. R. Doc. 251-5 at 330.
39. Id.; R. Doc. 248 at 7.
40. R. Doc. 251-2 at 21; R. Doc. 255-5 at 28; R. Doc. 1-2 at 8.
41. R. Doc. 248 at 4.
42. R. Doc. 251-2 at 22; R. Doc. 255-5 at 25; R. Doc. 1-2 at 12-13.
43. R. Doc. 251-2 at 23; R. Doc. 255-5 at 25.
44. R. Doc. 251-5 at 369; see also R. Doc. 59-3 at 2 (warrant
issued on March 4, 2015).

29a
Appendix C
18.45 At that hearing, the judge asked Cain when she would
be able to continue making payments.46 Cain explained
that she had missed a payment after giving birth a few
weeks earlier, but could continue making payments upon
her release.47 The judge ordered her release and directed
her to return to court for a status update two weeks later.48
OPCDC suspended Cain’s court debts on April 7, 2016,49
although Cain made further payments toward her court
debts after that date. 50
Ashton Brown spent two weeks in jail before his
family secured his release by making a $100 payment to
OPCDC.51 An alias capias warrant issued on July 16, 2015,
and Brown was arrested on July 23. 52 Brown appeared in
court without counsel on August 6; the court agreed to
release Brown upon payment of $100 to OPCDC.53 Brown’s
family made this payment the next day, and Brown was
45. R. Doc. 251-2 at 23; R. Doc. 255-5 at 25.
46. R. Doc. 95-3 at 30.
47. Id. at 29-31.
48. Id. at 32.
49. R. Doc. 250-3 at 22
50. See R. Doc. 230-3 at 1-2 (payment receipts dated August
26, 2016, and October 12, 2016).
51. R. Doc. 251-2 at 23; R. Doc. 255-5 at 25.
52. R. Doc. 59-3 at 6.
53. Id.

30a
Appendix C
released. 54 OPCDC suspended Brown’s court debts on
September 23, 2016, 55 although Brown, like Cain, made
further payments after that date. 56
Reynajia Variste was arrested pursuant to an alias
capias warrant on May 28, 2015. 57 On June 2, a family
member paid $400 to OPCDC in order to secure her
release. 58 Although Variste did not appear before a judge
on that date, her attorney did. 59 OPCDC waived Variste’s
outstanding debt on August 31, 2016.60
Vanessa Maxwell was arrested on May 10, 2015, on an
alias capias warrant.61 On May 12, she filed a grievance
with the Orleans Parish Sheriff’s Office seeking a new
date to make a payment.62 The office responded that
she did not yet have a court date, and that to secure her
release she just needed to “get someone to go to fines
54. Id.
55. R. Doc. 250-3 at 23.
56. R. Doc. 230-3 at 3 (payment receipt dated February 10,
2017).
57. R. Doc. 95-6 at 1.
58. Id. at 1-2, 22.
59. Id. at 1.
60. R. Doc. 250-3 at 25.
61. R. Doc. 251-5 at 370.
62. Id. at 362.

31a
Appendix C
and fees to make arrangements.”63 Maxwell filed another
grievance two days later, asking the Sheriff’s Office to
place her on the court’s docket; the office again directed
Maxwell to “get a family [member] to go over and make
arrangements with fines n fees [sic]. Explain you have been
incarcerated[;] they will make some type of arrangements
for payments.”64 Maxwell finally appeared before a judge,
with counsel, on May 22, 2015.65 The judge ordered her
release without payment.66 Maxwell paid off her court
debt on June 2, 2016.67
After this suit was filed, the Judges revoked the
Collections Department’s authority to issue warrants.68
The Judges also recalled all active fines and fees warrants
issued by the Collections Department before September
18, 2015, unless restitution remained unpaid or the
individual had failed to appear in court.69 In doing so,
the Judges wrote off $1,000,000 in court debts.70 Each
Judge now “handles collection-related matters on their
respective dockets.” 71
63. Id.
64. Id.
65. R. Doc. 95-8 at 2.
66. Id.
67. R. Doc. 250-3 at 24.
68. R. Doc. 250-2 at 13, 76; R. Doc. 250-3 at 3.
69. R. Doc. 250-3 at 4.
70. Id.
71. Id. at 5.

32a
Appendix C
Nevertheless, at least some active warrants for failure
to pay restitution still exist.72 And the Judges themselves
now issue alias capias warrants for failure to pay fines and
fees.73 There is no evidence that the Judges now consider,
or have ever considered, ability to pay before imprisoning
indigent criminal defendants for failure to pay fines and
fees. Indeed, the Judges do not routinely solicit financial
information from criminal defendants who fail to pay court
debts,74 though they state that they do consider ability to
pay when the issue is brought to their attention.75
D. 	Procedural History
Plaintiffs filed this civil rights action under 42 U.S.C.
§ 1983, alleging violations of their Fourth and Fourteenth
Amendment rights, and violations of Louisiana tort law.
Plaintiffs brought this action on behalf of themselves
and all others similarly situated.76 The first amended
complaint, filed shortly after the initial complaint, named
the following defendants: (1) The City of New Orleans, (2)
OPCDC, (3) Sheriff Gusman, (4) Clerk of Court Arthur
Morrell, (5) Judicial Administrator Kazik, and (6) the
72. Id.
73. See, e.g., R. Doc. 250-3 at 16, 21.
74. R. Doc. 251-2 at 17.
75. R. Doc. 250-2 at 12; R. Doc. 259-1 at 8.
76. Although plaintiffs moved for class certification on February
10, 2017, see R. Doc. 230, the Court stayed all motion practice—and
thus denied plaintiffs’ class certification motion without prejudice—
pending further order, see R. Doc. 237.

33a
Appendix C
Judges. The Court has summarized plaintiffs’ seven
counts as follows:
(1) Defendants’ policy of issuing and executing
arrest warrants for nonpayment of court debts
is unconstitutional under the Fourth Amendment
and the Due Process Clause of the Fourteenth
Amendment;
(2) Defendants’ policy of requiring a $20,000 “fixed
secured money bond” for each Collections
Department warrant (issued for nonpayment of
court debts) is unconstitutional under the Due
Process Clause and the Equal Protection Clause
of the Fourteenth Amendment;
(3) Defendants’ policy of indefinitely jailing indigent
debtors for nonpayment of court debts without a
judicial hearing is unconstitutional under the Due
Process Clause of the Fourteenth Amendment;
(4) Defendants’ “scheme of money bonds” to fund
certain judicial actors is unconstitutional under
the Due Process Clause of the Fourteenth
Amendment. To the extent defendants argue
this scheme is in compliance with Louisiana
Revised Statutes §§ 13:1381.5 and 22:822,
governing the percentage of each surety bond
that judicial actors receive, those statutes are
unconstitutional;

34a
Appendix C
(5) Defendants’ policy of jailing indigent debtors for
nonpayment of court debts without any inquiry
into their ability to pay is unconstitutional under
the Due Process Clause and the Equal Protection
Clause of the Fourteenth Amendment, and the
Judges’ authority over both fines and fees revenue
and ability-to-pay determinations violates the
Due Process Clause;
(6) Defendants’ policy of jailing and threatening to
imprison criminal defendants for nonpayment of
court debts is unconstitutional under the Equal
Protection Clause of the Fourteenth Amendment
because it imposes unduly harsh and punitive
restrictions on debtors whose creditor is the
State, as compared to debtors who owe money
to private creditors;
(7) Defendants’ conduct constitutes wrongful arrest
and wrongful imprisonment under Louisiana law.
Plaintiffs’ request for relief seeks: (1) declaratory
judgments that defendants’ actions violate plaintiffs’
Fourth and Fourteenth Amendment rights; (2) an order
enjoining defendants from enforcing the purportedly
unconstitutional policies; (3) money damages for the named
plaintiffs; and (4) attorney’s fees under 42 U.S.C. § 1988.
After a round of motions, all claims against the City
of New Orleans, the Sheriff, and OPCDC were dismissed,
along with Count Three and claims against the remaining

35a
Appendix C
defendants for monetary and injunctive relief.77 The Court
then granted plaintiffs’ leave to re-plead Counts Four and
Seven against the Sheriff in plaintiffs’ second amended
complaint.78 The Court also consolidated this case with
LaFrance v. City of New Orleans, 16-14439.79
Now, plaintiffs seek declaratory relief against the
Judges in their official capacity on Counts One, Two, Four,
Five, and Six; declaratory relief against Administrator
Kazik in his individual capacity on Counts One, Two,
and Six; injunctive and declaratory relief against Sheriff
Gusman in his official capacity on Count Four; and
injunctive and declaratory relief as well as damages
against the Sheriff on Count Seven.
As ordered by the Court, the parties have submitted
cross-motions for summary judgment on Counts One, Two,
Four, Five, and Six. 80
II. 	STANDARD OF REVIEW
Summary judgment is warranted when “the movant
shows that there is no genuine dispute as to any material
77. R. Docs. 119, 123-26.
78. R. Doc. 228.
79. R. Doc. 249.
80. R. Doc. 237. The Court has stayed all other motion practice.
In contravention of the Court’s order, plaintiffs have moved for
summary judgment on Count Seven. Plaintiffs’ summary judgment
motion is DENIED WITHOUT PREJUDICE to the extent it seeks
relief on Count Seven.

36a
Appendix C
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a); see also Celotex Corp. v.
Catrett, 477 U.S. 317, 322-23, 106 S. Ct. 2548, 91 L. Ed.
2d 265 (1986); Little v. Liquid Air Corp., 37 F.3d 1069,
1075 (5th Cir. 1994). When assessing whether a dispute
as to any material fact exists, the Court considers “all
of the evidence in the record but refrain[s] from making
credibility determinations or weighing the evidence.”
Delta & Pine Land Co. v. Nationwide Agribusiness Ins.
Co., 530 F.3d 395, 398-99 (5th Cir. 2008). All reasonable
inferences are drawn in favor of the nonmoving party,
but “unsupported allegations or affidavits setting forth
‘ultimate or conclusory facts and conclusions of law’
are insufficient to either support or defeat a motion for
summary judgment.” Galindo v. Precision Am. Corp.,
754 F.2d 1212, 1216 (5th Cir. 1985); see also Little, 37 F.3d
at 1075. “No genuine dispute of fact exists if the record
taken as a whole could not lead a rational trier of fact to
find for the non-moving party.” EEOC v. Simbaki, Ltd.,
767 F.3d 475, 481 (5th Cir. 2014).
If the dispositive issue is one on which the moving
party will bear the burden of proof at trial, the moving
party “must come forward with evidence which would
entitle it to a directed verdict if the evidence went
uncontroverted at trial.” Int’l Shortstop, Inc. v. Rally’s,
Inc., 939 F.2d 1257, 1264-65 (5th Cir. 1991). The nonmoving
party can then defeat the motion by either countering
with evidence sufficient to demonstrate the existence
of a genuine dispute of material fact, or “showing that
the moving party’s evidence is so sheer that it may not
persuade the reasonable fact-finder to return a verdict in
favor of the moving party.” Id. at 1265.

37a
Appendix C
If the dispositive issue is one on which the nonmoving
party will bear the burden of proof at trial, the moving
party may satisfy its burden by merely pointing out that
the evidence in the record is insufficient with respect to
an essential element of the nonmoving party’s claim. See
Celotex, 477 U.S. at 325. The burden then shifts to the
nonmoving party, who must, by submitting or referring to
evidence, set out specific facts showing that a genuine issue
exists. See id. at 324. The nonmovant may not rest upon the
pleadings, but must identify specific facts that establish a
genuine issue for trial. See, e.g., id.; Little, 37 F.3d at 1075
(“Rule 56 mandates the entry of summary judgment, after
adequate time for discovery and upon motion, against a
party who fails to make a showing sufficient to establish
the existence of an element essential to that party’s case,
and on which that party will bear the burden of proof at
trial.” (quoting Celotex, 477 U.S. at 322)).
III.	DISCUSSION
A.

Justiciability

Defendants’ motion for summary judgment challenges
the justiciability of this action on several grounds. First,
defendants argue that the named plaintiffs lack standing.
Second, they argue that certain claims are moot in light
of defendants’ voluntary cessation of challenged conduct.
Third, defendants argue that plaintiffs impermissibly
seek a writ of mandamus against state judicial officers.
Fourth, defendants argue that the Court cannot grant
declaratory relief in this case. Finally, defendants argue
that the Eleventh Amendment bars official-capacity claims
against state judicial officers.

38a
Appendix C
1. 	Standing and Mootness
Article III of the U.S. Constitution limits federal
jurisdiction to cases or controversies. U.S. Const. art.
III, § 2. To satisfy this case-or-controversy requirement,
a plaintiff must have a personal stake in the suit she
commences. See Davis v. FEC, 554 U.S. 724, 732-33, 128
S. Ct. 2759, 171 L. Ed. 2d 737 (2008). This personal stake
must exist both at commencement and throughout the life
of the suit. Id. (“To qualify as a case fit for federal-court
adjudication, ‘an actual controversy must be extant at all
stages of review, not merely at the time the complaint is
filed.’” (quoting Arizonans for Official English v. Arizona,
520 U.S. 43, 67, 117 S. Ct. 1055, 137 L. Ed. 2d 170 (1997))).
If a plaintiff does not have the requisite personal stake
at the commencement of the suit, she lacks standing. If
her once-sufficient personal stake dissipates during the
life of the suit such that Article III is no longer satisfied,
her claims become moot. See Friends of the Earth, Inc. v.
Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 180, 189,
120 S. Ct. 693, 145 L. Ed. 2d 610 (2000) (first addressing
standing at the commencement of suit and then addressing
mootness).
Defendants confuse these two doctrines—standing
and mootness—in their motion for summary judgment.
First, they argue that the named plaintiffs lack standing
because their debts have been “suspended” or “waived.”81
Second, defendants argue that their voluntary cessation
of certain debt collection practices moots plaintiffs’ claims
81. R. Doc. 250-1 at 4.

39a
Appendix C
challenging those practices. 82 Neither argument applies
to plaintiffs’ damages claim under Louisiana law, in which
plaintiffs obviously have a continuing interest.
The waiver or suspension of plaintiffs’ court debts
after the commencement of this suit relates to mootness,
not standing. Plaintiffs have standing to bring suit as long
as they “had the requisite stake in the outcome when the
suit was filed.” Davis, 554 U.S. at 734. Standing to bring
suit, however, has no bearing on whether plaintiffs’ claims
became moot during the life of the suit. See, e.g., County
of Riverside v. McLaughlin, 500 U.S. 44, 51, 111 S. Ct.
1661, 114 L. Ed. 2d 49 (1991) (distinguishing standing
from mootness). Whether the “suspension” or “waiver”
of plaintiffs’ court debts destroyed their interest in the
outcome of this suit is properly addressed as a question
of mootness.
2. 	Plaintiffs Had Standing to Bring Suit
The Court is nonetheless obligated to determine
whether the parties had standing to bring suit. Laidlaw,
528 U.S. at 180. Standing consists of three elements: (1)
the plaintiff must have suffered an injury-in-fact, which is
an invasion of a legally protected interest that is concrete
and particularized as well as actual or imminent; (2) the
injury must be fairly traceable to the challenged conduct of
the defendant; and (3) it must be likely that the plaintiff’s
injury will be redressed by a favorable judicial decision.
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560, 112 S. Ct.
82. Id. at 10.

40a
Appendix C
2130, 119 L. Ed. 2d 351 (1992). With regard to “equitable
relief for past wrongs, a plaintiff must demonstrate
either continuing harm or a real and immediate threat of
repeated injury in the future.” Soc’y of Separationists,
Inc. v. Herman, 959 F.2d 1283, 1285 (5th Cir. 1992). As the
party invoking federal jurisdiction, the plaintiff bears the
burden of establishing each element of standing. Spokeo,
Inc. v. Robins, 136 S. Ct. 1540, 1547, 194 L. Ed. 2d 635
(2016).
In support of their standing argument, defendants
note that this Court dismissed Reynaud Variste’s and
Thaddeus Long’s claims for equitable relief because
neither plaintiff owed outstanding courts debts for which
they could be imprisoned. 83 But those plaintiffs lacked
standing to seek equitable relief because they faced no
imminent injury when the suit commenced. The amended
complaint itself acknowledged that both plaintiffs had
already paid their court debts, and thus no longer faced an
imminent threat of injury from defendants’ debt collection
policies and practices. 84
The Court is satisfied that the other named plaintiffs—
Alana Cain, Ashton Brown, Reynajia Variste, and Vanessa
Maxwell—had standing to bring suit. Defendants do
not contest that these plaintiffs owed court debts when
this suit was filed in September 2015. Thus, there is no
dispute that these plaintiffs were subject to defendants’
debt collection policies and practices when this suit began.
83. R. Doc. 109 at 20.
84. R. Doc. 7 at 15 ¶ 48, 18 ¶ 67.

41a
Appendix C
Plaintiffs demonstrated a concrete and imminent
injury arising from defendants’ policies and practices:
the risk of arrest and imprisonment for failing to pay
outstanding court debts. This risk was not hypothetical
or speculative; plaintiffs themselves were arrested and
imprisoned for that very reason shortly before the suit
commenced. Compare Roark & Hardee LP v. City of
Austin, 522 F.3d 533, 543 (5th Cir. 2008) (concluding that
“because some Plaintiff bar owners have been charged
under the ordinance and all Plaintiff bar owners face
the real potential of immediate criminal prosecution,
they have standing to bring their claims”), with Soc’y
of Separationists, 959 F.2d at 1285-86 (holding that the
likelihood of plaintiff juror again being selected for jury
service and again assigned to defendant judge was too
slim to permit prospective relief against defendant).
Finally, plaintiffs’ requested relief—a declaration that
defendants’ debt collection policies and practices are
unconstitutional—would redress the threat of injury they
faced. The Court now turns to whether plaintiffs’ personal
stake in the litigation, sufficient to support Article III
standing at commencement, dissipated over time.
3. 	Defendants’ Voluntary Cessation Moots
Counts One, Two, and Four
The Court first addresses whether any claims are
moot in light of defendants’ voluntary cessation of certain
debt collection practices. As a general rule, “any set of
circumstances that eliminates actual controversy after the
commencement of a lawsuit renders that action moot,” Ctr.
for Individual Freedom v. Carmouche, 449 F.3d 655, 661

42a
Appendix C
(5th Cir. 2006), and requires that the case be dismissed,
Genesis Healthcare Corp. v. Symczyk, 569 U.S. 66, 72,
133 S. Ct. 1523, 185 L. Ed. 2d 636 (2013). Although “[i]t
is well settled that ‘a defendant’s voluntary cessation of a
challenged practice does not deprive a federal court of its
power to determine the legality of the practice,’” Laidlaw,
528 U.S. at 189 (quoting City of Mesquite v. Aladdin’s
Castle, Inc., 455 U.S. 283, 289, 102 S. Ct. 1070, 71 L. Ed.
2d 152 (1982)), this rule is not absolute. “A case might
become moot if subsequent events made it absolutely clear
that the allegedly wrongful behavior could not reasonably
be expected to recur.” Id. (quoting United States v.
Concentrated Phosphate Export Ass’n, 393 U.S. 199,
203, 89 S. Ct. 361, 21 L. Ed. 2d 344 (1968)). Additionally,
“[w]ithout evidence to the contrary, [courts] assume that
formally announced changes to official governmental
policy are not mere litigation posturing.” Sossamon v.
Lone Star State of Texas, 560 F.3d 316, 325 (5th Cir. 2009).
Nonetheless, a defendant’s burden of showing mootness by
virtue of its voluntary cessation is “formidable.” Laidlaw,
528 U.S. at 190.
Defendants, through an affidavit by Administrator
Kazik, state that they have taken the following actions in
response to this lawsuit:85
• Defendants rescinded the Collections Department’s
authority to issue warrants. 86
85. R. Doc. 250-1 at 11.
86. R. Doc. 250-2 at 13, 76; R. Doc. 250-3 at 3.

43a
Appendix C
• Defendants identified all Collections Department
fines and fees warrants based solely on failure
to pay fines and fees (other than restitution) and
directed Sheriff Gusman to recall these warrants. 87
• Defendants have “written off” approximately
$1,000,000 in fines and fees owed to the court. 88
• Defendants have worked together “to implement
new procedures to correct complaints about delays
in getting arrestees timely to court.”89
The Collections Department’s practice of issuing
fines and fees warrants forms the basis of Counts One,
Two, and Four. Count One asserts that defendants issue
arrest warrants for failure to pay fines and fees without
probable cause, without review by a neutral magistrate,
and without oath or affirmation. 90 The allegations in
support of Count One relate solely to warrants issued by
the Collections Department.91 Similarly, Counts Two and
87. R. Doc. 250-2 at 13-14; R. Doc. 250-3 at 4.
88. R. Doc. 250-2 at 13-14; R. Doc. 250-3 at 4.
89. R. Doc. 250-1 at 11; R. Doc. 250-3 at 6, 29.
90. R. Doc. 161-4 at 56-57 ¶¶ 185-86; R. Doc. 251-1 at 18-25.
91. See, e.g., R. Doc. 161-4 at 34 ¶ 118 (“Pursuant to Collections
Department policy and practice, if a person fails to make the
payments determined by the Collections Department, Collections
Department employees will seek a warrant for the debtor’s arrest. . . .
The ‘warrants’ are never presented to a judge or neutral magistrate
for review, and no judicial officer is even aware of any particular
warrant application or issuance. They are not supported by oath or
affirmation.”).

44a
Appendix C
Four relate to the fixed, $20,000 money bail imposed on
individuals who are arrested on Collections Department
warrants. 92 Counts Five and Six, by contrast, do not
depend on abandoned Collections Department practices.
Count Five asserts that the Judges fail to consider ability
to pay before imprisoning plaintiffs for failure to pay court
debts.93 Count Five further asserts that the Judges do
not provide a neutral tribunal to determine ability to pay
because their financial interest in fines and fees revenue
deprives plaintiffs of due process. 94 Count Six broadly
alleges that defendants’ practice of imprisoning criminal
defendants for failure to pay fines and fees is invidious
discrimination.95 Thus, if it is absolutely clear that the
Collections Department’s warrant practices have ceased
and cannot reasonably be expected to recur, then Counts
One, Two, and Four, but not Counts Five and Six, would
be moot.
92. See id. at 27 ¶ 95 (“The OPCDC Defendants impose an
automatic $20,000 secured money bond on anyone illegally arrested
and imprisoned on a Collections Department warrant for nonpayment or late payment of court debts.”); id. at 57 ¶ 191 (“The
Defendants violate the Plaintiffs’ rights by placing and keeping
them in jail prior to any debt-collection proceedings when they
cannot afford to pay the preset amount of money required for release
after a Collections Department nonpayment arrest . . . .”); id. at 58
¶ 195 (“Defendants operate a system of money bond in which the
OPCDC Defendants set a bond amount on Collections Department
warrants that the Defendants know will result in their collecting
and controlling 1.8% of the bond amount if it is ultimately paid.”).
93. Id. at 59 ¶¶ 198-99.
94. Id. at 59-60 ¶ 200.
95. Id. at 60 ¶ 202.

45a
Appendix C
Defendants insist that the Collections Department
“will never again issue warrants.” 96 The Court does
not doubt defendants’ sincerity. But the Fifth Circuit
has cautioned that “allegations by a defendant that its
voluntary conduct has mooted the plaintiff’s case require
closer examination than allegations that happenstance
or official acts of third parties have mooted the case.”
Fontenot, 777 F.3d at 747-48 (quoting Envtl. Conservation
Org. v. City of Dallas, 529 F.3d 519, 528 n.4 (5th Cir. 2008)).
Upon close examination, the Court is satisfied that
defendants’ voluntary conduct has mooted plaintiffs’
claims related to Collections Department fines and fees
warrants. A memorandum issued by Administrator Kazik
on September 18, 2015 stated: “Pursuant to the En Banc
directive issued earlier today, all Collections Agents for
Criminal District Court may no longer issue an Alias
Capias for non-payment of fines and fees or for failure to
appear. This is effective immediately.” 97 The Court must
assume that this “formally announced change[] to official
governmental policy [was] not mere litigation posturing.”
Sossamon, 560 F.3d at 325. Moreover, the Judges reviewed
all active fines and fees warrants issued by the Collections
Department before September 18, 2015, and recalled all
such warrants unless restitution remained unpaid or the
individual had failed to appear in court.98 In doing so,

96. R. Doc. 250-1 at 11.
97. R. Doc. 250-2 at 76.
98. R. Doc. 250-3 at 4.

46a
Appendix C
the Judges wrote off $1,000,000 in court debts.99 Each
Judge now “handles collection-related matters on their
respective dockets,” according to Administrator Kazik.100
Admittedly, the timing of these policy changes
suggests that they were made in response to this litigation.
Administrator Kazik states in his affidavit that the
Judges decided to revoke the Collections Department’s
authority to issue warrants on “the day the Judges first
heard about this lawsuit.”101 Furthermore, there is no
indication that defendants’ new policy will be binding on
future OPCDC judges and administrators. Cf. Lewis v. La.
State Bar Ass’n, 792 F.2d 493, 496 (5th Cir. 1986) (finding
no reasonable expectation that the alleged violation would
recur because defendant bar association had changed its
policy, and the state supreme court would need to approve
any subsequent policy change). There is also precedent
for stopping and restarting the Collections Department’s
warrant process: in October 2012, the former chief judge
of OPCDC directed the Collections Department to
discontinue issuing fines and fees warrants, but reversed
course in February 2013.102
Nevertheless, the Court finds that defendants’
voluntary policy changes make it absolutely clear that
Collections Department practices could not reasonably be
99. Id.
100. Id. at 5.
101. Id. at 3.
102. R. Doc. 250-2 at 77-78.

47a
Appendix C
expected to recur. Defendants have formally revoked the
Collections Department’s authority to issue warrants. The
sincerity of this policy change is reflected in defendants’
decision to rescind all warrants issued by the Collections
Department for failure to pay fines and fees, other than for
restitution. Defendants have met their formidable burden
of showing that their voluntary conduct has mooted Counts
One, Two, and Four.
4. 	Defendants’ Voluntary Cessation Does Not
Moot Counts Five and Six
As discussed earlier, Counts Five and Six focus on
what the Judges do, not what the Collections Department
did, when criminal defendants fail to pay fines and fees.
Specifically, Count Five challenges the Judges’ practice of
failing to inquire into ability to pay before plaintiffs are
imprisoned for nonpayment, and the Judges’ conflict of
interest in deciding plaintiffs’ ability to pay.103 Count Six
challenges the Judges’ practice of imprisoning criminal
defendants for failure to pay fines and fees as invidious
discrimination.104 The predicate constitutional injuries
underlying both of these claims are that plaintiffs are
subject to imprisonment for failure to pay court debts,
and that the Judges do not inquire into plaintiffs’ ability
to pay before their imprisonment.
A defendant’s voluntary cessation of challenged
conduct moots a claim only if it is absolutely clear that
103. R. Doc. 161-4 at 59-60 ¶¶ 198-200.
104. Id. at 60 ¶ 202.

48a
Appendix C
the challenged conduct could not reasonably be expected
to recur. Laidlaw, 528 U.S. at 189. Here, to moot Counts
Five and Six, defendants must show that plaintiffs are no
longer subject to imprisonment for nonpayment of court
debts, or at least that the Judges inquire into plaintiffs’
ability to pay before their imprisonment.
The Court finds that defendants have not met their
formidable burden of showing mootness on Counts Five
and Six. First, and most importantly, the Judges do not
represent that they have ceased imprisoning individuals
for failure to pay court debts by some means other than
Collections Department warrants. Nor do they represent
that they now consider ability to pay before imprisoning
such individuals. Unlike the en banc directive withdrawing
the Collections Department’s authority to issue warrants,
there is no formal statement in the record indicating that
the Judges’ challenged practices have changed.
Defendants principally rely on the affidavit of
Administrator Kazik to show mootness. But Administrator
Kazik cannot—and does not—represent what the Judges’
current practices are, nor what the Judges will do going
forward. Instead, Administrator Kazik states that
“[t]o the best of Judicial Defendants’ ability, no fines and
fee warrants issued by a currently sitting or prior judge
exist, unless there was a determination that other good
cause existed in the court record supporting the warrant,
such as a failure to appear in court or a failure to pay
restitution.”105 At most, this carefully worded affidavit
105. R. Doc. 250-3 at 5.

49a
Appendix C
shows only that at one point in time—when Administrator
Kazik made this statement—there were no active fines
and fees warrants purely for failure to pay court debts,
other than restitution. Defendants’ corrective efforts to
recall fines and fees warrants do not suffice to show a
change in the Judges’ practices. Indeed, as discussed later,
the Judges still have enormous incentives to collect fines
and fees. Without evidence of an actual policy change, the
Court cannot simply assume that the Judges have altered
their debt collection practices.
Second, the Judges now handle collection efforts
on their respective dockets,106 and there is evidence in
the record that these efforts include issuing alias capias
warrants against criminal defendants for nonpayment of
fines and fees.107 Defendants produced worksheets listing
all alias capias warrants issued by Sections G and I of
OPCDC as of May 18, 2017.108 Both sections had issued (and
apparently then recalled) alias capias warrants for failure
to pay fines and fees as late as April 2017.109 Moreover,
in early 2017, the Judges met en banc to discuss issues
with securing court appearances for arrestees in a timely
manner. The Judges requested that “arrestees be placed
on our respective jail lists on the day of or the next day
after their arrest on a capias [warrant].”110 This request
106. Id. at 5.
107. See id. at 16, 21.
108. Id. at 12-21.
109. Id. at 16, 21.
110. Id. at 29.

50a
Appendix C
suggests that criminal defendants are still subject to
imprisonment on alias capias warrants issued by OPCDC,
with no pre-imprisonment court hearing.
Third, defendants’ corrective efforts are so riddled
with exceptions and omissions as to cast doubt on the
sincerity of their actions. Administrator Kazik’s affidavit
concedes the existence of active warrants for failure to
pay restitution and for failure to appear on court dates
related to fines and fees. And the police continue to arrest
individuals on these warrants. Plaintiffs sought to join one
such individual—Monique Merren—as a named plaintiff
in this case.111 An alias capias warrant issued against
Merren in 1999 after she failed to pay restitution for a 1998
conviction.112 Merren was arrested and imprisoned on this
warrant in June 2016.113 Defendants offer no explanation
for treating criminal defendants who owe restitution
differently from those who don’t. Additionally, OPCDC
still operates a Collections Department. And, as discussed
earlier, the Judges stopped the Collections Department’s
warrant process in 2012 before restarting it in 2013. This
policy reversal undercuts a finding that the Judges have
changed their practices for good.114
111. See R. Doc. 161.
112. R. Doc. 161-7 at 1. The Court takes judicial notice of
Merren’s OPCDC docket sheet, attached as an exhibit to plaintiffs’
motion for leave to file their second amended complaint.
113. Id.
114. The Court did not find this policy reversal sufficient
to defeat mootness on Counts One, Two, and Four in light of the
Judges’ en banc directive revoking the Collections Department’s

51a
Appendix C
Understandably, the Judges would like to see this
lawsuit go away. But they have not done enough to show
institutional change. Again, the Judges have not indicated
that they have ceased imprisoning criminal defendants
for failure to pay, or that they now inquire into those
criminal defendants’ ability to pay. Evidence in the record
confirms that plaintiffs still face the possibility of alleged
constitutional injury if they fail to pay their court debts.
For these reasons, defendants’ voluntary conduct does not
moot Counts Five and Six.
5. 	The Named Plaintiffs’ Claims Are Not
Moot
The Court next addresses whether plaintiffs’ claims
are moot in light of the apparent cancellation of their
court debts. A case will become moot when “there are
no longer adverse parties with sufficient legal interest
to maintain the litigation,” or “when the parties lack a
legally cognizable interest in the outcome” of the litigation.
In re Scruggs, 392 F.3d 124, 128 (5th Cir. 2004) (quoting
Chevron, U.S.A., Inc. v. Traillour Oil Co., 987 F.2d
1138, 1153 (5th Cir. 1993)). The purpose of this personal
stake requirement is to ensure that the case involves
“sharply presented issues in a concrete factual setting
warrant authority and their follow-up efforts rescinding Collections
Department warrants. Here, the Judges have not issued any
formal statement indicating that they have changed their practices
of imprisoning plaintiffs for nonpayment and not inquiring into
plaintiffs’ ability to pay. Additionally, the Judges’ follow-up efforts
were aimed principally at eliminating Collections Department
warrants.

52a
Appendix C
and self-interested parties vigorously advocating opposing
positions.” United States Parole Comm’n v. Geraghty, 445
U.S. 388, 403, 100 S. Ct. 1202, 63 L. Ed. 2d 479 (1980).
A case should not be declared moot so “long as the
parties maintain a ‘concrete interest in the outcome’ and
effective relief is available to remedy the effect of the
violation.” Dailey v. Vought Aircraft Co., 141 F.3d 224, 227
(5th Cir. 1998) (quoting Firefighters Local Union No. 1784
v. Stotts, 467 U.S. 561, 571, 104 S. Ct. 2576, 81 L. Ed. 2d
483 (1984)). The bar to overcome mootness is lower than
the bar to establish standing: “there are circumstances
in which the prospect that a defendant will engage in
(or resume) harmful conduct may be too speculative to
support standing, but not too speculative to overcome
mootness.” Laidlaw, 528 U.S. at 190.
Defendants assert that OPCDC suspended the
remaining balance of court debts owed by A lana
Cain and Ashton Brown, and waived that of Reynajia
Variste.115 Additionally, defendants contend that Vanessa
Maxwell’s court debts have been paid in full.116 Plaintiffs
do not contest these facts.117 Instead, plaintiffs make two
arguments: (1) at least Cain and Brown retain a personal
interest in the outcome of the litigation; and (2) the named
plaintiffs’ claims cannot be mooted because a motion for
class certification is pending.118
115. R. Doc. 250-2 at 12.
116. Id.
117. See R. Doc. 259-1 at 8.
118. R. Doc. 259 at 4.

53a
Appendix C
Plaintiffs first argue that defendants may reinstate
Cain’s and Brown’s suspended debts. While OPCDC
suspended Cain’s and Brown’s court debts, it waived
Maxwell’s. The Court presumes that a state court uses
language decidedly, and that OPCDC used suspension and
waiver to describe different actions.
To suspend a debt implies that OPCDC has temporarily
ceased enforcing its claim against an individual for her
court debts. See Merriam-Webster Dictionary Online,
www.merriam-webster.com (defining suspend as “to
cause to stop temporarily”; “to defer to a later time
on specified conditions”; “to hold in an undetermined
or undecided state awaiting further information”). By
contrast, to waive a debt suggests a decision permanently
to forgo debt collection. See id. (defining waive as “to
refrain from pressing or enforcing (something, such as a
claim or rule): forgo · waive the fee”); see also Veverica
v. Drill Barge Buccaneer No. 7, 488 F.2d 880, 883 (5th
Cir. 1974) (holding that deferral of payment for a salvage
operation did not waive the resulting maritime lien, “but
merely suspend[ed] the remedy on the lien” until payment
came due (emphasis added)). Thus, the plain meanings
of “suspend” and “waive” indicate that defendants may
reinstate Cain’s and Brown’s, but not Maxwell’s, court
debts.
Supreme Court precedent makes plain that temporary
relief from injury does not moot a plaintiff’s claim for
permanent equitable relief. In City of Los Angeles v.
Lyons, 461 U.S. 95, 103 S. Ct. 1660, 75 L. Ed. 2d 675 (1983),
the Supreme Court reviewed a district court injunction

54a
Appendix C
against the use of chokeholds by police officers. After the
Court granted certiorari, the city imposed a moratorium
on chokeholds. Id. at 100. As the Court stated in a later
opinion, this moratorium “surely diminished the already
slim likelihood that any particular individual would be
choked by police.” Laidlaw, 528 U.S. at 190. Nevertheless,
the Supreme Court held that the city’s moratorium did
not moot the case because “the moratorium by its terms
[was] not permanent.” Lyons, 461 U.S. at 101. By the same
logic, this Court finds that temporarily suspending Cain’s
and Brown’s court debts does not moot their claims for
declaratory relief.
Moreover, the record shows that defendants continued
to collect payments from Cain and Brown after suspending
their debts. According to a docket sheet, Cain’s court
debts were suspended on April 7, 2016.119 Nevertheless, a
payment receipt dated October 12, 2016, states that Cain
owes a balance of $251.50 and that the next payment is
due on October 31, 2016.120 Similarly, a minute entry shows
that Brown’s court debts were suspended as of September
23, 2016,121 but a payment receipt dated February 10, 2017,
shows a balance of $432.50.122 This evidence indicates
that suspension of a court debt does not bar defendants
from trying to collect that debt. Because plaintiffs Cain
and Brown remain subject to defendants’ debt collection
119. R. Doc. 250-3 at 22.
120. R. Doc. 230-3 at 2.
121. R. Doc. 250-3 at 23.
122. R. Doc. 230-3 at 3.

55a
Appendix C
policies and practices, including the Judges’ practices
that form the basis of Counts Five and Six, they have not
been “divested of all personal interest in the result” of the
litigation. Dailey, 141 F.3d at 227.
At oral argument, the parties represented that Cain
has received a reimbursement check from OPCDC.
It is unclear, however, when or why Cain received the
reimbursement check, or which court costs it reimbursed.
The check is not in the summary judgment record, and the
Court cannot simply assume that OPCDC has reimbursed
Cain for all payments made after the date her debts were
suspended. Moreover, defendants have not asserted that
Brown—or anyone else whose debts were suspended—
received a reimbursement check from OPCDC. Cain’s
reimbursement check does not affect the Court’s analysis.
That OPCDC continued to collect payment from Cain
and Brown after suspending their debts also shows that
the “capable of repetition, yet evading review” exception
applies. Ctr. for Individual Freedom, 449 F.3d at 661.
This “exception can be invoked if two elements are met:
‘(1) [T]he challenged action was in its duration too short
to be fully litigated prior to its cessation or expiration,
and (2) there was a reasonable expectation that the same
complaining party would be subjected to the same action
again.’” Id. (alteration in original) (quoting Weinstein v.
Bradford, 423 U.S. 147, 149, 96 S. Ct. 347, 46 L. Ed. 2d
350 (1975)). Defendants suspended Cain’s court debts in
April 2016—merely seven months after this proceeding
began. Seven months was too short a time to resolve
this complicated suit. Additionally, defendants’ actual

56a
Appendix C
debt collection efforts after suspending Cain’s and
Brown’s debts creates a reasonable expectation that
these plaintiffs will again be subject to defendants’ debt
collection practices in the future. Thus, even if defendants’
suspension of Cain’s and Brown’s court debts otherwise
moots their individual claims, the capable of repetition,
yet evading review exception applies.
Plaintiffs also argue that the named plaintiffs’ claims
cannot be mooted because a motion for class certification
is pending.123 Generally, “a class action becomes moot
when the putative representative plaintiff’s claim has
been rendered moot before a class is certified.” Fontenot
v. McCraw, 777 F.3d 741, 748 (5th Cir. 2015). But, as the
Supreme Court has noted,
There may be cases in which the controversy
involving the named plaintiffs is such that it
becomes moot as to them before the district
court can reasonably be expected to rule on a
certification motion. In such instances, whether
the certification can be said to ‘relate back’ to
the filing of the complaint may depend upon
the circumstances of the particular case and
especially . . . [whether] otherwise the issue
would evade review.
Sosna v. Iowa, 419 U.S. 393, 402 n.11, 95 S. Ct. 553, 42 L.
Ed. 2d 532 (1975); see also Genesis Healthcare, 569 U.S.
at 75 (“[A]n inherently transitory class-action claim is
123. R. Doc. 259 at 4.

57a
Appendix C
not necessarily moot upon the termination of the named
plaintiff’s claim.”) (internal quotation marks omitted)).
An example of such a claim is a constitutional challenge
to pretrial detention, which “is by nature temporary.”
Gerstein v. Pugh, 420 U.S. 103, 111 n.11, 95 S. Ct. 854,
43 L. Ed. 2d 54 (1975). The Court in Gerstein noted: “It
is by no means certain that any given individual, named
as plaintiff, would be in pretrial custody long enough for
a district judge to certify the class.” Id. In such a case,
“the termination of a class representative’s claim does not
moot the claims of the unnamed members of the class.” Id.
The Supreme Court again addressed a challenge to
pretrial detention in McLaughlin. The named plaintiffs in
McLaughlin were incarcerated and had not yet received a
probable cause hearing when they filed suit. 500 U.S. at 4849. Before the district court certified the class, the named
plaintiffs either received a probable cause determination
or were released. “That the class was not certified until
after the named plaintiffs’ claims had become moot [did]
not deprive [the Court] of jurisdiction,” however. Id. at 52
(citing Gerstein, 420 U.S. at 110 n.11). As in Gerstein, the
Court held that the relation back doctrine “preserve[d]
the merits of the case for judicial resolution.” Id.
While Sosna, Gerstein, and McLaughlin all applied
the relation back doctrine to inherently transitory claims,
the Fifth Circuit has further applied the doctrine to claims
“rendered moot by purposive action of the defendants.”
Zeidman v. J. Ray McDermott & Co., Inc., 651 F.2d 1030,
1049 (5th Cir. Unit A July 1981). The Zeidman court
held that, when “the plaintiffs have filed a timely motion

58a
Appendix C
for class certification and have diligently pursued it, the
defendants should not be allowed to prevent consideration
of that motion by tendering to the named plaintiffs their
personal claims before the district court reasonably can
be expected to rule on the issue.” Id. at 1045. The court
reasoned that defendants should not “have the option
to preclude a viable class action from ever reaching the
certification stage” by “picking off” the named plaintiffs,
whose claims would otherwise become moot.124 Id. at 1050.
Plaintiffs’ claims for equitable relief tend to evade
review, especially if defendants can pick off the named
plaintiffs by suspending or waiving their court debts.
Moreover, plaintiffs timely moved for class certification.125
The Court stayed this motion pending resolution of
the parties’ cross-motions for summary judgment.126
Plaintiffs—both named and unnamed—should not be
punished by the order in which the Court has addressed
124. The Fifth Circuit has since cast doubt on whether the
core holding of Zeidman remains good law as to claims for money
damages. Specifically, the court has stated that Genesis Healthcare
“undermines, at least in money damages cases, Zeidman’s analogy
between the ‘inherently transitory’ exception to mootness and the
strategic ‘picking off’ of named plaintiffs’ claims.” Fontenot, 777
F.3d at 750. In Genesis Healthcare, the Supreme Court declined
to apply the “inherently transitory” exception to a claim for money
damages, which “cannot evade review,” “[u]nlike claims for injunctive
relief challenging ongoing conduct.” 569 U.S. at 77. Where, as here,
plaintiffs seek equitable relief, the “inherently transitory” exception
still applies and Zeidman remains good law.
125. R. Doc. 230.
126. R. Doc. 237.

59a
Appendix C
issues in this case, or by defendants’ willingness to
suspend or waive the court debts of the named plaintiffs.
Nevertheless, the Court does not rely on the relation
back exception in determining that this case is not moot.
The relation back exception applies to a class certification
motion that is adjudicated after the named plaintiffs’
claims become moot. See Fontenot, 777 F.3d at 748. The
Court is not aware of any authority for applying this
exception to summary judgment motions. To the contrary,
the Zeidman court made clear that “[a] named plaintiff
whose individual claim has been rendered moot may in
no event argue the merits of the case before a class has
properly been certified; prior to that time the plaintiff may
at most argue the class certification question.” Id. at 1045;
see also Geraghty, 445 U.S. at 404 (“A named plaintiff
whose claim expires may not continue to press the appeal
on the merits until a class has been properly certified.”).
The Court therefore finds that the named plaintiffs’
claims are not moot for two reasons. First, Alana Cain
and Ashton Brown still owe court debts; defendants’
temporary suspension of these debts does not destroy
Cain’s or Brown’s personal stake in the litigation. Second,
with respect to Cain’s and Brown’s debts, defendants’ debt
collection practices are capable of repetition, yet evading
review.
6. 	Plaintiffs Do Not Request Mandamus
Defendants argue that plaintiffs’ claims for declaratory
relief against the Judges and Administrator Kazik are

60a
Appendix C
tantamount to requests for a writ of mandamus.127 It is
well-established that “federal courts have no general
power to issue writs of mandamus to direct state courts
and their judicial officers in the performance of their
duties.” Lamar v. 118th Judicial Dist. Court of Tex., 440
F.2d 383, 384 (5th Cir. 1971); see also In re Campbell, 264
F.3d 730, 731 (7th Cir. 2001) (discussing when mandamus
against state judicial officers may be appropriate). But
federal courts may grant declaratory and injunctive relief
against state judicial officers. See Pulliam v. Allen, 466
U.S. 522, 541-42, 104 S. Ct. 1970, 80 L. Ed. 2d 565 (1984);
Holloway v. Walker, 765 F.2d 517, 525 (5th Cir. 1985).
Indeed, Section 1983 explicitly recognizes the availability
of such remedies. See 42 U.S.C. § 1983 (providing that, “in
any action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity, injunctive
relief shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable”).
Plaintiffs’ summary judgment motion clearly frames
the claims against the Judges and Administrator Kazik as
requests for declaratory relief. But defendants argue that
plaintiffs essentially want this Court to direct defendants
in the exercise of their judicial duties. Specifically,
according to defendants, plaintiffs seek a court order
directing the Judges to hold hearings on ability to pay,
to cease delegating warrant authority to the Collections
Department, and to stop issuing capias warrants.128
127. R. Doc. 250-1 at 6.
128. R. Doc. 250-1 at 7-8.

61a
Appendix C
A writ of mandamus compels the defendant to
perform a certain act. See Mandamus, Black’s Law
Dictionary (10th ed. 2014). By contrast, the declaratory
judgments plaintiffs seek on Counts One, Two, Four, Five,
and Six would merely state that certain of defendants’
practices are unconstitutional.129 The Supreme Court has
recognized the authority of federal courts to issue such
relief against state judges. See Pulliam, 466 U.S. at 526
(affirming attorneys’ fees award in case where district
court declared magistrate’s practice of “requir[ing] bond
for nonincarcerable offenses . . . to be a violation of due
process and equal protection and enjoined it”). Thus, the
Court rejects defendants’ argument that plaintiffs’ claims
for declaratory relief are in fact requests for a writ of
mandamus.
7. 	Declaratory Relief Is Appropriate
Defendants further argue that the Court lacks the
authority to entertain plaintiffs’ claims for declaratory
relief.130 The Declaratory Judgment Act, 28 U.S.C. § 2201,
is “an enabling act, which confers a discretion on the
courts” to decide or dismiss a declaratory judgment suit,
“rather than an absolute right upon the litigant” to bring
such a suit. Wilton v. Seven Falls Co., 515 U.S. 277, 287,
115 S. Ct. 2137, 132 L. Ed. 2d 214 (1995) (quoting Pub. Serv.
Comm’n of Utah v. Wycoff Co., 344 U.S. 237, 241, 73 S. Ct.
236, 97 L. Ed. 291 (1952)); accord Sherwin-Williams Co. v.
Holmes County, 343 F.3d 383, 387, 389 (5th Cir. 2003). In
analyzing claims under the Act, a court must determine
129. See R. Doc. 161-4 at 61.
130. R. Doc. 250-1 at 8-9.

62a
Appendix C
“(1) whether the declaratory action is justiciable; (2)
whether the court has the authority to grant declaratory
relief; and (3) whether to exercise its discretion to decide or
dismiss the action.”131 Sherwin-Williams, 343 F.3d at 387.
Defendants argue that declaratory relief is not
appropriate because this case is no longer justiciable. As
explained earlier, Counts Five and Six are not moot. Thus,
the Court may entertain these claims for declaratory
relief.
8. 	The Eleventh Amendment Does Not Bar
Plaintiffs’ Official-Capacity Claims
Defendants’ final justiciability challenge relates to
whether the Judges enjoy sovereign immunity on plaintiffs’
official-capacity claims against them. Defendants argue
that suing a state official in her official capacity is the same
as suing the state directly.132 This proposition is true for
retrospective relief, but not for prospective relief. Under
Ex parte Young, 209 U.S. 123, 28 S. Ct. 441, 52 L. Ed. 714
(1908), plaintiffs may sue state officials in their official
capacity for prospective relief. See Will v. Mich. Dep’t of
State Police, 491 U.S. 58, 71 n.10, 109 S. Ct. 2304, 105 L.
Ed. 2d 45 (1989) (“Of course a state official in his or her
official capacity, when sued for injunctive relief, would be
a person under § 1983 because ‘official-capacity actions for
131. The Court has already addressed, and rejected, the
argument that it should exercise its discretion not to decide this
case. R. Doc. 119 at 14-19. Defendants do not renew this argument
in their motion for summary judgment.
132. R. Doc. 250-1 at 10.

63a
Appendix C
prospective relief are not treated as actions against the
State.’” (quoting Kentucky v. Graham, 473 U.S. 159, 167,
n.14, 105 S. Ct. 3099, 87 L. Ed. 2d 114 (1985))). Prospective
relief includes both injunctive and declaratory relief. See
Verizon Md., Inc. v. Pub. Serv. Comm’n of Md., 535 U.S.
635, 645, 122 S. Ct. 1753, 152 L. Ed. 2d 871 (2002) (allowing
plaintiff to seek both injunctive and declaratory relief
“against the individual commissioners in their official
capacities, pursuant to the doctrine of Ex parte Young”).
Thus, defendants’ Eleventh Amendment argument is
meritless.
***
Because Counts One, Two, and Four are moot,
defendants are entitled summary judgment on these
counts. Having found that Counts Five and Six remain
justiciable, the Court turns to the merits of these claims.
B. 	The Judges’ Practice of Imprisoning Individuals
for Failure to Pay Court Debts Without
Considering Ability to Pay Is Unconstitutional
The core of plaintiffs’ constitutional challenge to
the Judges’ debt collection measures is that the Judges
imprison poor debtors solely because they cannot afford
to pay court debts. Count Five specifically challenges
the Judges’ practice of failing to inquire into indigent
debtors’ ability to pay court debts before the debtors are
imprisoned for nonpayment.133
133. As discussed in the next section, Count Five also
challenges the constitutionality of the legislative framework that
vests both judicial and executive power in the Judges.

64a
Appendix C
1. 	The Judges Have a Policy or Practice
of Failing to Conduct Any Inquiry into
Plaintiffs’ Ability to Pay Court Debts
Before Plaintiffs Are Imprisoned for
Nonpayment
The facts related to Count Five are undisputed. Most
importantly, the Judges do not routinely solicit financial
information from criminal defendants who fail to pay their
court debts,134 though they do consider ability to pay when
the issue is brought to their attention.135 As discussed
earlier, plaintiffs continue to face the possibility that they
will be imprisoned for failure to pay court debts.136 Thus,
it is the Judges’ practice not to inquire into plaintiffs’
ability to pay such debts even though plaintiffs may be
imprisoned for failure to pay.
134. R. Doc. 251-2 at 17. Plaintiffs posed the following
interrogatory: “Please describe any and all policies, procedures,
and practices related to assessing whether a person who owes
fines and/or fees to the court has the ability to pay those fines and/
or fees?”; defendants responded: “There are no written policies or
procedures; the general practice, which varies depending upon the
matter, includes input from defense counsel and/or the defendant
when brought to the Court’s attention.” R. Doc. 251-5 at 297. Although
defendants deny that the Judges fail to routinely solicit information
about criminal defendants’ ability to pay, see R. Doc. 255-5 at 14,
they neither point to contrary evidence in the record nor show that
plaintiffs’ evidence is too sheer to support summary judgment. See
Fed. R. Civ. P. 56(c)(1); Int’l Shortstop, 939 F.2d at 1265. Defendants
therefore fail to carry their summary judgment burden of showing
a genuine dispute of fact.
135. R. Doc. 250-2 at 12; R. Doc. 259-1 at 8.
136. See supra Part III.A.4.

65a
Appendix C
The evidence in the record confirms this practice.
Each named plaintiff was imprisoned for failure to pay
court debts. But at no point—not at sentencing, not
before their imprisonment, not at a hearing while they
were imprisoned—did a judge inquire into their ability
to pay. By way of example, Ashton Brown was imprisoned
for failure to pay court fees from July 23 to August 7,
2015.137 No judge inquired into his ability to pay before
his imprisonment.138 Brown did secure an appearance in
court, without counsel, on August 6.139 The judge refused
to release Brown, who lived in poverty and struggled to
support himself and his nine-month-old daughter, unless
he paid $100 to OPCDC.140 There is no indication in the
record that the judge asked about Brown’s income or
ability to pay. Brown had to ask his grandmother for
help, and only after she made a $100 payment was Brown
released.141

137. R. Doc. 59-3 at 6.
138. The court did advise Brown at sentencing that if he
did not have the money to make his first payment, he should seek
an extension. R. Doc. 255-4 at 16. To be clear, plaintiffs are not
challenging the imposition of fines and fees at sentencing without
an ability-to-pay inquiry; their challenge is focused on the Judges’
practice of not providing this inquiry at any point before plaintiffs
are imprisoned for failure to pay.
139. R. Doc. 59-3 at 6.
140. Id.; R. Doc. 8-3 at 1.
141. R. Doc. 8-3 at 1; R. Doc. 59-3 at 6.

66a
Appendix C
A lana Cain was imprisoned for failure to pay
restitution and fees from March 11 to March 18, 2015.142
There is no indication that any judge inquired into her
ability to pay before her imprisonment. She appeared
before a judge while in jail; at that hearing, the transcript
of which is in the record,143 the judge did not ask Cain
whether she could pay her court debts, nor did he ask her
about her income.144 If the judge had inquired into Cain’s
ability to pay, he would have learned that Cain—who had
given birth to her first child a few weeks earlier—made
only $200 per month and struggled to afford food and
clothes.145 The judge did ask Cain when she would be able
to continue making payments.146 After Cain stated that
she could continue making payments upon her release,
the judge ordered her release and directed her to return
to court for a status update two weeks later.147
Some criminal defendants who appeared before a
judge while they were imprisoned for failure to pay fines
and fees were sent back to jail, apparently because they
could not make a payment. For example, Tyrone Singleton
was arrested for failure to pay fines and fees on November

142. R. Doc. 59-3 at 2; R. Doc. 251-5 at 369.
143. R. Doc. 95-3 at 27-35.
144. R. Doc. 8-2 at 1-2.
145. Id. at 1.
146. R. Doc. 95-3 at 30.
147. Id. at 29-32.

67a
Appendix C
11, 2013.148 He appeared before a judge two weeks later, on
November 25, but was sent back to jail for another week
before his release.149
This evidence suggests that the Judges do not release
criminal defendants imprisoned for failure to pay court
debts without a payment, or some promise of payment.150
Defendants cite no statutory authority for the Judges’
actions.151 This process most resembles contempt of court
in which an individual is imprisoned until she complies
with a court order—here, an order to pay fines and fees.
Because plaintiffs may secure their release by making
a payment, their imprisonment for nonpayment is a
conditional penalty. Hicks v. Feiock, 485 U.S. 624, 633, 108
S. Ct. 1423, 99 L. Ed. 2d 721 (1988). Contempt of court that
imposes a conditional penalty is civil, rather than criminal,
“because it is specifically designed to compel the doing of
some act,” rather than to punish. Id.
148. R. Doc. 251-5 at 411. The Court takes judicial notice of the
facts contained within this exhibit, which were taken from publicly
available docket sheets.
149. Id.
150. See R. Doc. 251-2 at 22; R. Doc. 255-5 at 25.
151. Because OPCDC sometimes includes payment of court
debts as a condition of probation, the court could revoke an
individual’s probation for failure to pay. See La. Code Crim. Proc.
art. 895.1 (authorizing courts to require payment of restitution and
certain fees as a condition of probation); id. arts. 899, 900 (describing
procedures for revoking probation). But there is no indication in the
record that OPCDC’s debt collections practices generally, or ever,
involve probation revocation.

68a
Appendix C
There is no genuine dispute, therefore, that the Judges
have a practice of not inquiring into plaintiffs’ ability to
pay court debts when plaintiffs are essentially held in civil
contempt and imprisoned for nonpayment.
2. 	The Judges’ Failure to Inquire into
Plaintiffs’ Ability to Pay Court Debts
Before Plaintiffs Are Imprisoned for
Nonpayment Violates Due Process
Plaintiffs argue that the Judges’ failure to inquire
into plaintiffs’ ability to pay court debts violates the
Fourteenth Amendment.152 Although “[d]ue process and
equal protection principles converge” in cases involving
the criminal justice system’s treatment of indigent
individuals, Bearden v. Georgia, 461 U.S. 660, 665, 103
S. Ct. 2064, 76 L. Ed. 2d 221 (1983), plaintiffs’ argument
sounds in procedural due process. Thus, the familiar
framework set out in Mathews v. Eldridge, 424 U.S.
319, 96 S. Ct. 893, 47 L. Ed. 2d 18 (1976), applies. See
Turner v. Rogers, 564 U.S. 431, 444-45, 131 S. Ct. 2507,
180 L. Ed. 2d 452 (2011) (applying Mathews v. Eldridge
to civil contempt proceedings). The Mathews v. Eldridge
framework calls for the Court to consider three factors:
“(1) the nature of ‘the private interest that will be affected,’
(2) the comparative ‘risk’ of an ‘erroneous deprivation’ of
that interest with and without ‘additional or substitute
procedural safeguards,’ and (3) the nature and magnitude
of any countervailing interest in not providing ‘additional
or substitute procedural requirements.’” Id. (quoting
Mathews, 424 U.S. at 335).
152. R. Doc. 251-1 at 38-39.

69a
Appendix C
Supreme Court precedent speaks directly to the
kind of procedural protections the Judges must provide
to plaintiffs. This precedent is grounded in the wellestablished principle that an indigent criminal defendant
may not be imprisoned solely because of her indigence. See
Tate v. Short, 401 U.S. 395, 398, 91 S. Ct. 668, 28 L. Ed. 2d
130 (1971); see also United States v. Voda, 994 F.2d 149, 154
n.13 (5th Cir. 1993) (“Constitutionally, courts are limited
in the penalty they can impose for nonpayment of criminal
fines because of inability to pay.”). Admittedly, there is
nothing necessarily unconstitutional about imprisoning a
convicted criminal defendant for failing to pay fines and
fees. As the Supreme Court recognized, this custom “dates
back to medieval England and has long been practiced in
this country.” Williams v. Illinois, 399 U.S. 235, 239, 90
S. Ct. 2018, 26 L. Ed. 2d 586 (1970) (footnote omitted).
But the Supreme Court has imposed constitutional
limits on this practice when applied to indigent criminal
defendants. In Williams, for example, the Court held that
“an indigent criminal defendant may not be imprisoned in
default of payment of a fine beyond the maximum [term
of imprisonment] authorized by the statute regulating the
substantive offense.” 399 U.S. at 241. Such imprisonment
constitutes “impermissible discrimination that rests on
ability to pay.” Id.
Following Williams, the Supreme Court addressed a
constitutional challenge to a state’s method of collecting
fines from an indigent criminal defendant. Tate, 401
U.S. 395, 91 S. Ct. 668, 28 L. Ed. 2d 130. The criminal
defendant in Tate had accumulated fines for traffic
offenses, which were punishable only by fine. Id. at 396-

70a
Appendix C
97. Because the defendant was indigent when the state
court imposed the fines, the court sentenced him to a
term of imprisonment—each day counted as five dollars
toward the defendant’s outstanding fines. Id. The Court
invalidated this practice as violating equal protection,
explaining that “the Constitution prohibits the State
from imposing a fine as a sentence and then automatically
converting it into a jail term solely because the defendant
is indigent and cannot forthwith pay the fine in full.” Id.
at 398 (citation omitted).
Over a decade later, in Bearden, the Supreme Court
addressed a similar challenge to a probation revocation
proceeding. There, the Court held that an indigent
defendant’s probation cannot be revoked (and thus
converted into a jail term) for his failure to pay a courtimposed fine or restitution “absent evidence and findings
that the defendant was somehow responsible for the failure
or that alternative forms of punishment were inadequate.”
461 U.S. at 665. The Court further held:
[A] sentencing court must inquire into the
reasons for the failure to pay. If the probationer
willfully refused to pay or failed to make
sufficient bona fide efforts legally to acquire
the resources to pay, the court may revoke
probation and sentence the defendant to
imprisonment . . . . If the probationer could
not pay despite sufficient bona fide efforts to
acquire the resources to do so, the court must
consider alternate measures of punishment
other than imprisonment. Only if alternate

71a
Appendix C
measures are not adequate to meet the State’s
interests in punishment and deterrence may
the court imprison a probationer who has
made sufficient bona fide efforts to pay. To do
otherwise would deprive the probationer of his
conditional freedom simply because, through no
fault of his, he cannot pay the fine.
Id. at 672-73. The state court imprisoned Bearden “because
he could not pay the fine, without considering the reasons
for the inability to pay or the propriety of reducing the fine
or extending the time for payments or making alternative
orders.” Id. at 674. In this way, “the court automatically
turned a fine into a prison sentence.” Id.
More recently, the Supreme Court in Turner reiterated
the importance of the ability-to-pay determination prior to
imprisonment, this time in the context of a civil contempt
proceeding. The Court applied the Mathews v. Eldridge
framework to determine whether an indigent defendant
has “a right to state-appointed counsel at a civil contempt
proceeding, which may lead to his incarceration.” Turner,
564 U.S. at 441. The Court noted “the importance
of the interest at stake”—the defendant’s interest in
preventing the “loss of [his] personal liberty through
imprisonment.” Id. at 445. Given the importance of this
interest, the Court stated, “it is obviously important to
assure accurate decisionmaking in respect to the key
‘ability to pay’ question.” Id. The Court held that due
process does not require state-appointed counsel so
long as the state provides other procedural safeguards
equivalent to “adequate notice of the importance of

72a
Appendix C
ability to pay, fair opportunity to present, and to dispute,
relevant information [concerning ability to pay], and court
findings.” Id. at 448.
The Court finds that Bearden is controlling, and
that Turner is instructive. Admittedly, there are some
differences between those cases and this one. For example,
unlike the court in Bearden, OPCDC does not impose a
term of imprisonment upon criminal defendants for failure
to pay their court debts. And OPCDC’s debt collection
procedures appear to operate independently from
revocation of probation. See State v. Kenniston, 976 So. 2d
226, 227 (La. App. 4 Cir. 2008) (noting that OPCDC issued
two alias capias warrants for failure to pay court debts,
and that the state later initiated probation revocation
proceedings); see also La. Code Crim. Proc. arts. 899900 (describing probation revocation procedures). But
“[n]othing in the language of the Bearden opinion prevents
its application to any given enforcement mechanism.”
United States v. Payan, 992 F.2d 1387, 1396 (5th Cir. 1993).
And civil contempt in this case, like probation revocation in
Bearden, works the same constitutional injury: plaintiffs,
like the criminal defendant in Bearden, are subject to
imprisonment for failure to pay court-imposed fines and
fees.
Like the defendant in Turner, plaintiffs are subject
to imprisonment as the result of civil contempt-like
proceedings. Admittedly, neither party in Turner
was represented by counsel during the civil contempt
proceeding, and the complaining party was not the state,
564 U.S. at 448-49; here, by contrast, the complaining

73a
Appendix C
party—OPCDC—is both an organ of the state and
represented by counsel (the Judges), and the criminal
defendants generally are also represented by counsel.
But Turner does stand for the broader proposition that
the ability-to-pay inquiry required by Bearden must have
some procedural safeguards.
Bearing in mind that Bearden and Turner speak
directly to the procedural requirements of an ability-topay inquiry, the Court now turns to the application of
the Mathews framework to the facts of this case. First,
plaintiffs’ interest in securing their “freedom ‘from bodily
restraint[]’ lies ‘at the core of the liberty protected by the
Due Process Clause.’” Turner, 564 U.S. at 445 (quoting
Foucha v. Louisiana, 504 U.S. 71, 80, 112 S. Ct. 1780, 118
L. Ed. 2d 437 (1992)). Plaintiffs’ liberty interest weighs
heavily in favor of procedural safeguards provided before
imprisonment.
Second, the risk of erroneous deprivation without an
inquiry into ability to pay is high. At least some criminal
defendants, including the named plaintiffs, are subject
to imprisonment for failure to pay fines and fees despite
their indigence. OPCDC necessarily determined that all
named plaintiffs, except Reynaud Variste, were indigent
when it appointed counsel for them during their criminal
proceedings.153 Moreover, Louisiana courts presume that
153. See R. Doc. 228 at 6; R. Doc. 251-2 at 17; R. Doc. 255-5
at 24; La. Rev. Stat. § 15:175(A)(1)(b) (“A person will be deemed
‘indigent’ who is unable, without substantial financial hardship to
himself or to his dependents, to obtain competent, qualified legal
representation on his own.”).

74a
Appendix C
a criminal defendant who cannot afford counsel is indigent
for purposes of ability to pay court debts. See State v.
Williams, 288 So. 2d 319, 321 (La. 1974) (noting that
appointment of counsel established defendant’s indigence);
State v. Morales, 221 So. 3d 257, 258 (La. App. 3 Cir.
2017) (noting that appointment of counsel is “presumptive
evidence of indigence”); State v. Hebert, 669 So. 2d 499,
502 (La. App. 4 Cir. 1996) (“[A] defendant represented by
appointed counsel . . . is presumed indigent and cannot
be ordered to serve additional jail time in lieu of the
payment of costs.”). The inquiry itself surely must involve
at least notice and opportunity to be heard, as suggested
by Turner; an ability-to-pay inquiry without these basic
procedural protections would likely be ineffective.
Third, the Judges fail to point to any countervailing
interest in not inquiring into plaintiffs’ ability to pay
before imprisonment. According to Administrator Kazik,
the Judges consider ability to pay if a criminal defendant
raises the issue.154 But Bearden and Turner require more.
Bearden commands that before a court imprisons an
individual for failure to pay a court-imposed fine or fee,
the court must inquire into her reasons for failure to pay.
461 U.S. at 672. If the individual is unable to pay the court
debts despite sufficient bona fide efforts to do so, then the
court must consider alternative measures. Id. Turner
holds that this ability-to-pay inquiry must have at least
some procedural safeguards. The record shows that at
least until 2015, the Collections Department gave notice to
154. R. Doc. 250-3 at 5 (Kazik Affidavit stating that “[i]f a
criminal defendant raises the issue of their ability to pay, the judges
consider it”).

75a
Appendix C
criminal defendants before issuing alias capias warrants
for failure to pay, and these criminal defendants usually
appeared before a judge while they were imprisoned for
failure to pay. The Judges therefore provided notice and an
opportunity to be heard to plaintiffs—just not “in respect
to the key ‘ability to pay’ question.” Turner, 564 U.S. at
445. In light of this limited notice and opportunity to be
heard formerly provided by OPCDC, the Court cannot
discern any state interest in the Judges’ failure to provide
notice and an opportunity to be heard on ability to pay
before imprisonment.
Moreover, there is no authority for the proposition that
a criminal defendant must raise the issue of her inability
to pay. As the Court explained in an earlier order, the
Judges’ reliance on Garcia v. City of Abilene, 890 F.2d
773 (5th Cir. 1989), and Sorrells v. Warner, 21 F.3d 1109
[published in full-text format at 1994 U.S. App. LEXIS
41508] (5th Cir. 1994) (unpublished), is unavailing.155 In
both cases, the criminal defendant had an opportunity to
claim indigence but squandered it by failing (or repeatedly
failing) to appear, in person, at scheduled court hearings.
Sorrells, 21 F.3d at *1 [published in full-text format at 1994
U.S. App. LEXIS 41508]; Garcia, 890 F.2d at 775; see also
Doe v. Angelina County, 733 F. Supp. 245, 253 (E.D. Tex.
1990) (distinguishing Garcia because “a party cannot fail
to appear if no provision is made for such a proceeding” in
the first place); De Luna v. Hidalgo County, 853 F. Supp.
2d 623, 646-47 (S.D. Tex. 2012) (citing Doe v. Angelina
County). Regardless, Turner clearly suggests that the
155. R. Doc. 136 at 15-16.

76a
Appendix C
state provide the procedural protection of notice that
ability to pay is important; a contrary rule, requiring the
criminal defendant to raise the issue on her own, would
undermine Bearden’s command that a criminal defendant
not be imprisoned solely because of her indigence. 461
U.S. at 672-73.
It is undisputed that the Judges provide no abilityto-pay inquiry, nor any further procedural safeguards,
to indigent criminal defendants who are subject to
imprisonment for failure to pay court debts. Under
Bearden and Turner, the Judges must inquire into
plaintiffs’ ability to pay before their imprisonment. This
inquiry must involve certain procedural safeguards,
especially notice to the individual of the importance of
ability to pay and an opportunity to be heard on the issue.
If an individual is unable to pay, then the Judges must
consider alternative measures before imprisoning the
individual.
Plaintiffs are entitled summary judgment on Count
Five to the extent they seek a declaration that the Judges’
practice of not inquiring into plaintiffs’ ability to pay
before they are imprisoned for nonpayment violates the
Fourteenth Amendment.
C. 	The Judges’ Control over Both Fines and Fees
Revenue and Ability-to-Pay Determinations
Violates Due Process
Count Five also challenges the dual role the Judges
play: they are responsible for both determining criminal

77a
Appendix C
defendants’ ability to pay fines and fees and managing a
portion of the revenue derived from those fines and fees.156
Plaintiffs argue that the Judges’ power over this revenue
creates a financial conflict of interest, depriving criminal
defendants of a neutral tribunal to determine their ability
to pay.157
1. 	Legal Background
“Trial before an unbiased judge is essential to due
process.” Pub. Citizen, Inc. v. Bomer, 274 F.3d 212, 217
(5th Cir. 2001) (quoting Johnson v. Mississippi, 403 U.S.
212, 216, 91 S. Ct. 1778, 29 L. Ed. 2d 423 (1971)); see also
Brown v. Edwards, 721 F.2d 1442, 1451 (5th Cir. 1984)
(“The right to a judge unbiased by direct pecuniary
interest in the outcome of a case is unquestionable.”).
Although due process requires a judge’s disqualification
“only in the most extreme of cases,” Aetna Life Ins. Co.
v. Lavoie, 475 U.S. 813, 821, 106 S. Ct. 1580, 89 L. Ed.
2d 823 (1986), the Supreme Court has found due process
violations when judges maintained pecuniary interests in
cases before them.
In Tumey v. Ohio, 273 U.S. 510, 47 S. Ct. 437, 71 L.
Ed. 749, 5 Ohio Law Abs. 159, 5 Ohio Law Abs. 185, 25
Ohio L. Rep. 236 (1927), a defendant was convicted of
possessing liquor in violation of Ohio’s Prohibition Act.
The Act provided for trial in a “liquor court,” in which the
156. Plaintiffs do not challenge the Judges’ initial assessment
of fines and fees, and the Court does not address it.
157. R. Doc. 251-1 at 38.

78a
Appendix C
village mayor served as judge. Id. at 521. The money raised
by fines levied in these courts was divided between the
state, the village general fund, and two other village funds.
Id. at 521-22. One of these other funds covered expenses
associated with enforcing the Prohibition Act, including
nearly $700 paid to the mayor “as his fees and costs, in
addition to his regular salary.” Id. at 522. The Supreme
Court overturned Tumey’s conviction, and held that the
mayor, acting as judge, was disqualified from deciding
Tumey’s case “both because of his direct pecuniary
interest in the outcome, and because of his official motive
to convict and to graduate the fine to help the financial
needs of the village.” Id. at 535.
In Ward v. Village of Monroeville, 409 U.S. 57, 93 S.
Ct. 80, 34 L. Ed. 2d 267 (1972), the Court considered a
challenge to traffic fines imposed by another Ohio mayor’s
court. Fines generated by the mayor’s court at issue in
Ward provided a “major part” of the total operating funds
for the municipality that the mayor oversaw. Id. at 58.
The Court viewed the case as controlled by Tumey and
noted, “that the mayor [in Tumey] shared directly in the
fees and costs did not define the limits of the principle”
of judicial bias articulated in that case. Id. at 60. Instead,
the Court offered a general test to determine whether
an arrangement of this type compromises a criminal
defendant’s right to a disinterested and impartial judicial
officer:
[T]he test is whether the [judge’s] situation is
one “which would offer a possible temptation to
the average man as a judge to forget the burden

79a
Appendix C
of proof required to convict the defendant, or
which might lead him not to hold the balance
nice, clear, and true between the state and the
accused.”
Id. (quoting Tumey, 273 U.S. at 532). In holding that the
mayor’s court in Ward violated due process, the Court
found that the impermissible temptation “[p]lainly . . . may
also exist when the mayor’s executive responsibilities for
village finances may make him partisan to maintain the
high level of contribution from the mayor’s court.” Id.
In some cases, a judicial officer’s institutional interest
may be too remote to create an unconstitutional conflict of
interest. In Dugan v. Ohio, 277 U.S. 61, 48 S. Ct. 439, 72 L.
Ed. 784 (1928), for example, a mayor with judicial functions
also served as one of five commissioners. Collectively,
these commissioners exercised the legislative power of the
city, and shared executive powers with the city manager
(who was the “active executive”). Id. at 63. The Court held
that the mayor’s relation “to the executive or financial
policy of the city” was too “remote” to interfere with his
judicial functions. Id. at 65.
The Fifth Circuit applied Tumey and Ward to strike
down Mississippi’s system of compensating justices of
the peace. Brown v. Vance, 637 F.2d 272 (5th Cir. Jan.
1981). By law, the justices of the peace were paid based
on the volume of cases filed in their courts. Id. at 274. No
evidence of “actual judicial bias” was necessary “to hold
the fee system constitutionally infirm.” Id. at 282. Instead,
the incontrovertible possibility that the justices of the

80a
Appendix C
peace would “compete for business by currying favor with
arresting officers or taking biased actions to increase their
caseload . . . deprive[d] criminal defendants of their due
process right to a trial before an impartial tribunal.” Id.
2.

The Judges Face a Conflict of Interest
When They Determine Ability to Pay Fines
and Fees

It is undisputed that the Judges are responsible for
both managing fines and fees revenue and determining
whether criminal defendants are able to pay those same
fines and fees, once imposed. Fines and fees revenue goes
into the Judicial Expense Fund,158 which the Judges may
use “for any purpose connected with, incidental to, or
related to the proper administration or function of the
court or the office of the judges thereof,” La. Rev. Stat.
§ 13:1381.4(C), except to supplement their own salaries,
id. § 13:1381.4(D). In their capacity as administrators and
executives of OPCDC, the Judges exercise total control
over the Judicial Expense Fund.159 The Judges use this
money primarily to fund their own staffs.160
Various statutes give the Judges authority over
revenue from fines and fees. First, Louisiana law directs
the Sheriff to allocate half of all fines and forfeitures to an
158. R. Doc. 251-2 at 12; R. Doc. 251-5 at 382.
159. R. Doc. 251-2 at 3; R. Doc. 255-5 at 1.
160. R. Doc. 251-2 at 5-6; R. Doc. 255-5 at 2; see also R. Doc.
248 at 3.

81a
Appendix C
“account to be administered by the judges of the criminal
district court of Orleans Parish.” Id. § 15:571.11(D). This
revenue is “to be used in defraying the expenses of the
criminal courts of the parish, extraditions, and such other
expenses pertaining to the operation of the criminal court
of Orleans Parish.” Id.
Second, the Judges may impose costs of up to $100 on
convicted criminal defendants (other than those who are
indigent); Louisiana law directs the Judicial Administrator
to place these sums in a “Criminal Court Cost Fund” to
be administered by the Judges. Id. § 13:1377. Each of the
Judges may authorize disbursements from this fund “to
assist in the operation and maintenance” of OPCDC. Id.
§ 13:1377(C).
Third, and most importantly, the Judges may impose
a fee of up to $500 on a misdemeanant and up to $2,500 on
a felon; Louisiana law directs the Judicial Administrator
to place these sums in the Judicial Expense Fund. Id.
§ 13:1381.4. The same provision also imposes a $5 fee
on every convicted criminal defendant, and directs the
Judicial Administrator to place these sums in the Judicial
Expense Fund. Id. § 13:1381.4(A)(1).
Fourth, the Judges may impose a $14 fee on convicted,
non-indigent criminal defendants; this cost goes into
an Indigent Transcript Fund “to compensate court
reporters for the preparation of all transcripts for indigent
defendants.” Id. § 13:1381.1(A). Louisiana law authorizes
the Judges, sitting en banc, to pay “deputy court reporters
for the transcription of indigent defendant cases” out of the

82a
Appendix C
Indigent Transcript Fund. Id. § 13:1381.1(C). Evidently,
the Judges impose additional costs under Louisiana Code
of Criminal Procedure Article 887(A) for the Indigent
Transcript Fund.161
Fifth, the Judges (or presiding judge) may establish
a drug division and may administer a probation program
for criminal defendants charged with an alcohol- or drugrelated offense. La. Rev. Stat. § 13:5304. Louisiana law
requires that individuals in this program pay for their
own drug testing, “unless the court determines that he
is indigent.” Id. § 13:5304(B)(3)(e).
Although several of these fees appear to be dedicated
to certain purposes, the revenue all goes into the Judicial
Expense Fund.162 Approximately $1,000,000 from various
fines and fees goes into the OPCDC budget each year.163
This funding structure puts the Judges in the difficult
position of not having sufficient funds to staff their offices
unless they impose and collect sufficient fines and fees
from a largely indigent population of criminal defendants.
161. R. Doc. 248 at 4.
162. R. Doc. 251-2 at 12. In support of this fact, plaintiffs point
to spreadsheets showing that from 2013 through 2015, all fines and
fees revenue went to the general fund (i.e., the Judicial Expense
Fund) rather than the restricted fund. R. Doc. 251-5 at 382-83. In
2012, some of these fines and fees, including indigent transcript fees,
went into the restricted fund. Id. Defendants do not contradict this
evidence.
163. Specifically, OPCDC obtained $830,384 in fines and fees
revenue in 2012, $973,311 in 2013, $1,084,968 in 2014, and $1,188,420
in 2015. R. Doc. 248 at 2.

83a
Appendix C
The Judges’ power over fines and fees revenue
creates a conflict of interest when those same Judges
determine (or are supposed to determine) whether
criminal defendants are able to pay the fines and fees
that were imposed at sentencing. As explained earlier,
the Judges have a constitutional obligation to inquire
into criminal defendants’ ability to pay court debts.
But the Judges have a financial stake in the outcome
of ability-to-pay determinations; if they determine that
a criminal defendant has the ability to pay, and collect
money from her, then the revenue goes directly into the
Judicial Expense Fund. Cf. United Church of the Med.
Ctr. v. Med. Ctr. Comm’n, 689 F.2d 693, 699 (7th Cir.
1982) (“In this case the Commission has a pecuniary
interest in the outcome of the reverter proceedings,
because if the Commission finds a nonuse or disuse, the
property reverts to the Commission . . . . This is sufficient
. . . to mandate disqualification of the Commission in the
reverter proceeding . . . .”). The Judges therefore have an
institutional incentive to find that criminal defendants are
able to pay fines and fees.
The Judges’ dual role, as adjudicators who determine
ability to pay and as managers of the OPCDC budget,
offer a possible temptation to find that indigent criminal
defendants are able to pay their court debts. This “inherent
defect in the legislative framework” arises not from the
bias of any particular Judge, but “from the vulnerability
of the average man—as the system works in practice and
as it appears to defendants and to the public.” Brown, 637
F.2d at 284.

84a
Appendix C
The Judges’ practice of failing to inquire into ability
to pay is itself indicative of their conflict of interest. Cf.
Esso Std. Oil Co. (P.R.) v. Mujica Cotto, 389 F.3d 212, 219
(1st Cir. 2004) (noting that evidence of actual bias includes
“procedural irregularities in the decision to assess [a]
fine”). As is the dramatic increase in assessments for
indigent transcript fees between 2012 and 2013—from
$9,841.50 to $271,581.75—when OPCDC shifted revenue
from such fees from the restricted fund to the Judicial
Expense Fund.164 Defendants insist that they do not
benefit from this revenue, which solely aids indigent
criminal defendants.165 This assertion is undercut by
financial statements for the Judicial Expense Fund, which
show expenditures on transcripts of $0 in 2013 and 2015
and $7,044 in 2014.166
Further evidence of an actual conflict of interest is
that the Judges have sought ways to increase collections
from criminal defendants. At a City Council hearing in
July 2014, a judge explained that the Judges were sharing
ideas “in an effort to increase [their] collection” of fines
and fees.167 The Collections Department itself was created
164. R. Doc. 248-1 at 6-7; R. Doc. 251-5 at 382-83.
165. R. Doc. 255-5 at 17.
166. R. Doc. 248-1 at 2-4.
167. R. Doc. 251-5 at 284. Defendants object to City Council
transcripts as incomplete and taken out of context. R. Doc. 255-5
at 18. But the Judges’ statements are admissible as admissions of
party opponents. Fed. R. Evid. 801(d)(2). Moreover, defendants do not
contend that the statements at issue were inaccurately transcribed.

85a
Appendix C
by the Judges in the 1980s to facilitate collection efforts.168
Moreover, at least from 2013 through 2015, the amount of
fees (which go entirely to OPCDC) imposed by the Judges
far exceeded the amount of fines (only half of which goes to
OPCDC).169 This suggests that the Judges prefer to impose
fees for OPCDC rather than share fines with the DA.
Defendants’ reliance on Broussard v. Parish of New
Orleans, 318 F.3d 644 (5th Cir. 2003), is misplaced. The
plaintiffs in Broussard challenged the constitutionality of
the Louisiana bail fee statutes on a number of grounds.
As relevant here, the plaintiffs argued that these statutes
violated Tumey and Ward by “tempt[ing] sheriffs to stack
charges against arrestees in violation of their due process
rights.” Id. at 661. The court found that Tumey and
Ward were inapplicable because the sheriffs-defendants
in Broussard did not exercise a judicial function. Id. at
662. As purely executive actors, the sheriffs were “not
expected to maintain a level of impartiality equal to that
expected of judges.” Id. Unlike the sheriffs in Broussard,
the Judges in this case do exercise a judicial function when
they are required to determine ability to pay fines and
fees. Thus, unlike in Broussard, the Ward test applies to
whether the Judges have an unconstitutional conflict of
interest.
That the Judges have an institutional, rather than
direct and individual, interest in maximizing fines and
fees revenue is immaterial. See Chrysler Corp. v. Tex.
168. R. Doc. 248 at 7.
169. See R. Doc. 248-1 at 7-9, 11-13.

86a
Appendix C
Motor Vehicle Comm’n, 755 F.2d 1192, 1199 (5th Cir. 1985)
(“Certainly the due process principle distilled from the
Tumey line reaches beyond immediate economic stakes
to include economic interests said to be ‘indirect’ or
‘institutional.’”). Ward itself involved a mayor who had no
direct, personal interest in traffic fine revenue; his interest
related solely to his “executive responsibilities for village
finances.” 409 U.S. at 60. Likewise, the Judges’ interest
in fines and fees revenue is related to their executive
responsibilities for OPCDC finances.
Additionally, that the Judges manage court funds
collectively does not render their institutional interest
too remote. Unlike in Dugan, where the mayor was only
one member of a five-person commission that shared
executive power with the city manager (who was the acting
executive), collectively the Judges exercise all executive
power over OPCDC’s share of fines and fees revenue.
Moreover, the Supreme Court has applied Tumey and
Ward to the members of a state board of optometry, all
of whom had a personal interest in revoking the licenses
of optometrists employed by corporations. Gibson v.
Berryhill, 411 U.S. 564, 578, 93 S. Ct. 1689, 36 L. Ed.
2d 488 (1973). The Court held that the board members
were disqualified from adjudicating charges against
such optometrists. Id.; cf. Chrysler, 755 F.2d at 1199
(finding no impermissible bias where only four out of nine
commissioners potentially had conflict of interest).
Plaintiffs have established that the Judges’ dual
role creates a “possible temptation . . . not to hold the
balance nice, clear, and true between the state and the

87a
Appendix C
accused.” Ward, 409 U.S. at 60 (quoting Tumey, 273 U.S.
at 532). By no fault of their own, the Judges’ “executive
responsibilities for [court] finances may make [them]
partisan to maintain the high level of contribution,” in
the form of fines and fees, from criminal defendants. Id.
3. 	The Judges’ Conf lict of Interest Is
Substantial
Plaintiffs must also establish that the Judges’ conflict
of interest is substantial. In Tumey, the Court noted that
“[t]he minor penalties usually attaching to the ordinances
of a village council, or to the misdemeanors in which the
mayor may pronounce final judgment without a jury, do
not involve any such addition to the revenue of the village
as to justify the fear that the mayor would be influenced
in his judicial judgment by that fact.” 273 U.S. at 534.
According to the Ninth Circuit, the proper question is
“whether the official motive here is ‘strong,’ so that it
‘reasonably warrants fear of partisan influence on the
judgment.’” Alpha Epsilon Phi Tau Chapter Hous. Ass’n
v. City of Berkeley, 114 F.3d 840, 847 (9th Cir. 1997)
(quoting Commonwealth of N. Mariana Islands v. Kaipat,
94 F.3d 574, 575, 582 (9th Cir. 1996)).
The Judges’ institutional interest in maximizing fines
and fees revenue is substantial. Fines and fees revenue is
obviously important to the Judges; fines and fees provide
approximately 10% of the total OPCDC budget and one
quarter of the Judicial Expense Fund.170 Cf. DePiero v.
170. R. Doc. 248 at 2; R. Doc. 248-1 at 1-4.

88a
Appendix C
City of Macedonia, 180 F.3d 770, 780-82 (6th Cir. 1999)
(finding a due process violation when a maximum of 9%
of municipality’s general fund derived from mayor’s court
revenue). Judge Zibilich emphasized the importance of this
revenue during a City Council hearing, stating that the
fines and fees revenue “probably represents fully a fourth
of the monies that we need to be operational, and if we
are handcuffed in that particular regard, that money[’s]
replacement’s going to have to come from some place.”171
The Judges spend most of the Judicial Expense Fund
on salaries and benefits for their employees (though not
themselves), and most of the money for these salaries and
benefits comes from the Judicial Expense Fund.172
Moreover, the agg regate amount at stake in
determining criminal defendants’ ability to pay is
significant. According to the parties’ joint stipulations
of fact, OPCDC collects only between 40% and 50% of
the fines and fees it assesses.173 The amounts that go
uncollected run in the hundreds of thousands of dollars.
In 2013, for example, OPCDC assessed $1,517,031.17 in
Judicial Expense Fund fees, Indigent Transcript Fund
fees, and drug testing fees—the three largest categories
of fees that go into the Judicial Expense Fund.174 OPCDC

171. R. Doc. 251-5 at 247.
172. R. Doc. 251-2 at 5-6; R. Doc. 255-5 at 2.
173. R. Doc. 248 at 5.
174. See R. Doc. 248-1 at 7.

89a
Appendix C
collected only $805,067.12 in these fees.175 The amount
uncollected, $711,964.05, was equal to 17% of the Judicial
Expense Fund revenue in 2013.176 That same figure was
14% in 2014, and 18% in 2015.177
Both Administrator Kazik and Judge Zibilich have
suggested that collection rates are low partly because
most criminal defendants are indigent. In a 2014 letter
requesting a higher appropriation from the City of New
Orleans, Administrator Kazik explained that most of the
OPCDC budget “is received from the various fines and fees
assessed to defendants at sentencing.”178 But, he stated,
“[m]ost defendants are unemployed and indigent, which
makes collecting those assessed fees a challenge and an
unreliable revenue resource for the Court’s operational
needs.”179 At a City Council meeting, Judge Zibilich noted
that nearly 95% of the criminal defendants in OPCDC
cannot afford an attorney, and stated: “If they can’t afford
an attorney, just imagine how difficult it’s going to be for
us to have to chase them around the block to try to get
money from them.”180
175. See id. at 11. Of course, fees assessed in one year may be
collected in later years. But the record does not include time frames
for collections of specific assessments.
176. See id. at 2 (2013 general fund revenue was $4,100,413).
177. See id. at 3 (2014 general fund revenue was $3,928,025);
id. at 4 (2015 unrestricted fund revenue was $3,940,535); id. at 8-9
(2014 and 2015 assessments); id. at 12-13 (2014 and 2015 collections).
178. R. Doc. 251-5 at 174.
179. Id.
180. Id. at 286.

90a
Appendix C
It is undisputed that OPCDC depends heavily on fines
and fees revenue, that many criminal defendant subject
to these fines and fees are indigent, and that collection
rates are only 40% to 50%. Based on these facts, it is clear
the Judges’ motive to maximize fines and fees revenue
is strong enough reasonably to warrant fear of partisan
influence on ability-to-pay determinations. See Alpha
Epsilon, 114 F.3d at 847 (9th Cir. 1997). Thus, plaintiffs
have established that the Judges face a substantial conflict
of interest when they determine ability to pay fines and
fees (or are supposed to do so).
This conflict of interest exists by no fault of the Judges
themselves. It is the unfortunate result of the financing
structure, established by governing law, that forces the
Judges to generate revenue from the criminal defendants
they sentence. Of course, the Judges would not be in
this predicament if the state and city adequately funded
OPCDC. So long as the Judges control and heavily rely on
fines and fees revenue, however, the Judges’ adjudication
of plaintiffs’ ability to pay those fines and fees offends due
process. Thus, plaintiffs are entitled summary judgment
on Count Five to the extent they seek a declaration that the
Judges’ institutional incentives create an impermissible
conflict of interest when they determine, or are supposed
to determine, plaintiffs’ ability to pay fines and fees.
D. 	Plaintiffs Are Not Entitled Summary Judgment
on Count Six
Count Six is an equal protection challenge against
defendants’ debt collection practices. Plaintiffs argue that

91a
Appendix C
these practices are harsher than debt collection measures
available to private creditors.181
Plaintiffs attempt to show discrimination on the
face of the Louisiana statutory framework for contempt
proceedings. See, e.g., Lewis v. Ascension Par. Sch. Bd.,
72 F. Supp. 3d 648, 662-63 (M.D. La. 2014) (distinguishing
explicit classification from discriminatory application of
facially neutral law); see also Doe v. Lower Merion Sch.
Dist., 665 F.3d 524, 543-45 (3d Cir. 2011) (same). Plaintiffs
principally rely on James v. Strange, 407 U.S. 128, 92 S.
Ct. 2027, 32 L. Ed. 2d 600 (1972), where the Supreme Court
addressed a Kansas recoupment statute that allowed the
state to “recover in subsequent civil proceedings counsel
and other legal defense fees expended for the benefit of
indigent defendants.” Id. at 128. The statute excluded
these indigent defendants from “the array of protective
exemptions Kansas has erected for other civil judgment
debtors,” such as “the exemption of his wages from
unrestricted garnishment.” Id. at 135. The Court struck
down the statute as “embod[ying] elements of punitiveness
and discrimination which violate the rights of citizens to
equal treatment under the law.” Id. at 142.
Plaintiffs argue that defendants’ practice of jailing
criminal defendants is similarly discriminatory. They
note that Louisiana has abolished the writ of capias
ad satisfaciendum, which allowed a private creditor to
imprison a debtor until her judgment was satisfied. See
La. Rev. Stat. § 13:4281 (abolishing writ); Capias, Black’s
181. R. Doc. 251-1 at 53.

92a
Appendix C
Law Dictionary (defining capias ad satisfaciendum as “[a]
postjudgment writ commanding the sheriff to imprison the
defendant until the judgment is satisfied”). According to
plaintiffs, a private creditor seeking to enforce a judgment
against a debtor may now seek contempt of court. A debtor
in that situation has various procedural protections under
Louisiana law. For example, the court must issue a rule “to
show cause why [the debtor] should not be adjudged guilty
of contempt”; this rule to show cause must be served on the
debtor at least 48 hours before trial; and if the court finds
the debtor guilty, it must issue “an order reciting the facts
constituting the contempt.” La. Code Civ. Proc. art. 225.
By law, criminal defendants have similar procedural
protections in contempt proceedings: the judge must
issue a rule to show cause; this rule must be served on
the criminal defendant at least 48 hours before trial; and
if the court finds the defendant guilty, it must issue “an
order reciting the facts constituting the contempt.” La.
Code Crim. Proc. art. 24. Thus, the statutory procedures
for contempt proceedings are essentially the same for both
civil and criminal defendants. Unlike in James, there is
no discrimination on the face of these statutes. Plaintiffs
are not entitled summary judgment on Count Six.
IV.	CONCLUSION
For the foregoing reasons, the Court GRANTS
plaintiffs’ motion for summary judgment on Count Five.
The Court GRANTS defendants’ motion for summary
judgment on Counts One, Two, and Four. The parties’
motions are otherwise DENIED. Counts One, Two, and

93a
Appendix C
Four are DISMISSED AS MOOT. Administrator Kazik
is DISMISSED from this case.
New Orleans, Louisiana, this 13th day of December,
2017.
/s/ Sarah S. Vance		
SARAH S. VANCE
UNITED STATES DISTRICT
JUDGE

94a
Appendix
D reasons of the
Appendix D — order
and
united states district court for the
eastern district of louisiana,
filed april 22, 2016
United States District Court
Eastern District of Louisiana
CIVIL ACTION
NO. 15-4479
SECTION: R(2)
ALANA CAIN, et al.,
VERSUS
CITY OF NEW ORLEANS, et al.
April 22, 2016, Decided
April 22, 2016, Filed
ORDER AND REASONS
Named plaintiffs Alana Cain, Ashton Brown, Reynaud
Variste, Reynajia Variste, Thaddeus Long, and Vanessa
Maxwell filed this civil rights action under 42 U.S.C.
§ 1983 seeking to declare the manner in which the Orleans
Parish Criminal District Court collects post-judgment
court costs from indigent debtors unconstitutional.
According to plaintiffs, the Criminal District Court and
other, related actors maintain a policy of jailing criminal
defendants who fail to pay their court costs solely because
of their indigence.1
1. See generally R. Doc. 7 (Plaintiffs’ First Amended Class
Action Complaint).

95a
Appendix D
The “judicial defendants” now move the Court to
dismiss this case for plaintiffs’ alleged failure to join
indispensable parties under Federal Rule of Civil
Procedure 12(b)(7) and 19. 2 Because the Court finds that
the parties defendants assert must be joined are not
required, the Court denies the motion.
I.

BACKGROUND
A. 	Factual Allegations

In this section 1983 civil rights lawsuit, plaintiffs
allege, on behalf of themselves and those similarly
situated, that the City of New Orleans, the Orleans
Parish Criminal District Court, its judges and judicial
administrator, and Orleans Parish Sheriff Marlin Gusman
maintain an unconstitutional scheme of jailing indigent
criminal defendants and imposing excessive bail amounts
for nonpayment “offenses” in an effort to collect unpaid
court courts. According to plaintiffs, the Criminal District
Court maintains an internal “Collections Department,”
informally called the “fines and fees” department, that
oversees the collection of court debts from former criminal
defendants. The “typical” case allegedly proceeds as
follows.

2. R. Doc. 53. The “judicial defendants” are the Orleans
Parish Criminal District Court, its thirteen judges, and the judicial
administrator, Robert Kazik. Originally, plaintiffs also sued the
Criminal District Court clerk, Arthur Morell, but he has been
voluntarily dismissed. R. Doc. 65.

96a
Appendix D
When a person is charged with a crime, the Criminal
District Court judges first determine whether the criminal
defendant is legally “indigent,” meaning they qualify
for appointment of counsel through the Orleans Public
Defenders under Louisiana Revised Statutes § 15:175.
According to plaintiffs, eight-five percent of the criminal
defendants in Orleans Parish are legally indigent. 3 With
assistance of counsel, the defendants either plead guilty
to their criminal charges or proceed to trial. If convicted,
the criminal defendants must appear before a judge at the
Criminal District Court for sentencing.
At sentencing, in addition to imposing a term of
imprisonment or probation, the court may assess against
the criminal defendants various “court costs.” These
costs may include restitution to any victim, a statutory
fine, fees, or other costs imposed at the judge’s discretion.
According to plaintiffs, the discretionary assessments
“fund the District Attorney’s office, the Public Defender,
and the Court[,]” which rely on these collections “to fund
their operations and to pay employee salaries and extra
benefits.”4 Plaintiffs allege that the Criminal District
Court judges impose court costs without inquiring into
the criminal defendants’ ability to pay. 5
If the criminal defendants cannot immediately pay
in full, the Criminal District Court judges direct them to
3. R. Doc. 7 at 5.
4. Id. at 22-23 ¶ 88.
5. Id. at 23 ¶ 91.

97a
Appendix D
the Collections Department, or “fines and fees.” There,
a Collections Department employee imposes, at his
discretion and without inquiring into a defendant’s ability
to pay, a payment schedule—usually requiring a certain
amount per month.6 Collections Department employees
also warn the defendants that failure to pay the monthly
amount, in full, will result in their arrests. Collections
Department employees refuse to accept anything less
than full payment.7
When criminal defendants fail to pay, a Collections
Department employee allegedly issues a pre-printed
warrant for the defendant’s arrest by forging a judge’s
name.8 According to plaintiffs, the Collections Department
often issues these warrants “years after a purported
nonpayment,” and the warrants are “routinely issued in
error” or without regard to a debtor’s indigence. 9
Plaintiffs also allege that each Collections Department
arrest warrant is “accompanied by a preset $20,000
secured money bond required for release.”10 According
to plaintiffs, defendants’ unwavering adherence to this
“automatic $20,000 secured money bond” requirement
results from defendants’ financial interest in state-court
6. Id. at 27-28 ¶103.
7. Id. at 28 ¶ 106.
8. Id. at 29 ¶ 109.
9. Id. at ¶ 110.
10. Id. at ¶ 113.

98a
Appendix D
arrestees’ paying for their release.11 Plaintiffs contend
that the Criminal District Court judges collect 1.8% of
each bond, while the Orleans Parish District Attorney’s
office, the Orleans Public Defenders’ office, and the
Orleans Parish Sheriff each collect 0.4% of each bond.12
W hen cr i m i na l defenda nt s a re a r rest ed for
nonpayment, they are “routinely told” that to be released
from prison, they must pay for the $20,000 secured money
bond, the entirety of their outstanding court debts, or
some other amount “unilaterally determine[d]” by the
Collections Department.13 As a result, these indigent
debtors “languish” in prison “indefinite[ly]” because
they cannot afford to pay any of the foregoing amounts.14
Although “arrestees are eventually brought to court,” the
Sheriff, the Criminal District Court, and the judges “have
no set policy or practice” regarding how long arrestees
must wait for a hearing. According to plaintiffs, indigent
debtors “routinely” spend a week or more in prison.15
Some arrestees, with help from family and friends, pay
for their release without ever having a hearing and thus
have “no opportunity to contest the debt or the jailing.”16

11. Id. at 21-22 ¶88.
12. Id. at 22 ¶88.
13. Id. at 30 ¶114.
14. Id. at ¶115.
15. Id.
16. Id. at ¶114.

99a
Appendix D
When criminal defendants are brought to court, the
Criminal District Court judges allegedly send them back
to prison if they are unable to pay their debts or release
them “on threat of future arrest and incarceration” if they
do not promptly pay the Collections Department.17 At
these brief “failure-to-pay hearings,” the judges allegedly
do not consider the debtors’ abilities to pay.18
Pl a i nt i f fs cont end t hat t he se pr a c t ice s a re
unconstitutional and have created “a local debtors’ prison”
in Orleans Parish.19
B. 	Parties
The named plaintiffs in the First Amended Complaint
are six individuals who were defendants in the Orleans
Parish Criminal District Court—Alana Cain, Ashton
Brown, Reynaud Variste, Reynajia Variste, Thaddeus
Long, and Vanessa Maxwell. 20 The facts pertaining to
the named plaintiffs, as alleged in their complaint, are
as follows.
The Criminal District Court appointed counsel
from the Orleans Public Defenders to represent each of
the named plaintiffs, except Reynaud Variste, during
17. Id. at ¶116.
18. Id.
19. See R. Doc. 7 at 3.
20. R. Doc. 7 at 7 ¶7.

100a
Appendix D
their criminal proceedings. 21 Thus, the court must have
determined that Cain, Brown, Reynajia Variste, Long, and
Maxwell were legally indigent under Louisiana Revised
Statutes §15:175. 22 Reynaud Variste appears to have
retained private counsel. 23
With the assistance of counsel, all of the named
plaintiffs pleaded guilty to their respective criminal
charges, which include theft, 24 battery, 25 drug possession, 26
“simple criminal damage,” 27 and disturbing the peace. 28
At plaintiffs’ sentencings, the presiding judges imposed
terms of imprisonment, which were often suspended, as
21. R. Doc. 59-3 at 1 (Alana Cain Docket Sheet, entry for
12/04/2012) (“Court appointed Alex Liu, OPD.”), 5 (Ashton Brown
Docket Sheet, entry for 10/02/2013) (“Court appointed Seth Wayne,
OPD.”), 9 (Reynajia Variste Docket Sheet, entry for 10/02/2014)
(“Court appointed Lindsey Samuel, OPD.”) 23 (Vanessa Maxwell
Docket Sheet, entry for 12/14/2011) (“Court appointed Jerrod
Thompson-Hicks, OIPD.”); R. Doc.95-7 at 1 (Thaddeus Long Docket
Sheet, entry for 06/02/2011) (“Court appointed Anna Fecker, OIDP).
22. See R. Doc. 7 at 5.
23. R. Doc. 59-3 at 14 (Reynaud Variste Docket Sheet, entry
for 9/25/2012) (“Defendant must retain private counsel.”).
24. Id. at 4 (Alana Cain Guilty Plea), 8 (Ashton Brown Guilty
Plea).
25. Id. at 12 (Reynajia Variste Guilty Plea).
26. Id. at 22 (Reynaud Variste Guilty Plea).
27. Id. at 28 (Vanessa Maxwell Guilty Plea).
28. R. Doc. 95-7 at 5 (Thaddeus Long Guilty Plea).

101a
Appendix D
well as terms of active or inactive probation. In addition,
the judges assessed against plaintiffs various court
costs—whether restitution, fines, and/or discretionary
fees and costs. 29 At some point, all of the named plaintiffs
were arrested for failing to pay outstanding court costs.
For example, plaintiffs allege that on one occasion,
Alana Cain explained to a Collections Department
supervisor that she could not satisfy the full amount of her
expected monthly payment. The Collections Department
supervisor warned Cain that if she could not afford
her monthly payment, he would issue a warrant for her
arrest. 30 In March 2015, Cain was arrested for failing to
pay her court debts. 31 Jail staff told Cain that her bail
was set at “a $20,000 secured bond pursuant to standard
policy” and that “there was no way to find out when her
court date would be.”32 When Cain eventually attended
a hearing, the presiding judge told her that “if she ever
missed a payment again, she would have to spend 90 days
in jail.”33 The judge did not inquire into Cain’s ability to
29. R. Doc. 59-3 at 2 (Alana Cain Docket Sheet, entry for
5/30/2013), 6 (Ashton Brown Docket Sheet, entry for 12/16/2013), 9
(Reynajia Variste Docket Sheet, entry for 10/21/2014), 18 (Reynaud
Variste Docket Sheet, entry for 10/31/2013), 23 (Vanessa Maxwell
Docket Sheet, entry for 3/06/2012); R. Doc. 95-7 at 1 (Thaddeus Long
Docket Sheet, entry for 7/29/2011).
30. R. Doc. 7 at 10 ¶ 18.
31. Id. at ¶¶20-22.
32. Id. at 10-11 ¶¶22-23.
33. Id. at 11 ¶27.

102a
Appendix D
meet the monthly payments imposed by the Collections
Department.
According to plaintiffs, in July and August 2015,
Ashton Brown spent twenty-nine days in prison solely
because of unpaid debts stemming from a 2013 conviction.34
When Brown finally received a hearing on the issue of
his nonpayment, the presiding judge refused to release
Brown, “unless he paid at least $100.”35 Because Brown
could not afford to pay, the judge set another hearing
for several days later and warned Brown “that he would
be kept in jail unless he got a family member to pay.”36
Eventually, Brown’s family “scrape[d] together $100,” and
Brown was released. 37 Collections Department employees
have since threatened arrest and jail time if Brown does
not continue making monthly payments. 38
Rey naud Va r iste was allegedly a r rested for
nonpayment in January 2015 when police “stormed
[Variste’s] home with assault rifles and military gear.” 39
These officers told Variste “not to worry . . . because he
simply owed some old court costs.”40 In prison, jail staff
34. Id. at 12-13 ¶¶ 33-38.
35. Id. at 13 ¶ 38.
36. Id.
37. Id. at 14 ¶40.
38. Id.
39. Id. at ¶41.
40. Id. at ¶42.

103a
Appendix D
allegedly told Variste that they “had no idea when or
whether [he] would be taken to court.”41 A bail bondsman
told Variste that “he would probably not be released
. . . until he paid his entire court debts, which would be
cheaper than paying the $20,000 money bond” imposed
upon him. 42 Eventually, Variste’s girlfriend paid “the
entire debt amount.” Variste was released from prison
without a hearing.43
Reynajia Variste was arrested in May 2015 for failing
to pay her court costs. Jail staff allegedly told Variste
that she could pay her outstanding court debts or post the
“standard $20,000 money bond” to be released.44 While
Variste was still in jail, a Collections Department employee
told a member of Variste’s family that Variste had to
pay “at least $400 before [the Collections Department]
would agree to let [Variste] out of jail.”45 The Collections
Department allegedly arrived at this amount because
it was “close to half of what [Variste] owed in total.”46
Variste spent at least seven days in prison and was never
given a hearing before her family gathered enough money
“to buy her release.”47 According to the First Amended
41. Id. at 15 ¶47.
42. Id.
43. Id. at ¶48.
44. Id. at 16 ¶55.
45. Id. at 17 ¶57.
46. Id.
47. Id. at ¶60.

104a
Appendix D
Complaint, the Collections Department continues to
threaten Reynajia Variste with prison time if she cannot
make her monthly payments.48
Plaintiffs contend that Thaddeus Long was wrongly
arrested for failing to pay his court costs because Long
paid his debts in full years before. According to the
First Amended Complaint, Long was convicted in 2011
and finished paying his court costs in October 2013. 49
In June 2015, a New Orleans police officer, conducting
a traffic stop, discovered an outstanding warrant for
Long’s supposed nonpayment. 50 The officer arrested
Long, and Long spent six days in prison, unable to post
“the standard $20,000 secured money bond” before he
was given a hearing. At the failure-to-pay hearing, Long
explained that he had already paid his court debts in full,
a “mistake . . . apparent from the court records,” and he
was released immediately. 51
Vanessa Maxwell allegedly spent twelve days in
prison after her arrest for nonpayment before being
brought to court. 52 According to plaintiffs, the presiding
judge did not evaluate Maxwell’s present ability to pay,
but nonetheless made her release from prison contingent
48. Id. at ¶ 64.
49. Id. at 18 ¶67.
50. Id.
51. Id. at ¶69.
52. Id. at 20 ¶83.

105a
Appendix D
on Maxwell’s paying $191 “within a week.”53 Plaintiffs
contend that Maxwell was never able to come up with
the money, and Maxwell is now “in imminent danger of
arrest . . . pursuant to monetary conditions that she cannot
[meet].”54
Plaintiffs now sue the City of New Orleans for hiring
the Criminal District Court’s Collection Department
workers, as well as the police officers who execute the
allegedly invalid arrest warrants. 55 Plaintiffs also sue
Sheriff Marlin Gusman, in his official capacity, for
“unconstitutionally detain[ing] impoverished people
indefinitely because of their inability to . . . pay[] for
their release.”56 In addition, plaintiffs sue the Orleans
Parish Criminal District Court for its role in managing
and funding the Collections Department, and the court’s
Judicial Administrator, Robert Kazik, in his individual
and official capacities, because he is allegedly responsible
for operating the Collections Department. 57 Finally,
plaintiffs name as defendants every judge at the Criminal
District Court—thirteen in all—because they allegedly
supervise the Collections Department employees and
have failed to provide the parish’s criminal defendants
with constitutionally-required process before imprisoning
53. Id.
54. Id. at ¶84.
55. Id. at 7 ¶8.
56. Id. at 8 ¶12.
57. Id. at 7-8 ¶¶9-10.

106a
Appendix D
people for failure to pay court costs. Plaintiffs sue the
judges only for declaratory relief. 58
C. 	Plaintiffs’ Claims for Relief
Plaintiffs filed this civil rights action under 42 U.S.C.
§ 1983, alleging violations of their Fourth and Fourteenth
Amendment rights, as well as violations of Louisiana tort
law. Plaintiffs seek damages (including attorneys’ fees)
and an injunction against all defendants, except the judges.
Plaintiffs also seek a declaratory judgment regarding the
constitutionality of defendants’ practices. 59
The Court summarizes plaintiffs’ claims as follows:
(1) 	Defendants’ policy of issuing and executing
arrest warrants for nonpayment of court costs is
unconstitutional under the Fourth Amendment
and the Due Process Clause of the Fourteenth
Amendment;
(2) Defendants’ policy of requiring a $20,000 “fixed
secured money bond” for each Collections
Department warrant (issued for nonpayment of
court costs) is unconstitutional under the Due
58. Id. at 8 ¶13.
59. Only Cain, Brown, Reynajia Variste, and Maxwell’s claims
for equitable relief remain. In an order addressing an earlier motion
to dismiss, the Court found that Reynaud Variste and Thaddeus Long
lacked standing to pursue prospective equitable relief and dismissed
those claims. R. Doc. 109 at 19-21.

107a
Appendix D
Process Clause and the Equal Protection Clause
of the Fourteenth Amendment;
(3) Defendants’ policy of indefinitely jailing indigent
debtors for nonpayment of court costs without a
judicial hearing is unconstitutional under the Due
Process Clause of the Fourteenth Amendment;
(4) 	Defendants’ “scheme of money bonds” to fund
certain judicial actors is unconstitutional under
the Due Process Clause of the Fourteenth
Amendment. To the extent defendants argue
this scheme is in compliance with Louisiana
Revised Statutes §§ 13:1381.5 and 22:822, which
govern the percentage of each surety bond that
the judicial actors receive, those statutes are
unconstitutional;
(5) 	Defendants’ policy of jailing indigent debtors for
nonpayment of court costs without any inquiry
into their ability to pay is unconstitutional under
the Due Process Clause and the Equal Protection
Clause of the Fourteenth Amendment;
(6) 	Defendants’ policy of jailing and threatening to
imprison criminal defendants for nonpayment of
court debts is unconstitutional under the Equal
Protection Clause of the Fourteenth Amendment
because it imposes unduly harsh and punitive
restrictions on debtors whose creditor is the
State, as compared to debtors who owe money
to private creditors;

108a
Appendix D
(7) 	Defendants’ conduct constitutes wrongful arrest
under Louisiana law; and
(8) 	Defendants’ conduct constitutes w rongful
imprisonment under Louisiana law.
Importantly, plaintiffs do not ask the Court to
declare that defendants’ practice of imposing court costs,
discretionary or not, is unconstitutional.
D. 	The Judicial Defendants’ Motion to Dismiss
The Orleans Parish Criminal District Court, the
thirteen judges, and the judicial administrator now
move to dismiss plaintiffs’ suit for plaintiffs’ alleged
failure to join required parties under Federal Rule of
Civil Procedure 12(b)(7) and 19. Defendants argue that
the “Indigent Transcript Fund,” the Orleans Public
Defenders office, the Orleans Parish District Attorney, the
“[Louisiana Commission on Law Enforcement] Training
and Assistance Fund,” the “Crime Victims Reparation
Fund,” the Louisiana Supreme Court, “Crime Stoppers,”
the “Coroner’s Operational Fund,” and the “Drug Abuse
Education and Treatment Fund” are all required parties
because Louisiana law empowers Criminal District
Court judges to impose varying amounts of “courts
cost” on criminal defendants to fund the operations of
these entities. According to defendants, any ruling by
this Court regarding the constitutionality of defendants’
“assessing and collecting these costs will have direct
. . . and potentially catastrophic impacts” on these absent

109a
Appendix D
parties.60 Defendants also argue that a ruling in plaintiffs’
favor by this Court may conflict with an existing state
writ of mandamus that requires defendants to assess
the Indigent Defender Fund fee mandated by Louisiana
Revised Statute §15:168.61 See Louisiana Public Defender
Board v. Parker, No. 597627 (19th Judicial District Court,
Parish of Jefferson, Mar. 4, 2011).
In opposition to the motion to dismiss, plaintiffs
argue that defendants misunderstand the relief plaintiffs
seek. To start, plaintiffs reiterate that they do not
challenge the validity of the court costs imposed upon
them by defendants. Plaintiffs do not seek to eliminate
the Criminal District Court judges’ ability to impose
court costs, as permitted by Louisiana law. Plaintiffs’
constitutional challenges lie with defendants’ means of
collecting validly-imposed court costs—specifically, with
defendants’ alleged jailing of indigent debtors without
a meaningful inquiry into the debtors’ ability to pay.
Plaintiffs therefore contend that the entities defendants
argue must be joined are unnecessary and not required
to resolve this litigation.
II. 	LEGAL STANDARD
Federal Rules of Civil Procedure 12(b)(7) permits a
party to bring a motion to dismiss a complaint for failure
to join a required party under Rule 19. See Fed. R. Civ.
P. 12(b)(7). Proper joinder under Rule 19 is a two-step
60. R. Doc. 53-1 at 2.
61. Id.

110a
Appendix D
process. First, the court must decide if the absent party
is required to fairly and completely resolve the dispute.
See Fed. R. Civ. P. 19(a); Sch. Bd. of Avoyelles Par. V. U.S.
Dep’t of Interior, 647 F.3d 570, 578 (5th Cir. 2011); Dore
Energy Corp. v. Prospective Inv. & Trading Co. Ltd.,
570 F.3d 219, 230-31 (5th Cir. 2009). Second, if the absent
party is required, but joinder is not feasible, the court
must decide whether the absent party is “indispensable”
to the action under Rule 19(b). See Fed. R. Civ. P. 19(b);
Sch. Bd. of Avoyelles Par., 647 F.3d at 578.
Under Rule 19(a)(1), a party is “required” if:
(A) in that person’s absence, the court cannot
accord complete relief among existing parties;
or
(b) that person claims an interest relating to
the subject of the action and is so situated that
disposing of the action in the person’s absence
may:
(i) as a practical matter impair or
impede the person’s ability to protect
the interest; or
(ii) leave an existing party subject to
a substantial risk of incurring double,
multiple, or otherwise inconsistent
obligations because of the interest.
Fed. R. Civ. P. 19(a).

111a
Appendix D
If a required party cannot be joined in the action
because its joinder would defeat the court’s diversity
jurisdiction, the court must determine “whether, in equity
and good conscience, the action should proceed among
the existing parties or should be dismissed.” Fed. R. Civ.
P. 19(b). In making this determination, the court may
consider:
(1) the extent to which a judgment rendered
in the person’s absence might prejudice that
person or the existing parties;
(2) the extent to which any prejudice could be
lessened or avoided by:
(A) protective prov isions in the
judgment;
(B) shaping the relief; or
(C) other measures;
(3) whether a judgment rendered in the person’s
absence would be adequate; and
(4) whether the plaintiff would have an adequate
remedy if the action were dismissed for
nonjoinder.
Fed. R. Civ. P. 19(b).

112a
Appendix D
State law is relevant “in determining what interest the
outsider actually has, but the ultimate question whether,
given those state-defined interests, a federal court
may proceed without the outsider is a federal matter.”
Morrison v. New Orleans Pub. Serv. Inc., 415 F.2d 419,
423 (5th Cir. 1969) (citing Provident Tradesmens Bank
& Trust Co. v. Patterson, 390 U.S. 102, 125 n. 22, 88 S.Ct.
733, 746 n. 22, 19 L. Ed. 2d 936 (1968)).
III.	DISCUSSION
The Court begins by clarifying the relief plaintiffs seek
in their First Amended Complaint. Although defendants
characterize plaintiffs’ complaint as a broad attack on the
“constitutional permissibility of assessing and collecting”
court costs imposed on state-court criminal defendants,62
this characterization is incorrect for two reasons. First,
plaintiffs do not complain about defendants’ imposing or
assessing court costs as valid terms of the sentences of
state-court criminal defendants. Indeed, as defendants
note, the Louisiana Supreme Court has recently held that
state trial courts maintain discretion to impose a “broad
category of costs” under Louisiana law. See generally
State v. Griffin, 180 So. 3d 1262, 1268 (La. 2015). Moreover,
the imposition of some costs, such as the “special costs to
the district indigent defender fund,” are not discretionary;
a Louisiana trial court has no choice but to impose these
costs on a criminal defendant who has been convicted.
See generally La. Rev. Stat. § 15:168 (“Every court of
original criminal jurisdiction . . . shall remit the following
62. R. Doc. 53-1 at 2.

113a
Appendix D
special costs . . .” (emphasis added)). Second, plaintiffs do
not complain about defendants’ generally collecting court
costs, assuming those collection efforts are carried out in
a manner consistent with constitutional principles.
A review of the First Amended Complaint reveals that
plaintiffs challenge only the manner in which defendants
allegedly collect outstanding court costs from indigent
criminal defendants who have failed to pay. Specifically,
plaintiffs take issue with the following alleged policies:
defendants’ failing to inquire into a criminal defendant’s
reasons for failing to pay court costs before issuing and
executing arrest warrants for nonpayment by indigent
debtors (Counts One, Five, Six, Seven, and Eight);
defendants’ requiring a $20,000 “secured money bond,”
allegedly motivated by their financial interests, to release
indigent debtors from prison (Counts Two and Four); and
defendants’ detaining indigent debtors without a prompt
judicial appearance after their arrests (Count Three).
Having properly framed plaintiffs’ allegations, the Court
finds that none of the absent parties defendants argue
must be joined is a required party under Rule 19.
Despite the absence of the third party entities that
defendants propose must be joined, the Court can accord
complete relief among the existing litigants. In making
this determination, the Court looks to the relief prayed
for by the claimant. See In re Chinese Manufactured
Drywall Prods. Liab. Litig., 273 F.R.D. 380, 385-86
(E.D. La. 2011); Plains Expl. & Prod. Co. v. 4-C’s Land
Corp., No. 10-702, 2010 U.S. Dist. LEXIS 97043, 2010 WL
3430516, at *3 (E.D. La. Aug. 20, 2010). The Court “does

114a
Appendix D
not consider the effect that a judgment may have on absent
parties when evaluating ‘complete relief.’” VFS US LLC
v. Vaczilla Trucking, LLC, No. 15-2226, 2015 U.S. Dist.
LEXIS 154560, 2015 WL 7281619, at *14 (E.D. La. Nov.
16, 2015) (citing United States v. Rutherford Oil Corp.,
No. G-08-0231, 2009 U.S. Dist. LEXIS 40233, 2009 WL
1351794, at *2 (S.D. Tex. May 13, 2009)).
As noted, plaintiffs request the Court to declare
unconstitutional defendants’ policies of incarcerating
indigent debtors for nonpayment, automatically requiring
from them a “$20,000 secured money bond,” and detaining
them without a prompt judicial appearance. In seeking
this relief, plaintiffs have sued the state actors who
are allegedly responsible for the specific conduct at
issue. There are no allegations (from either plaintiffs or
defendants) that the Orleans Parish Coroner or whoever
administers Louisiana’s Drug Abuse Education and
Treatment Fund, for example, participates in the decisions
to arrest indigent debtors for nonpayment. The same is
true for defendants’ allegedly requiring a “$20,000 secured
money bond” and detaining arrestees without a prompt
judicial appearance—these third party entities are not
involved. Because none of the third parties participates in
the conduct complained of, their presence in this litigation
is unnecessary for the Court to “accord complete relief”
if plaintiffs ultimately prevail on their claims. See Haas
v. Jefferson Nat’l Bank of Miami Beach, 442 F.2d 394,
398 (5th Cir. 1971) (finding absent person to be a required
party under Rule 19(a) because “his presence is critical to
the disposition of the important issues in the litigation”).

115a
Appendix D
The Court next addresses whether any of these third
parties “claim[] an interest relating to the subject of the
action.” See Fed. R. Civ. P. 19(a)(1). The “interest relating
to the subject of the action” must be a legally protected
one. E.g., United States v. San Juan Bay Marina, 239
F.3d 400, 406 (1st Cir. 2001) (“A party is necessary under
Rule 19(a) only if they claim a ‘legally protected interest’
relating to the subject matter of the action.”); see also
Escamilla v. M2 Tech., Inc., 536 F. App’x 417, 421 (5th
Cir. 2013) (noting that the licensor of a trademark is
usually a required party because “the licensor has a
legally protected interest in the subject matter of the
action”). “Rule 19 does not contemplate joinder of any
party who might possibly be affected by a judgment in
any way.” Shelton v. Exxon Corp., 843 F.2d 212, 218 (5th
Cir. 1998). Several district courts in the Fifth Circuit hold
that an absent party’s failure to “seek joinder on its own
is indicative of its lack of interest in the subject matter of
the suit.” Woodard v. Woodard Villa, Inc., No. 15-1777,
2016 U.S. Dist. LEXIS 44777, 2016 WL 1298995, at *4
(W.D. La. Mar. 31, 2016) (collecting cases); see also Colbert
v. First NBC Bank, No. 13-3043, 2014 U.S. Dist. LEXIS
43596, 2014 WL 1329834, at *3 (E.D. La. Mar. 31, 2014)
(“[T]o be a required party under Rule 19(a)(1)(B) because
of an interest in the subject matter of the action, the party
must assert its own interest.”).
Here, none of the absent parties has moved to
intervene or otherwise attempted to participate in this
litigation. Defendants merely argue on behalf of the
absent parties that any potential ruling on the merits in
this case will have “potentially catastrophic impacts on

116a
Appendix D
the criminal justice operations of entities not before the
Court.”63 Defendants’ dire prediction, lacking any concrete
support, is insufficient to show that these absent parties
are necessary to resolve plaintiffs’ claims.
Regardless, defendants’ only argument that the
absent parties are interested in the subject matter of this
litigation rests on the erroneous assertion that plaintiffs
challenge defendants’ imposition of court costs. 6 4
Any potential ruling regarding the manner in which
defendants collect court costs will not, “as a practical
matter[,] impair or impede” the absent parties’ entitlement
to receive court costs under Louisiana law. See Fed. R.
Civ. P. 19(a)(1)(B)(i). Any argument that defendants will
collect less money overall, and thus financially impact the
absent parties, unless they continue current—allegedly
unconstitutional—practices is theoretical at best. “[T]he
mere theoretical possibility of prejudice does not require
joinder.” Colbert, 2014 U.S. Dist. LEXIS 43596, 2014 WL
1329834, at *4 (quoting Cortez v. County of L.A., 96 F.R.D.
427, 430 (C.D. Cal. 1983)).
Further, this proceeding is unlikely to subject
defendants to “multiple or other wise inconsistent
obligations,” as they contend. See Fed. R. Civ. P. 19(a)
63. R. Doc. 53-1 at 2.
64. Defendants do not argue—and the Court cannot discern
any legitimate reason why—the absent parties have any interest in
the subject matter of plaintiffs’ other allegations, i.e., determining
the appropriate amount of bail for nonpayment offenses or how long
arrestees wait for a judicial hearing.

117a
Appendix D
(1)(B)(ii). Defendants argue that the Criminal District
Court judges are currently subject to state-court writ
of mandamus requiring them to assess a “special cost[]”
benefitting the Orleans Parish indigent defender fund
in every case in which a state-court criminal defendant
is convicted. See Louisiana Public Defender Board v.
Parker, No. 597627 (19th Judicial District Court, Parish
of Jefferson, Mar. 4, 2011). Again, because plaintiffs do not
challenge the validity of the costs, any relief, if ultimately
granted, will not invalidate the imposition of court costs.
Cf. Shelton v. Exxon Corp., 843 F.2d 212, 218 (5th Cir.
1988) (“It is the threat of inconsistent obligations, not the
possibility of multiple litigation or a subjective preference
for state court, that determines Rule 19 considerations.”);
EEOC v. Brown & Root, Inc., 688 F.2d 338, 342 (5th
Cir.1982) (finding insufficient under Rule 19(a) a party’s
claim “that it will somehow be left facing inconsistent
obligations,” which was “groundless”); U.S. ex rel. Branch
Consultants, LLC v. Allstate Ins. Co., 265 F.R.D. 266,
272 (E.D. La. Feb. 12, 2010). (“[T]he key is whether the
possibility of being subject to multiple obligations is real;
an unsubstantiated or speculative risk will not satisfy the
Rule 19(a) criteria.”).65
65. The only case defendants cite in support of their arguments
that the proposed third parties must be joined is Schutten v. Shell
Oil Co., 421 F.2d 869 (5th Cir. 1970). Schutten involved an ownership
dispute over immovable property and its attendant mineral rights.
The plaintiffs sought to evict the defendant, Shell Oil Company. Id.
at 870. Shell was the lessee of a mineral contract with the Orleans
Parish Levee Board, who also claimed ownership of the property
at issue. Id. at 870-71. The Fifth Circuit held that the Levee Board
was a required party because any resolution in favor of the plaintiffs
against Shell affected the Levee Board “would most assuredly

118a
Appendix D
Because joinder of the absent parties is not required
under Rule 19(a), further analysis under Rule 19(b) is
unnecessary.
IV.	CONCLUSION
For the foregoing reasons, the Court DENIES
defendants’ motion to dismiss for failure to join
indispensable parties.
New Orleans, Louisiana, this 22nd day of April, 2016.
/s/ Sarah S. Vance		
SARAH S. VANCE
UNITED STATES DISTRICT
JUDGE

create a cloud on the Levee Board’s title and greatly diminish the
value of the property.” Id. at 874. For the reasons already explained,
the facts of Schutten, a property dispute among multiple parties—
each of which asserted a direct, tangible ownership interest in the
property—do not bolster defendants’ arguments here.

119a
Appendixof
E rehearing of
Appendix e — denial
the united states court of appeals
for the fifth circuit, filed
september 30, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-30955
ALANA CAIN; ASHTON BROWN; REYNAUD
VARISTE; REYNAJIA VARISTE; THADDEUS
LONG; VANESSA MAXWELL,
Plaintiffs-Appellees,
v.
LAURIE A. WHITE, JUDGE SECTION A OF
THE ORLEANS PARISH CRIMINAL DISTRICT
COURT; TRACEY FLEMINGS-DAVILLIER,
JUDGE SECTION B OF THE ORLEANS PARISH
CRIMINAL DISTRICT COURT; BENEDICT
WILLARD, JUDGE SECTION C OF THE ORLEANS
PARISH CRIMINAL DISTRICT COURT; KEVA
LANDRUM-JOHNSON, JUDGE SECTION E OF
THE ORLEANS PARISH CRIMINAL DISTRICT
COURT; ROBIN PITTMAN, JUDGE SECTION
F OF THE ORLEANS PARISH CRIMINAL
DISTRICT COURT; BYRON C. WILLIAMS,
JUDGE SECTION G OF THE ORLEANS PARISH
CRIMINAL DISTRICT COURT; CAMILLE
BURAS, JUDGE SECTION H OF THE ORLEANS
PARISH CRIMINAL DISTRICT COURT; KAREN

120a
Appendix E
K. HERMAN, JUDGE SECTION I OF THE
ORLEANS PARISH CRIMINAL DISTRICT COURT;
DARRYL DERBIGNY, JUDGE SECTION J OF THE
ORLEANS PARISH CRIMINAL DISTRICT COURT;
ARTHUR HUNTER, JUDGE SECTION K OF THE
ORLEANS PARISH CRIMINAL DISTRICT COURT;
FRANZ ZIBILICH, JUDGE SECTION L OF THE
ORLEANS PARISH CRIMINAL DISTRICT COURT;
HARRY E. CANTRELL, MAGISTRATE JUDGE
OF THE ORLEANS PARISH CRIMINAL
DISTRICT COURT,
Defendants-Appellants.
Appeal from the United States District Court
for the Eastern District of Louisiana
ON PETITION FOR REHEARING AND
REHEARING EN BANC
(Opinion 08/23/2019, 5 Cir., ___, ___ F.3d ___)
Before Circuit Judges.
PER CURIAM:
(x) The Petition for Rehearing is DENIED and no
member of this panel nor judge in regular active
service on the court having requested that the court
be polled on Rehearing En Banc, (Fed. R. A pp. P. and
5th Cir. R. 35) the Petition for Rehearing En Banc is
also DENIED.

121a
Appendix E
( ) The Petition for Rehearing is DENIED and the
court having been polled at the request of one of the
members of the court and a majority of the judges
who are in regular active service and not disqualified
not having voted in favor, (Fed. R. A pp. P. and 5th Cir.
R. 35) the Petition for Rehearing En Banc is also
DENIED.
( ) A member of the court in active service having
requested a poll on the reconsideration of this cause en
banc, and a majority of the judges in active service and
not disqualified not having voted in favor, Rehearing
En Banc is DENIED.
ENTERED FOR THE COURT:
/s/				
JAMES E. GRAVES, JR.
U N I T ED S TAT E S CI RCU I T
JUDGE

122a
Appendix F — Appendix
opinionFof the united
states court of appeals for the fifth
circuit, filed august 29, 2019
IN THE United States Court of Appeals
for the Fifth Circuit
August 29, 2019, Filed
No. 18-30954
ADRIAN CALISTE, individually and
on behalf of all others similarly
situated; BRIAN GISCLAIR, individually
and on behalf of all others
similarly situated,
Plaintiffs - Appellees
v.
HARRY E. CANTRELL, Magistrate Judge of
Orleans Parish Criminal District Court,
Defendant - Appellant
Appeal from the United States District Court
for the Eastern District of Louisiana.
Before HIGGINBOTHAM, JONES, and COSTA, Circuit
Judges.
GREGG COSTA, Circuit Judge:

123a
Appendix F
“No man can be judge in his own case.” Edward Coke,
Institutes of The Laws of England, § 212, 141 (1628).
That centuries-old maxim comes from Lord Coke’s ruling
that a judge could not be paid with the fines he imposed.
Dr. Bonham’s Case, 8 Co. Rep. 107a, 118a, 77 Eng. Rep.
638, 652 (C.P. 1610). Almost a century ago, the Supreme
Court recognized that principle as part of the due process
requirement of an impartial tribunal. Tumey v. Ohio, 273
U.S. 510, 523, 47 S. Ct. 437, 71 L. Ed. 749, 5 Ohio Law Abs.
159, 5 Ohio Law Abs. 185, 25 Ohio L. Rep. 236 (1927).
This case does not involve a judge who receives money
based on the decisions he makes. But the magistrate
in the Orleans Parish Criminal District Court receives
something almost as important: funding for various
judicial expenses, most notably money to help pay for
court reporters, judicial secretaries, and law clerks. What
does this court funding depend on? The bail decisions the
magistrate makes that determine whether a defendant
obtains pretrial release. When a defendant has to buy
a commercial surety bond, a portion of the bond’s value
goes to a fund for judges’ expenses. So the more often
the magistrate requires a secured money bond as a
condition of release, the more money the court has to
cover expenses. And the magistrate is a member of the
committee that allocates those funds.
Arrestees argue that the magistrate’s dual role—
generator and administrator of court fees—creates a
conflict of interest when the judge sets their bail. We
decide whether this dual role violates due process.

124a
Appendix F
I.
Judge Henry Cantrell is the magistrate for the
Orleans Parish Criminal District Court. He presides over
the initial appearances of all defendants in the parish,
which encompasses New Orleans. At those hearings, there
are typically 100-150 a week, Judge Cantrell appoints
counsel for indigent defendants and sets conditions of
pretrial release. One option for ensuring a defendant’s
appearance is requiring a secured money bond. Just about
every defendant who meets that financial condition does
so by purchasing a bond from a commercial surety, as
that requires paying only a fraction of the bond amount.
When a defendant buys a commercial bail bond, the
Criminal District Court makes money. Under Louisiana
law, 1.8% of a commercial surety bond’s value is deposited
in the court’s Judicial Expense Fund.1 See L a . R.S.
§§ 22:822(A)(2), (B)(3), 13:1381.5(B)(2)(a). That fund does
not pay judges’ salaries, but it pays salaries of staff,
including secretaries, law clerks, and court reporters. It
also pays for office supplies, travel, and other costs. The
covered expenses are substantial, totaling more than a
quarter million dollars per judge in recent years. The bond
fees are a major funding source for the Judicial Expense
Fund, contributing between 20-25% of the amount spent in

1. Other government offices also benefit. The Sherriff’s Office,
District Attorney’s Office, and Office of the Indigent Defender
each receive 0.4% of the bond. See La . R.S. §§ 22:822(A)(2), (B)(3),
13:1381.5(B)(2)(b-d).

125a
Appendix F
recent years. 2 All 13 judges of the district court, including
Judge Cantrell, administer the fund.
Judge Cantrell requires a secured money bond for
about half of the arrestees. So it was not unusual when he
imposed that condition for both Adrian Caliste and Brian
Gisclair when they appeared before him on misdemeanor
arrests. Nor was it uncommon when Judge Cantrell did
not make findings about their ability to pay or determine
if nonfinancial conditions could secure their appearance.
It took over two weeks for Caliste to come up with the
money to buy a bail bond, which cost about 12-13% of the
$5,000 amount the court set (Caliste had two charges and
bail was set at $2,500 per offense). Gisclair was never able
to come up with the money and stayed in jail for over a
month before being released.
While they were in custody, Caliste and Gisclair filed
this federal civil rights lawsuit against Judge Cantrell.
They sued on their own behalf and to represent a class of
all arrestees “who are now before or who will come before”
Judge Cantrell for pretrial release determinations and
2. In another case, plaintiffs argued that a separate conflict of
interest existed because of the court fees and fines that also help fund
the Judicial Expense Fund. That case was brought against all the
judges of the Orleans Criminal District Court, contending that their
“administrative supervision over [the Fund], while simultaneously
overseeing the collection of fines and fees making up a substantial
portion of [the Fund], crosses the constitutional line.” Cain v. White,
937 F.3d 446, 2019 U.S. App. LEXIS 25437, 2019 WL 3982560 (2019).
A different panel of this court recently held that this arrangement
for fees and fines violated due process. See id.

126a
Appendix F
who cannot afford the financial conditions imposed. 3 See
Fed. R. Civ. P. 23(b)(2).
The lawsuit challenges two aspects of Judge Cantrell’s
bail practices. First, the complaint alleges that he was
violating the Due Process and Equal Protection Clauses
by setting bond without inquiring into an arrestee’s
ability to pay or considering the adequacy of nonfinancial
conditions of release. This, Plaintiffs contend, results
in keeping people in jail only because of their inability
to make a payment. The second allegation relates to
Cantrell’s “dual role as a judge determining conditions of
pretrial release and as an executive in charge of managing
the Court’s finances.” To plaintiffs, the financial incentive
to require secured money bonds is a conflict of interest
that deprives arrestees of their due process right to an
impartial tribunal. For both claims, the plaintiffs sought
only declaratory relief.
This appeal concerns only the conflict-of-interest
claim. A year after the case was filed, Judge Cantrell told
the district court that he had altered his bail practices to
consider ability to pay and argued that this change mooted
the first claim. The district court disagreed and granted a
declaratory judgment on both claims. But Judge Cantrell
appeals only the determination that his setting the bonds
that help fund his court violates due process.

3. Although the named plaintiffs’ state criminal cases are over,
class certification means the case is not moot. Cty. of Riverside v.
McLaughlin, 500 U.S. 44, 51, 111 S. Ct. 1661, 114 L. Ed. 2d 49 (1991).

127a
Appendix F
II.
Unlike some of its legal ancestors, English common
law assumed that judges could maintain impartiality in
the face of most connections to a case. See John P. Frank,
Disqualification of Judges, 56 Yale L.J. 605, 609 (1947).
It did not follow the path of Roman or Jewish law, both of
which disqualified judges for a variety of reasons. See The
Code of Justinian 3.1.14 (S.P. Scott trans., 1932) (allowing
litigants to “reject judges appointed to hear a case . . .
[e]ven when the judge was appointed by the Emperor, for
the reason that We have set our hearts upon all suits being
conducted without any suspicion of unfairness”); The Code
of M aimonides, Book Fourteen: The Book of Judges, ch.
23, at 68-69 (Abraham M. Hershman, trans., Yale Univ.
Press 1949) (requiring disqualification even when a party
performed minor tasks for the judge such as removing a
bird’s feather from the judge’s mantle or helping the judge
get out of a boat when it reached shore). Though medieval
England had those who suggested it should likewise
recognize bias as a basis for recusal,4 by Blackstone’s day
the country had charted a different course:
[J]udges or justices cannot be challenged.
For the law will not suppose a possibility
of bias or favour in a judge, who is already
sworn to administer impartial justice, and
whose authority greatly depends upon that
presumption and idea.
4. Thirteenth-century legal commentator Henry de Bracton
argued that “[a] justiciary may be refused for good cause.” See 6
Henry de Bracton, De Legibus et Consuetudinibus A ngliae 248-49
(Travers Twiss, trans., 1883).

128a
Appendix F
3 William Blackstone, Commentaries on the Laws of
England 361 (1768). Trust in the impartiality of judges
was carried to extremes. Judges could even hear cases
involving close family members. See Brookes v. Earl
of Rivers, Hardres 503, 145 Eng. Rep. 569 (Ex. 1668)
(allowing a judge to hear a case involving his brother-inlaw).
But the common law view that judges were incorruptible
had a notable exception—when judges might benefit
financially. See Tumey v. Ohio, 273 U.S. 510, 525, 47 S. Ct.
437, 71 L. Ed. 749, 5 Ohio Law Abs. 159, 5 Ohio Law Abs.
185, 25 Ohio L. Rep. 236 (1927) (“There was at the common
law the greatest sensitiveness over the existence of any
pecuniary interest however small or infinitesimal in the
justice of the peace.”). Lord Coke’s famous line reflected
that view, as did his ruling that a judge could not issue
a judgment while also taking a portion of the fine to pay
his salary. Dr. Bonham’s Case, 8 Co. Rep. 107a, 118a, 77
Eng. Rep. 638, 652 (C.P. 1610). Similarly, a judge could
not rule on an ejectment proceeding when he was the
landlord. See, e.g., Anonymous, 1 Salkeld 396, 91 Eng.
Rep. 343 (K.B. 1698); see also Earl of Derby’s Case, 12 Co.
Rep. 114, 77 Eng. Rep. 1390 (K.B. 1614). There was even
concern that a judge’s role as a citizen and a taxpayer in
a town might be disqualifying, see Between the Parishes
of Great Charte and Kennington, 2 Strange 1173, 93 Eng.
Rep. 1107, 1107-08 (K.B. 1726) (quashing order of removal
of pauper made by two justices of the peace because one
“was an inhabitant of the parish from whence the pauper
was removed”), until Parliament passed a law rejecting
that notion in an early example of the “rule of necessity”

129a
Appendix F
that still applies to judicial recusal, see Frank, supra,
at 610-11. The common law thus distinguished between
“bias,” which did not disqualify the judge, and “interest,”
which did. Id. at 611-12.
After Independence, American law reflected the
same concerns about a judge’s financial interest in a
case. James Madison recited Lord Coke’s maxim in the
Federalist Papers. The Federalist No. 10, at 47 (James
Madison) (Clinton Rossiter ed., 1961). Justices recused
themselves from early Supreme Court cases when they
had a financial interest in the result. Frank, supra, at
615 (citing Livingston v. Maryland Ins. Co., 11 U.S. 506,
7 Cranch (11 U.S.) 506, 3 L. Ed. 421 (1813); Fairfax’s
Devisee v. Hunter’s Lessee, 11 U.S. 603, 7 Cranch (11
U.S.) 603, 3 L. Ed. 453 (1813); Martin v. Hunter’s Lessee,
14 U.S. 304, 1 Wheat. (14 U.S.) 304, 4 L. Ed. 97 (1816)). 5
But some nineteenth century state legislatures and courts
tempered the common-law rule by not requiring recusal
for an interest “so remote, trifling, and insignificant that
it may fairly be supposed to be incapable of affecting the
judgment of or influencing the conduct of an individual.”
5. Chief Justice Marshall owned much of the land at issue in the
Hunter’s Lessee litigation. Joel Richard Paul, Without Precedent:
C hief Justice John M a rsh a ll a nd H is T imes 335 (2018). In
contrast to his recusal in those cases, he famously did not recuse in
Marbury v. Madison even though his failure as Secretary of State
to deliver Marbury’s commission started that controversy. Id. at
243-44. Marshall’s recusal decisions illustrate the common law’s
almost exclusive concern with financial conflicts. See Frank, supra,
at 611-12 (explaining that financial interest was the only basis for
disqualification in this period; “relationship” to the case did not
require recusal).

130a
Appendix F
Tumey v. Ohio, 273 U.S. 510, 531, 47 S. Ct. 437, 71 L. Ed.
749, 5 Ohio Law Abs. 159, 5 Ohio Law Abs. 185, 25 Ohio
L. Rep. 236 (1927) (quoting T. Cooley, Constitutional
Limitations 594 (7th ed. 1903)).
These principles, including the significance of the
interest, inform the constitutional rules governing judge’s
financial conflicts. As is true for other areas of criminal
procedure,6 it was not until the increased law enforcement
Prohibition brought that the Supreme Court addressed a
due process challenge to a judge’s financial conflicts. The
first case involved a mayor’s court used in Ohio villages to
prosecute violations of the state Prohibition Act. Tumey
v. Ohio, 273 U.S. 510, 47 S. Ct. 437, 71 L. Ed. 749, 5 Ohio
Law Abs. 159, 5 Ohio Law Abs. 185, 25 Ohio L. Rep. 236
(1927). On this “liquor court,” the mayor was the judge and
could convict without a jury. Id. at 516-17, 521. If the mayor
found the defendant guilty, some of the fine the defendant
paid would go towards the mayor’s “costs in each case, in
addition to his regular salary.” Id. at 519 (quoting the local
ordinance). Portions of the fines the village collected would
also go to the prosecutor and officers who investigated the
case. Id. at 518-19. If the mayor found the defendant not
guilty, neither he nor anyone else working for the village
would make money from the case. Id. at 523.
6. See, e.g., Nathanson v. United States, 290 U.S. 41, 47, 54 S.
Ct. 11, 78 L. Ed. 159 (1933) (holding that search warrant requires
probable cause); Olmstead v. United States, 277 U.S. 438, 464-66, 48
S. Ct. 564, 72 L. Ed. 944 (1928) (addressing whether wiretapping is
a search); United States v. Lanza, 260 U.S. 377, 382, 43 S. Ct. 141,
67 L. Ed. 314, T.D. 3423 (1922) (applying “dual sovereign” principle
of double jeopardy law to allow both state and federal prosecution
of same bootlegging activity).

131a
Appendix F
Relying on the legal tradition just outlined, the Court
held that the liquor court judge’s interest in the outcome
violated due process. Id. at 531-32. It did not require a
showing that the mayor was favoring the prosecution; the
financial incentive itself was enough:
Every procedure which would offer a possible
temptation to the average man as a judge to
forget the burden of proof required to convict
the defendant, or which might lead him not to
hold the balance nice, clear, and true between
the state and the accused, denies the latter due
process of law.
Id. at 532; see id. at 525-26 (chronicling the rule at common
law that judges not have any pecuniary interest in their
rulings).
This “average man as judge” standard—focusing
on the strength of the temptation rather than an actual
showing of impartiality—has guided the due process
inquiry ever since. Judge Cantrell tries to avoid it, arguing
that Tumey’s “average man” standard is no longer good
law. He contends later cases replaced it with an “average
judge” standard that recognizes judges’ greater capacity
for impartiality. The supposed change comes from Aetna
Life Ins. Co. v. Lavoie, 475 U.S. 813, 822, 106 S. Ct. 1580,
89 L. Ed. 2d 823 (1986), when the Court quoted Tumey
but referred to “the average . . . judge,” leaving out the
original “man acting as” language. This argument makes
a mountain out of an ellipsis. The Supreme Court never
explained that it was creating a more deferential standard

132a
Appendix F
in using the more concise language. Its most recent
conflict-of-interest opinion uses both “average judge” and
“average man” without indicating a difference between the
two. See Caperton v. A.T. Massey Coal Co., 556 U.S. 868,
878, 881, 129 S. Ct. 2252, 173 L. Ed. 2d 1208 (2009). Most
fundamentally, Judge Cantrell’s argument that judges
have a knack for impartiality—and thus that the average
judge is not as tempted as the average man—ignores that
the law has long rejected that presumption for a judge’s
financial conflicts. Frank, supra, at 611-12; compare
Aetna, 475 U.S. at 820-21 (bias against insurers did not
disqualify judge), with id. at 821-25 (involvement in similar
suits against insurers disqualified judge). We see no legal
difference between the two formulations the Supreme
Court has used. See Cain, 2019 U.S. App. LEXIS 25437,
2019 WL 3982560, at *5-6 (rejecting the same argument
Cantrell advances).
The cases applying the Tumey standard can be sorted
into two groups. A few address one-off situations when
the financial incentive is unique to the facts of the case.
Examples are cases when the judge had a substantially
similar case pending against one of the parties, Aetna,
475 U.S. at 821-25, or when a party had contributed more
to the judge’s election campaign than all other donors
combined, Caperton v. A.T. Massey Coal Co., 556 U.S.
868, 881-87, 129 S. Ct. 2252, 173 L. Ed. 2d 1208 (2009).
This case is not like those.
Instead, the challenge to Judge Cantrell’s dual role
fits into the line of cases addressing incentives that a
court’s structure creates in every case. Tumey, 273 U.S.

133a
Appendix F
510, 47 S. Ct. 437, 71 L. Ed. 749, 5 Ohio Law Abs. 159, 5
Ohio Law Abs. 185, 25 Ohio L. Rep. 236; Dugan v. Ohio,
277 U.S. 61, 48 S. Ct. 439, 72 L. Ed. 784 (1928); Ward v.
Monroeville, 409 U.S. 57, 93 S. Ct. 80, 34 L. Ed. 2d 267
(1972). The incentives that most obviously violate the right
to an impartial magistrate are those that, like Tumey
and its English predecessors, put money directly into
a judge’s pocket. See Tumey, 273 U.S. at 523 (holding
that the judge receiving a portion of the fines “certainly”
violated due process). It also violates due process when
rulings indirectly funnel money into a judge’s bank
account. See Brown v. Vance, 637 F.2d 272, 284-86 (5th
Cir. 1981). We thus held unconstitutional the statutory
fee system for compensating Mississippi justices of the
peace because those judges’ compensation depended on
the number of cases filed in their courts. As a result, they
were incentivized to rule for plaintiffs in civil cases and
the prosecution in criminal ones to encourage more filings.
Id. at 274. Again, it was the mere threat of impartiality
that violated due process. As Judge Wisdom explained,
it did not matter that “there must be many, many judges
in Mississippi, as in any other state, pure in heart and
resistant to the effect their actions may have on arresting
officers and litigating creditors,” because “the temptation
exists to take a biased view that will find favor in the
minds of arresting officers and litigating creditors. This
vice inheres in the fee system. It is a fatal constitutional
flaw.” Id. at 276.
Unlike the Tumey or Brown judges, Judge Cantrell
does not receive a penny, either directly or indirectly,
from his bail decisions. But requiring a secured money

134a
Appendix F
bond provides him with substantial nonmonetary benefits.
Most significantly, money from commercial surety bond
fees helps pay the judge’s staff. Without support staff, a
judge must spend more time performing administrative
tasks. Time is money. And some important tasks cannot be
done without staff. Judge Cantrell cannot simultaneously
preside as judge and court reporter (he employs two).
Office supplies also promote efficiency. The fees the
Orleans Parish Criminal District Court receives from
commercial sureties thus help fund critical pieces of a
well-functioning chambers. And if an elected judge is
unable to perform the duties of the job, the job may be at
risk. So we do not think it makes much difference that the
benefits Judge Cantrell and his colleagues receive from
bail bonds are not monetary.
Having decided that the “average man as judge”
standard applies and that significant nonmonetary
benefits can create a conflict, we turn to the crux of
the dispute: Does Judge Cantrell’s dual role violate due
process? In addition to Tumey, two other Supreme Court
cases that again looked at Ohio mayors’ courts flesh out
when the structural temptation of a dual role creates
an unconstitutional conflict. The first, decided the term
after Tumey, considered another liquor court. See Dugan
v. State, 277 U.S. 61, 48 S. Ct. 439, 72 L. Ed. 784 (1928).
Dugan was the mayor of a small town, empowered to run
a mayor’s court and convict those who possessed liquor.
Id. at 62. Unlike the Tumey mayor, he did not receive an
additional fee for convictions; the fines went to the town’s
general fund which paid his fixed salary. Id. at 62-63.
And despite the “mayor” title, Dugan was not the chief

135a
Appendix F
executive of the city; a city manager was. Id at 63. Dugan
was, however, one of five members of the city commission,
a legislative body with power to decide how city funds
were spent, but he could not vote on his own salary. Id.
at 62-63. The Court held that although a judge might be
tempted to rule in a way that would increase fines were
he also a “chief executive . . . responsible for the financial
condition of the village,” that was not Dugan’s situation.
Id. at 65. His role as a nonexecutive, and as only one of
five votes on financial policy, meant any benefit he received
from the fines he levied was “remote.” Id.
Forty-five years later, an Ohio mayor’s court returned
to the Supreme Court’s docket. See Ward v. Village of
Monroeville, 409 U.S. 57, 93 S. Ct. 80, 34 L. Ed. 2d 267
(1972). With Prohibition long ended, this mayor’s court
assessed traffic fines. Id. The traffic court provided about
40% of the village’s revenue. Id. at 58. That created a
constitutional problem because, unlike the Dugan mayor,
the Ward mayor was the city’s chief executive, tasked with
“general overall supervision of village affairs.” Id. The
“temptation” resulting from this executive responsibility
for village finances created an unconstitutional conflict
when he presided over the fine-generating traffic court.
Id. at 60.
The parties focus on the differences between Judge
Cantrell’s roles and those of the mayors in Dugan and
Ward. Both sides can point to certain features that help
them. The Dugan mayor was one of five officials making
spending decisions, while Judge Cantrell has an even
less influential 1/13 vote on decisions about the Judicial

136a
Appendix F
Expense Fund. But the Dugan mayor, despite his title,
had no executive responsibilities. As a result, maintaining
the financial health of the village provided only a “remote”
benefit to Dugan. Ward, 409 U.S. at 61. In contrast,
because the Ward mayor ran the town, he had a direct and
personal interest in the finances of the civic institution.
Id. at 60-61.
We conclude that Judge Cantrell is more like the Ward
mayor than the Dugan mayor. Because he must manage
his chambers to perform the judicial tasks the voters
elected him to do, Judge Cantrell has a direct and personal
interest in the fiscal health of the public institution that
benefits from the fees his court generates and that he also
helps allocate. And the bond fees impact the bottom line
of the court to a similar degree that the fines did in Ward,
where they were 37-51% of the town’s budget. Ward, 409
U.S. at 58. The 20-25% of the Expense Fund that comes
from bond fees is a bit below that percentage but still
sizeable enough that it makes a meaningful difference
in the staffing and supplies judges receive. The dual role
thus may make the magistrate “partisan to maintain the
high level of contribution” from the bond fees. Ward, 409
U.S. at 60.
Our holding that this uncommon arrangement violates
due process does not imperil more typical court fee
systems. Our reasoning depends on the dual role combined
with the “direct, personal, [and] substantial” interest the
magistrate has in generating bond fees. Tumey, 273 U.S.
at 523. To take one example, none of these features are
present for fines in federal criminal cases. Judges do not

137a
Appendix F
have a say in how those funds are spent. The amount of
the fines—which is supposed to take into account the costs
of incarceration and thus, if anything, fund the Bureau of
Prisons rather than the judiciary, U.S.S.G. § 5E1.2(d)(7)—
are not set aside for judicial operations even on a national
level, let alone for the handful of federal judges who sit
on a local district court. The benefits are so diffuse that
a single judge sees no noticeable impact on her chambers
from the fines she imposes and thus feels no temptation
from them.
The temptation facing the Orleans Parish magistrate
is far greater. His dual role—the sole source of essential
court funds and an appropriator of them—creates a
direct, personal, and substantial interest in the outcome of
decisions that would make the average judge vulnerable to
the “temptation . . . not to hold the balance nice, clear, and
true.” Tumey, 273 U.S. at 532. The current arrangement
pushes beyond what due process allows. Cf. Cain, 2019
U.S. App. LEXIS 25437, 2019 WL 3982560, at *6 (holding
that Orleans Parish judges’ role in both imposing and
administering court fees and fines violated due process).
III.
After recognizing this due process violation, the
district court issued the following declaration: “Judge
Cantrell’s institutional incentives create a substantial and
unconstitutional conflict of interest when he determines
[the class’s] ability to pay bail and sets the amount of that
bail.”

138a
Appendix F
That declaratory relief was all plaintiffs sought. They
believed that section 1983 prevents them from seeking
injunctive relief as an initial remedy in this action brought
against a state court judge. See 42 U.S.C. § 1983 (“[I]n
any action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity, injunctive
relief shall not be granted unless a declaratory decree
was violated or declaratory relief was unavailable . . . .”).7
That statutory requirement reflects that declaratory
relief is “a less harsh and abrasive remedy than the
injunction.” Steffel v. Thompson, 415 U.S. 452, 463, 94 S.
Ct. 1209, 39 L. Ed. 2d 505 (1974) (quotation omitted); see
also Robinson v. Hunt Cty., 921 F.3d 440, 450 (5th Cir.
2019); Restatement (Second) of Judgments § 33 cmt. c
(“A declaratory action is intended to provide a remedy
that is simpler and less harsh than coercive relief . . . .”).
Principal among its advantages is giving state and local
officials, like Judge Cantrell, the first crack at reforming
their practices to conform to the Constitution. Steffel, 415
U.S. at 470.
One response to the declaratory judgment would
be eliminating Judge Cantrell’s dual role, a role that is
not mandated by Louisiana law. In contrast, because
Louisiana law does require that the bond fees be sent
to the Judicial Expense Fund, LA. R.S. 13:1381.5(B)(2)
(a), the declaratory judgment cannot undo that mandate.
7. This provision is implicated only if the conf lict claim
challenges actions undertaken in Judge Cantrell’s judicial capacity,
as opposed to his administrative capacity. Because the plaintiffs
sought only declaratory relief, we need not reach this question.

139a
Appendix F
Challengers did not seek to enjoin that statute, instead
arguing only that the dual role violated due process. But
given today’s ruling and last week’s in Cain, it may well
turn out that the only way to eliminate the unconstitutional
temptation is to sever the direct link between the money
the criminal court generates and the Judicial Expense
Fund that supports its operations.
***
The judgment of the district court is AFFIRMED.

140a
Appendix G
APPENDIX G — DECLARATORY
JUDGMENT OF
THE UNITED STATES DISTRICT COURT OF THE
EASTERN DISTRICT OF LOUISIANA,
DATED AUGUST 14, 2018
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION
No. 17-6197
SECTION “L” (5)
ADRIAN CALISTE ET AL.,
versus
HARRY E. CANTRELL.
DECLARATORY JUDGMENT
Named Plaintiffs, on behalf of those similarly situated,
filed this suit against Magistrate Judge Harry E. Cantrell,
challenging the constitutionality of Judge Cantrell’s bail
procedures in the Orleans Parish Criminal District Court
(“OPCDC”). Evidence in the record demonstrates that
Judge Cantrell’s procedure does not include an inquiry into
ability to pay or consideration of alternative conditions of
release prior to his setting bail. Furthermore, because of
Judge Cantrell’s institutional conflict of interest, he fails to
provide a neutral forum for determination of ability to pay
or consideration of alternative conditions of release. The
Fourteenth Amendment requires an inquiry into ability

141a
Appendix G
to pay, including notice of the importance of this inquiry;
consideration of alternative conditions of release, including
findings on the record applying the clear and convincing
standard and explaining why an arrestee does not qualify
for alternative conditions of release; and representative
counsel at such hearings. Additionally, the Fourteenth
Amendment requires a neutral forum for consideration
of ability to pay and alternative conditions of release.
Considering the Court’s Order & Reasons entered herein
on August 6, 2018, accordingly:
IT IS ORDERED, ADJUDGED AND DECREED
that there be judgment in favor of plaintiffs, Adrian
Caliste, Brian Gisclair, both individually and on behalf of
all others similarly situated, and against defendant, Harry
E. Cantrell, Magistrate Judge of Orleans Parish Criminal
District Court. Plaintiffs are granted summary judgment
on Count One and the following declaratory relief:
In the context of hearings to determine pretrial
detention Due Process requires:
1) an inquiry into the arrestee’s ability to pay,
including notice of the importance of this
issue and the ability to be heard on this
issue;
2) consideration of alternative conditions of
release, including findings on the record
applying the clear and convincing standard
and explaining why an arrestee does not
qualify for alternative conditions of release;
and

142a
Appendix G
3) representative counsel.
Plaintiffs are also granted summary judgment on
Count Two and a declaratory judgment that Judge
Cantrell’s institutional incentives create a substantial and
unconstitutional conflict of interest when he determines
their ability to pay bail and sets the amount of that bail.
IT IS FURTHER ORDERED that this matter be
Dismissed with prejudice, with each party to bear his or
its own costs.
New Orleans, Louisiana this 13th day of August, 2018.
/s/
			
UNITED STATES DISTRICT
JUDGE

143a
Appendix
Appendix h — order
&H
reasons of the
united states district court for the
eastern district of louisiana,
filed august 6, 2018
United States District Court
Eastern District of Louisiana
CIVIL ACTION No. 17-6197 SECTION “L” (5)

ADRIAN CALISTE et al.,
versus
HARRY E. CANTRELL.
August 6, 2018, Decided
August 6, 2018, Filed
ORDER & REASONS
Before the Court are Plaintiffs’ and Defendant’s
Cross-Motions for Summary Judgment. R. Docs. 116 and
121. The parties have also filed in opposition. R. Docs. 120
and 130. Having considered the parties’ arguments and
the applicable law, the Court issues this Order & Reasons.
I.

BACKGROUND

On June 27, 2017, Plaintiffs Adrian Caliste and Brian
Gizclair, individually and on behalf of others similarly
situated, filed this action under 42 U.S.C. § 1983 against

144a
Appendix H
Orleans Parish Criminal District Magistrate Judge
Harry E. Cantrell, alleging violations of their rights
under the Fourteenth Amendment’s Due Process and
Equal Protection Clauses. R. Doc. 1 at 25. Plaintiffs are
former criminal defendants who were in the custody of the
Orleans Parish Sheriff’s Office at the time the complaint
was filed. R. Doc. 1 at 2-3. Defendant Cantrell is the
Magistrate Judge for Orleans Parish Criminal District
Court (“OPCDC”), where he is responsible for setting bail
upon arrest and has a role in managing the expenditures
of the Judicial Expense Fund. R. Doc. 1 at 3.
In Count One, Plaintiffs allege that Judge Cantrell
routinely sets a $2,500 minimum secured money bond
without first considering the facts of the case to determine
whether a lower bond amount or an alternative condition
of release might be appropriate. R. Doc. 1 at 6. Plaintiffs
further aver that Judge Cantrell requires the use of a
bail bond from a commercial (for-profit) surety and does
not allow arrestees to post cash bail. R. Doc. 1 at 2. In
Count Two, Plaintiffs contend that Judge Cantrell has
a conflict of interest because under Louisiana law, 1.8%
of a bond amount collected from a commercial surety is
allocated directly to the Court for its discretionary use.
R. Doc. 1 at 2.
Plaintiffs moved to certify a class of similarly situated
plaintiffs. R. Doc. 5. On March 16, 2018, the Court granted
this motion and certified the class. R. Doc. 99. Plaintiffs
now seek a declaratory judgement that Judge Cantrell’s
bond policy, which they assert results in the creation of a
modern “debtor’s prison,” and financial conflict of interest

145a
Appendix H
are violations of Plaintiffs’ constitutional rights. R. Doc.
1 at 26. Defendant, Judge Cantrell, denies Plaintiffs’
allegations and seeks summary judgment dismissing
Plaintiffs’ complaint.
II. 	PRESENT MOTIONS
A. 	Plaintiffs’ Motion for Summary Judgment (R.
Doc. 116)
Plaintiffs have filed a Motion for Summary Judgment.
R. Doc. 116. The Plaintiff Class seeks declaratory judgment
on both of their claims. R. Doc. 116-1 at 4. First, Plaintiffs’
argue that Judge Cantrell violates their Equal Protection
and Due Process rights by jailing Plaintiffs when they
are unable to pay set bonds. R. Doc. 116-1 at 5. Plaintiffs
argue that Judge Cantrell’s practice violates their rights
against wealth-based detention and fundamental right
to pretrial liberty because he sets bail without making
findings that pretrial detention is necessary or making an
inquiry into Plaintiffs’ ability to pay. R. Doc. 116-1 at 6,
12, 26. Second, Plaintiffs argue that since Judge Cantrell
shares executive control over funds that come partly from
fees on the commercial surety bonds that he sets, he has a
conflict of interest in the process of setting those bonds. R.
Doc. 116-1 at 33. Plaintiffs allege that this conflict violates
their due process right to a neutral and detached judge.
R. Doc. 116-1 at 29. For these reasons, Plaintiffs move for
summary judgment. R. Doc. 116-1 at 34.
Defendant responds in opposition. R. Doc. 120. First,
Judge Cantrell argues that this Court lacks the power to

146a
Appendix H
direct him in the performance of his duties. R. Doc. 120
at 1. Judge Cantrell argues that Plaintiffs have asked this
Court to order him to follow certain protocols when he
conducts bail hearings and that this Court lacks the power
to direct him in this manner. R. Doc. 120 at 3. Second,
regarding Plaintiffs’ request for declaratory relief, Judge
Cantrell argues that any such relief would be advisory
because there is no justiciable controversy. R. Doc. 120
at 5. Judge Cantrell further argues that Plaintiffs’ claims
regarding his bail hearing protocol are moot because since
this lawsuit he has in good faith changed his bail hearing
procedures. R. Doc. 120 at 6. Understanding his heavy
burden in proving mootness, Judge Cantrell has attached
an affidavit describing his new colloquy and checklist used
during bail hearings. R. Doc. 120-1.1
Third, Judge Cantrell argues that the procedures
regarding management of the Judicial Expense Fund
do not negate a fair tribunal because 1) the OPCDC can
go to the state or parish if it needs more funds, 2) there
is no quota or reward for adding to the fund, and 3) the
judges have no personal interest in the money collected.
R. Doc. 120 at 9-11. Additionally, Judge Cantrell argues
that he benefits from a presumption of integrity and if this
procedure makes him biased than all courts are biased
1. Although Judge Cantrell argues that he has already
amended his bail procedures, there is some discrepancy between the
statements in his affidavit where he uses language indicating in some
places that he is currently following the new procedures and some
language indicating that he will change his procedures in the future.
Additionally, these statements contradict his current affirmation of
Plaintiffs’ statement of facts. R. Doc. 121-6, 121-7.

147a
Appendix H
because all collect fees from defendants in some way. R.
Doc. 120 at 13. Finally, Judge Cantrell also argues that
the fees incurred under Louisiana’s bail bond statutes do
not create an impermissible bias because the Fifth Circuit
has held that such fees are reasonable administrative fees.
R. Doc. 120 at 18.
B. 	Defendant’s Motion for Summary Judgment
(R. Doc. 121)
In support of his motion for summary judgment,
Defendant has submitted a memorandum identical to that
submitted in response to Plaintiffs’ motion for summary
judgment. R. Doc. 121-1. In opposition, Plaintiffs have
submitted a memorandum identical to that submitted in
reply supporting their own motion. R. Doc. 130.
III.	LAW AND ANALYSIS
The present motions raise questions of justiciability,
the constitutionality of Judge Cantrell’s bail procedures,
and his conflict of interest when he has both judicial
and executive power regarding revenues of the Judicial
Executive Fund. The Court acknowledges the similarities
between this case and Cain v. City of New Orleans, 281 F.
Supp. 3d 624 (E.D. La. 2017) (Vance, J.). The Court draws
as relevant from Judge Vance’s excellent and thorough
opinion, particularly as it relates to analysis of judicial
conflict of interest.

148a
Appendix H
A. 	Summary Judgment Standard
Summary judgment is proper “if the pleadings,
depositions, answers to interrogatories, and admissions
on file, together with the affidavits, if any, show that there
is no genuine issue as to any material fact and that the
moving party is entitled to a judgment as a matter of law.”
Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106 S. Ct. 2548,
91 L. Ed. 2d 265 (1986) (citing Fed. R. Civ. P. 56(c)). “Rule
56(c) mandates the entry of summary judgment, after
adequate time for discovery and upon motion, against a
party who fails to make a showing sufficient to establish
the existence of an element essential to that party’s case,
and on which the party will bear the burden of proof at
trial.” Id. A party moving for summary judgment bears
the initial burden of demonstrating the basis for summary
judgment and identifying those portions of the record,
discovery, and any affidavits supporting the conclusion
that there is no genuine issue of material fact. Id. at 323. If
the moving party meets that burden, then the nonmoving
party must use evidence cognizable under Rule 56 to
demonstrate the existence of a genuine issue of material
fact. Id. at 324.
A genuine issue of material fact exists if a reasonable
jury could return a verdict for the nonmoving party. See
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248, 106
S. Ct. 2505, 91 L. Ed. 2d 202 (1996). “[U]nsubstantiated
assertions,” “conclusory allegations,” and merely colorable
factual bases are insufficient to defeat a motion for
summary judgment. See Hopper v. Frank, 16 F.3d 92, 97
(5th Cir. 1994); Anderson, 477 U.S. at 249-50. In ruling

149a
Appendix H
on a summary judgment motion, a court may not resolve
credibility issues or weigh evidence. See Int’l Shortstop,
Inc. v. Rally’s Inc., 939 F.2d 1257, 1263 (5th Cir. 1991).
Furthermore, a court must assess the evidence, review the
facts and draw any appropriate inferences based on the
evidence in the light most favorable to the party opposing
summary judgment. See Daniels v. City of Arlington, Tex.,
246 F.3d 500, 502 (5th Cir. 2001); Reid v. State Farm Mut.
Auto. Ins. Co., 784 F.2d 577, 578 (5th Cir. 1986). With these
legal principles in mind, the Court turns to the parties
motion which will be discussed in turn.
B. Justiciability
Defendant Cantrell’s motion for summary judgment
raises several justiciability questions. First, Judge
Cantrell argues that the claims in Count One are moot
due to his voluntary cessation of the challenged bail
procedures. Second, Judge Cantrell argues that Plaintiffs
improperly seek a writ of mandamus compelling the
actions of a state official. Finally, Judge Cantrell argues
that the Court should abstain from granting declaratory
relief in this case. The Court will discuss each argument
in turn.
i.

Mootness

The Constitution limits the jurisdiction of federal
courts to cases or controversies. U.S. Const. art. III,
§ 2. To satisfy this requirement, a plaintiff must have a
personal interest in the case, not only at the outset, but
at “all stages” of the lawsuit. Davis v. FEC, 554 U.S. 724,

150a
Appendix H
732-33, 128 S. Ct. 2759, 171 L. Ed. 2d 737 (2008) (quoting
Arizonans for Official English v. Arizona, 520 U.S. 43,
67, 117 S. Ct. 1055, 137 L. Ed. 2d 170 (1997)). If a plaintiff
begins a case with a sufficient personal interest but lacks
that interest later in the case, the plaintiff’s claims are
moot. See Friends of the Earth, Inc. v. Laidlaw Envtl.
Servs. (TOC) Inc., 528 U.S. 167, 189, 120 S. Ct. 693, 145
L. Ed. 2d 610 (2000).
This Court has held that Plaintiffs had the requisite
personal interest for standing to bring these claims. R.
Doc. 44 at 5-6. In this motion, Judge Cantrell argues
that Plaintiffs have lost this personal interest and their
claims are now moot. Judge Cantrell argues that since this
lawsuit he intends to cease the allegedly unconstitutional
bail procedures thus mooting Count One.
“Generally, any set of circumstances that eliminates
actual controversy after the commencement of a lawsuit
renders that action moot.” Ctr. for Individual Freedom
v. Carmouche, 449 F.3d 655, 661 (5th Cir. 2006). When
an action is rendered moot it must be dismissed. Lewis v.
Continental Bank Corp., 494 U.S. 472, 477-78, 110 S. Ct.
1249, 108 L. Ed. 2d 400 (1990). However, “[i]t is well settled
that ‘a defendant’s voluntary cessation of a challenged
practice does not deprive a federal court of its power to
determine the legality of the practice.’” Laidlaw, 528
U.S. at 189 (quoting City of Mesquite v. Aladdin’s Castle,
Inc., 455 U.S. 283, 289, 102 S. Ct. 1070, 71 L. Ed. 2d 152
(1982)). Accordingly, the Supreme Court has placed a
“heavy burden of persuasion” on a defendant attempting
to show mootness by voluntary cessation. United States

151a
Appendix H
v. Concentrated Phosphate Export Ass’n, 393 U.S. 199,
203, 89 S. Ct. 361, 21 L. Ed. 2d 344 (1968).
Judge Cantrell has filed an affidavit stating that
since the inception of this litigation he has “revised the
protocol [he] follow[s] in setting bail and now take[s] into
consideration the following factors”:2
• There will be no minimum monetary bail amount
utilized when assessing and setting bail.
• The seriousness of the offense charged, including
but not limited to whether the offense is a serious
crime of violence or involves a controlled dangerous
substance.
• The weight of the evidence against the defendant.
• The previous criminal record of the defendant.
• The ability of the defendant to give bail.
• The nature and seriousness of the danger to any
other person or the community that would be posed
by the defendant’s release.
• The defendant’s voluntary participation in a pretrial
drug testing program.
• The absence or presence in the defendant of any
controlled dangerous substance.
2. See FN 1 supra.

152a
Appendix H
• Whether the defendant is currently out on a bail
undertaking on a previous felony arrest for which he
is awaiting institution of prosecution, arraignment,
trial, or sentencing.
• Any other circumstances affecting the probability
of defendant’s appearance.
• The type or form of bail.
• Amount and source of defendant’s income.
• Defendant’s employment status.
• Number and type of defendants.
• Recommendations of pre-trial services report.
• Should a defendant be unable to afford the amount
set, they will be entitled to an adversarial hearing,
wherein they have the right to be represented
by counsel and to present any evidence and/or
testimony and traverse (or deny) any evidence and/
or testimony presented against them concerning
the previously stated factors in determining the
amount of bail.
R. Doc. 120-1 at 2-3. Judge Cantrell further avers that he
will now state on the record his reasoning when setting
bail. R. Doc. 120-1 at 3.

153a
Appendix H
The Court does not doubt that Judge Cantrell is
earnest in his present intent to modify his bail procedures.
However, “allegations by a defendant that its voluntary
conduct has mooted the plaintiff’s case require closer
examination than allegations that ‘happenstance’ or official
acts of third parties have mooted the case.” Fontenot v.
McCraw, 777 F.3d 741, 747-48 (5th Cir. 2015) (quoting
Envtl. Conservation Org. v. City of Dallas, 529 F.3d 519,
528 n.4 (5th Cir. 2008)). Accordingly, the Court has closely
examined Defendant’s claims and is not satisfied that the
voluntary conduct has mooted Plaintiffs’ claims regarding
the alleged bail practices. Unlike cases where there has
been a “formally announced change[]” regarding official
policy, Sossamon v. Lone Star State of Texas, 560 F.3d
316, 325 (5th Cir. 2009), here the Court and Plaintiffs
must rely solely on Judge Cantrell’s statement that he
has changed his procedures and will not change them
back again. Judge Cantrell has submitted no evidence
of the implementation of these new bail procedures.
These changes were made only after this litigation was
commenced and Judge Cantrell’s affidavit is not binding
on his future procedures. For these reasons, the Court
finds that Judge Cantrell has not met his heavy burden of
convincing the Court that the challenged bail procedures
could not reasonably be expected to recur. Therefore,
Plaintiffs’ claims are not moot. 3
3. Additionally, the Court notes that Judge Cantrell’s affidavit,
if it were sufficient to meet his heavy burden, does not resolve all of
the issues before the Court regarding the Count One allegations.
Specifically, Judge Cantrell’s affidavit does not provide a standard
to be applied when determining whether a defendant qualifies for
alternative conditions of release, nor does it provide that defendants
will have a right to representative counsel at initial bail hearings.

154a
Appendix H
ii.

Mandamus

Next, Judge Cantrell argues that Plaintiffs’ have
requested a writ of mandamus disguised as a request
for declaratory relief. “[F]ederal courts have no general
power to issue writs of mandamus to direct state courts
and their judicial officers in the performance of their
duties where mandamus is the only relief sought.” Lamar
v. 118th Judicial Dist. Court of Tex., 440 F.2d 383, 384
(5th Cir. 1971). However, federal judges have the power
to provide declaratory and injunctive relief against state
judicial officers and these remedies are unequivocally
available via § 1983. See 42 U.S.C. § 1983 (“[I]n an action at
law, suit in equity, or other proper proceeding for redress,
except that in any action brought against a judicial officer
for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief was
unavailable.”); Pulliam v. Allen, 466 U.S. 522, 541-42, 104
S. Ct. 1970, 80 L. Ed. 2d 565 (1984); Holloway v. Walker,
765 F.2d 517, 525 (5th Cir. 1985).
Judge Cantrell claims that Plaintiffs are asking the
Court to direct him in the exercise of his judicial duties,
specifically to order him to change his bail procedures
in specific ways. However, Plaintiffs’ complaint and
motion for summary judgement merely asks the Court
to provide declaratory relief regarding Judge Cantrell’s
bail procedures.
A writ of mandamus compels the defendant
to perform a certain act. See Mandamus,

155a
Appendix H
Black’s Law Dictionary (10th ed. 2014). By
contrast, the declaratory judgments plaintiffs
seek . . . would merely state that certain of
defendant[‘s] practices are unconstitutional. The
Supreme Court has recognized the authority
of federal courts to issue such relief against
state judges. See Pulliam, 466 U.S. at 526
(affirming attorneys’ fees award in case where
district court declared magistrate’s practice of
“require[ing] bond for nonincarcerable offenses
. . . to be a violation of due process and equal
protection and enjoined it”). Thus, the Court
rejects defendant[‘s] argument that plaintiffs’
claims for declaratory relief are in fact requests
for a writ of mandamus.
Cain, 281 F. Supp. 3d at 645-46 (footnotes omitted).
Because here the alleged acts were omissions taken in
Judge Cantrell’s judicial capacity, this Court has authority
under § 1983.
iii. 	Declaratory Judgment Act
Judge Cantrell further argues that it would be
inappropriate for the Court to grant a declaratory
judgment because the ruling would be merely advisory.
The Declaratory Judgment Act is “an enabling Act, which
confers a discretion on the courts rather than an absolute
right upon the litigant.” Wilton v. Seven Falls Co., 515 U.S.
277, 287, 115 S. Ct. 2137, 132 L. Ed. 2d 214 (1995) (quoting
Public Serv. Comm’n of Utah v. Wycoff Co., 344 U.S. 237,
241, 73 S. Ct. 236, 97 L. Ed. 291 (1952)). As an initial step

156a
Appendix H
in a declaratory judgment suit, the Court must determine
“whether the declaratory action is justiciable.” SherwinWilliams Co. v. Holmes Cty., 343 F.3d 383, 387 (5th Cir.
2003). Defendant argues that the Count One claims are
not justiciable because there is no “actual controversy.”
However, the Court has already found that Plaintiffs’
claims are not moot. Accordingly, the Court may consider
Plaintiffs’ claims for declaratory relief.
iv.

Brillhart-Wilton Abstention

Finally, Judge Cantrell argues that the Court should
abstain from deciding this case under the BrillhartWilton doctrine. Judge Cantrell argues that while
the Declaratory Judgment Act grants federal courts
discretion, the Court should decline to exercise this
discretion. However, the cases cited by Judge Cantrell
narrowly apply to situations where a federal court sitting
in diversity is asked to grant declaratory judgment on a
state law matter. Wilton, 515 U.S. at 280, 290; Brillhart
v. Excess Ins. Co. of Am., 316 U.S. 491, 493, 62 S. Ct. 1173,
86 L. Ed. 1620 (1942). Additionally, the Court has already
considered and rejected Defendant’s previous abstention
arguments under the Younger doctrine. R. Doc. 44 at 6-8.
Accordingly, this analysis is inapplicable to the
matter at hand. Furthermore, even if this analysis were
applicable, the Fifth Circuit reasoning under St. Paul
Ins. Co. v. Trejo, 39 F.3d 585 (5th Cir. 1994), and SherwinWilliams Co. v. Holmes Cty., leads the Court away
from abstention. In Brillhart the Court was concerned
with whether a federal suit “can be better settled in the

157a
Appendix H
state court.” 316 U.S. at 495. The Fifth Circuit employs
seven nonexclusive factors for this purpose, which it first
fashioned in St. Paul Ins. Co. v. Trejo.4 These factors are:
1) Whether there is a pending state action in
which all of the matters in controversy may
be fully litigated, 2) whether the plaintiff filed
suit in anticipation of a lawsuit filed by the
defendant, 3) whether the plaintiff engaged in
forum shopping in bringing the suit, 4) whether
possible inequities in allowing the declaratory
plaintiff to gain precedence in time or to change
forums exist, 5) whether the federal court is a
convenient forum for the parties and witnesses,
. . . 6) whether retaining the lawsuit in federal
court would serve the purposes of judicial
economy, and [7)] whether the federal court
is being called on to construe a state judicial
decree . . . .
Trejo, 39 F.3d at 590-91 (internal citations omitted). The
Fifth Circuit has since updated its Trejo analysis to
include: 1)“[t]he presence of federal law questions, [2)]
their relationship to state law questions, [3)] the ability
of the federal court to resolve state law issues, and [4)]the
ability of a state court to resolve the federal law issues.”
Sherwin-Williams, 343 F.3d at 396. “‘The presence of
federal law issues must always be a major consideration
4. Trejo was decided prior to the Supreme Court’s decision
in Wilton. However, the Fifth Circuit continues to apply the Trejo
factors with some additional and/or clarified considerations laid out
in Sherwin-Williams.

158a
Appendix H
weighing against surrender’ of federal jurisdiction.” Id.
(quoting Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1, 26, 103 S. Ct. 927, 74 L. Ed. 2d 765
(1983)). “The presence of federal law issues is especially
important when there is no pending state court proceeding
to which the federal district court can defer.” Id.
Here, the issue before the Court is a federal law
issue and there are no pending state court proceedings
to consider. Plaintiffs have filed a § 1983 claim requesting
declaratory relief recognizing their Constitutional rights.
None of the above factors apply to this situation or suggest
that this suit would be “better settled in state court.”
Accordingly, the Court finds that the matters before it
are justiciable and finds no reason to abstain from ruling.
The Court now moves to a consideration of the Plaintiffs’
substantive arguments seeking summary judgment.
C. 	Count One: Judge Cantrell’s Bail Procedures
In Count One, Plaintiffs’ main argument is that Judge
Cantrell’s bail procedures violate their constitutional
rights because he imprisons criminal defendants solely
based on their inability to pay the set bail. Plaintiffs
specifically challenge Defendant’s practice of setting bail
without considering alternative conditions of release or
ability to pay.
The facts regarding Judge Cantrell’s bail procedures
are undisputed. R. Docs. 121-6, 121-7. Judge Cantrell
agrees that the following are standard practices for
setting bail in his court:

159a
Appendix H
• Introduction and overview of bail setting process.
• Qualification of defendants for public defender
services, including questions regarding employment,
income, and dependents.
• Time for defendants to meet with their attorneys.
• Judge Cantrell uses the background information
provided by the public defender to determine the
conditions of release or detention; “he does not ask
additional questions.”
• Judge “Cantrell has told public defenders that
he would hold them in contempt when they have
attempted to argue for lower bond amounts or
RORs for their clients.”
• Judge “Cantrell does not determine whether the
financial condition of release that he imposes will
result in pretrial detention.”
R. Doc. 121-7 at 3-6.
It is clear that under these procedures Judge Cantrell
does not request much financial information from criminal
defendants prior to determining the amount of their
bail. Nor does he “consider or make findings concerning
alternative conditions of release when he requires secured
financial conditions, and does not make any findings that
pretrial detention is necessary to serve any particular
government interest if a secured financial condition will

160a
Appendix H
result in detention.” R. Doc. 121-7 at 6-7. Transcript
evidence in the record confirms these facts. R. Docs. 1217. Plaintiffs in this case were imprisoned prior to trial
because they were unable to pay the set bail. Transcripts
from their bail hearings demonstrate that Judge Cantrell
did not inquire regarding their ability to post bail, nor
did he provide reasoning for his rejection of alternative
conditions of release.
As an example, Ms. Mishana Johnson was detained
prior to trial on a charge of simple battery. R. Doc. 1217 at 4. Judge Cantrell appointed a public defender to
represent Ms. Johnson after learning that she did not
have counsel and worked at McDonald’s. R. Doc. 121-7 at
4. Her appointed counsel requested $1000 bail based on
employment status and lack of risk factors. R. Doc. 1217 at 4. Judge Cantrell set bail at $5000 without inquiry
into Ms. Johnson’s ability to pay and informed the public
defender that he does not set bail lower than $2500. R.
Doc. 121-7 at 5. Judge Cantrell later reprimanded another
public defender for requesting release on recognizance
(“ROR”) or a $1000 bond. R. Doc. 121-7 at 5. The attorney
argued that his client was employed in a low-wage job and
was a college student. R. Doc. 121-7 at 5. Judge Cantrell
again set a $5000 bond without inquiry into the defendant’s
ability to pay or providing reasoning for his rejection of
alternative conditions of release. R. Doc. 121-7 at 5.
More disturbing is the colloquy regarding bail set for
Ms. Ashley Jackson on June 12, 2017. R. Doc. 121-7 at 5.
Judge Cantrell had agreed to an ROR for this defendant
until he realized that her listed address was a homeless

161a
Appendix H
shelter. R. Doc. 121-7 at 5. Subsequently, stating his
concerns regarding the court’s ability to contact Ms.
Jackson, he set a secured $2500 bond. R. Doc. 121-7 at
5. After argument with defense counsel, Judge Cantrell
stated that he was “not punishing [the defendant] for being
poor [but that he was] punishing her because [the court
could] not get in touch with her.” R. Doc. 121-7 at 6.
This evidence suggests that Judge Cantrell regularly
sets bail without considering the defendant’s ability pay or
qualification for alternative conditions of release and that
these practices regularly result in pretrial detention based
on inability to pay bail. Judge Cantrell has not argued that
these descriptions of his practices are inaccurate and has
made no substantive constitutional arguments in defense
of these practices.
Plaintiffs argue that these practices violate their due
process and equal protection rights under the Fourteenth
Amendment. The Due Process Clause of the Fourteenth
Amendment provides that “[n]o state . . . shall deprive any
person of life, liberty, or property without due process of
law . . . .” U.S. Const. Amend. XIV. It protects individuals
against two types of government action. “Substantive
Due Process” prevents the government from engaging in
conduct that “shocks the conscience,” Rochin v. California,
342 U.S. 165, 172, 72 S. Ct. 205, 96 L. Ed. 183 (1952), or
interferes with rights “implicit in the concept of ordered
liberty.” Palko v. Connecticut, 302 U.S. 319, 325-26, 58 S.
Ct. 149, 82 L. Ed. 288 (1937). “Procedural Due Process”
ensures that government action depriving a person of
life, liberty, or property is implemented in a fair manner.

162a
Appendix H
Mathews v. Eldridge, 424 U.S. 319, 335, 96 S. Ct. 893, 47
L. Ed. 2d 18 (1976).
Although “[d]ue process and equal protection
principles converge” in cases involving the
criminal justice system’s treatment of indigent
individuals, Bearden v. Georgia, 461 U.S. 660,
665, 103 S. Ct. 2064, 76 L. Ed. 2d 221 (1983),
plaintiffs’ argument sounds in procedural due
process. Thus, the familiar framework set out
in Mathews v. Eldridge, 424 U.S. 319, 96 S. Ct.
893, 47 L. Ed. 2d 18 (1976), applies. See Turner
v. Rogers, 564 U.S. 431, 444-45, 131 S. Ct. 2507,
180 L. Ed. 2d 452 (2011) (applying Mathews v.
Eldridge to civil contempt proceedings).
Cain, 281 F. Supp. 3d at 649.
“[S]tandard analysis under [the Due Process Clause]
proceeds in two steps: We first ask whether there exists
a liberty or property interest of which a person has been
deprived, and if so we ask whether the procedures followed
by the State were constitutionally sufficient.” Swarthout
v. Cooke, 562 U.S. 216, 219, 131 S. Ct. 859, 178 L. Ed.
2d 732 (2011). Here, Plaintiffs successfully assert that
they have been deprived of a liberty interest based on
“the well-established principle that an indigent criminal
defendant may not be imprisoned solely because of her
indigence.” Cain, 281 F. Supp. 3d at 649 (citing Tate v.
Short, 401 U.S. 395, 398, 91 S. Ct. 668, 28 L. Ed. 2d 130
(1971); United States v. Voda, 994 F.2d 149, 154 n.13 (5th
Cir. 1993)). Additionally, Plaintiffs have been deprived of

163a
Appendix H
their fundamental right to pretrial liberty. United States
v. Salerno, 481 U.S. 739, 750, 107 S. Ct. 2095, 95 L. Ed. 2d
697 (1987); see also Foucha v. Louisiana, 504 U.S. 71, 80,
112 S. Ct. 1780, 118 L. Ed. 2d 437 (1992) (“Freedom from
bodily restraint has always been at the core of the liberty
protected by the Due Process Clause from arbitrary
governmental action.”); Jones v. United States, 463 U.S.
354, 361, 103 S. Ct. 3043, 77 L. Ed. 2d 694 (1983) (quoting
Addington v. Texas, 441 U.S. 418, 425, 99 S. Ct. 1804, 60
L. Ed. 2d 323 (1979)) (“It is clear that ‘commitment for any
purpose constitutes a significant deprivation of liberty
that requires due process protection.’”).
Under Mathews, courts consider three factors to
identify the requirements of procedural due process when
the state endeavors to deprive someone of these rights:
First, the private interest that will be affected
by the official action; second, the risk of an
erroneous deprivation of such interest through
the procedures used, and the probable value,
if any, of additional or substitute procedural
safeguards; and finally, the Government’s
interest, including the function involved and
the fiscal and administrative burdens that the
additional or substitute procedural requirement
would entail.
424 U.S. at 335. The Supreme Court has discussed the
types of procedural safeguards required to authorize
pretrial detention under the Bail Reform Act. Salerno,
481 U.S. at 751-52 (finding that the procedures under

164a
Appendix H
the Bail Reform Act were “specifically designed to
further the accuracy of th[e] determination” of “the
likelihood of future dangerousness” and did not violate
due process). Among the valuable procedural safeguards
noted in Salerno were “right to counsel at the detention
hearing”; the opportunity to testify, present evidence,
and cross-examine witnesses; standards for the judicial
officer “determining the appropriateness of detention”;
government burden of clear and convincing evidence; and
requirement of findings of fact and reasons for detention
from the judicial officer. Id.
The Supreme Court has also articulated additional
procedural safeguards in several different contexts
including pretrial and post-conviction detention. 5 In
Bearden v. Georgia, the Supreme Court held that “a
sentencing court can[not] revoke a defendant’s probation
for failure to pay the imposed fine and restitution, absent
evidence and findings that the defendant was somehow
responsible for the failure or that alternative forms of
punishment were inadequate.” 461 U.S. 660, 665, 67374, 103 S. Ct. 2064, 76 L. Ed. 2d 221 (1983). There, the
state court had imprisoned Bearden for his inability to
pay a fine but had not asked why he was unable to pay or
considered other alternative means of enforcing the fine.
Id. at 674. The Court reasoned that for the state court
to simply convert the fine into a prison sentence without
5. This Court finds that the post-conviction detention cases,
while not directly on point, are highly relevant because the liberty
interests of presumptively innocent, pretrial detainees cannot be less
than, and are generally considered greater than, those of convicted
defendants.

165a
Appendix H
“inquir[ing] into the reasons for the failure to pay” or
finding that “alternate measures [we]re not adequate to
meet the State’s interests . . . would deprive [Bearden] of
his . . . freedom simply because, through no fault of his,
he [could not] pay the fine.” Id. at 672-73.
Moreover, in Turner v. Rogers, the Supreme Court
held that court-appointed counsel was not required
in a civil contempt proceeding if sufficient alternative
procedures were provided “equivalent to . . . adequate
notice of the importance of ability to pay, fair opportunity
to present, and to dispute, relevant information, and court
findings.” 564 U.S. 431, 448, 131 S. Ct. 2507, 180 L. Ed.
2d 452 (2011). There, the Court reasoned that “[g]iven the
importance of the [liberty] interest at stake, it is obviously
important to assure accurate decisionmaking in respect
to the key ‘ability to pay’ question.” Id. at 445.
While there are clear differences between the facts of
these cases and the facts at issue here, what is manifest
and pertinent is the Supreme Court’s emphasis on the
due process requirements of an informed inquiry into
the ability to pay and findings on the record regarding
that ability prior to detention based on failure to pay.
Accordingly, the Court finds that these cases are useful
here because Plaintiffs have been subjected to pretrial
imprisonment, as a result of their inability to pay a court
ordered sum.
With the principles of Salerno, Bearden, and Turner
in mind, the Court applies the Mathews factors to the
present facts.

166a
Appendix H
First, plaintiffs’ interest in securing their
“freedom ‘from bodily restraint[ ]’ lies ‘at the
core of the liberty protected by the Due Process
Clause.’” Turner, 564 U.S. at 445 (quoting
Foucha v. Louisiana, 504 U.S. 71, 80, 112 S. Ct.
1780, 118 L. Ed. 2d 437 (1992)). Plaintiffs’ liberty
interest weighs heavily in favor of procedural
safeguards provided before imprisonment.
Cain, 281 F. Supp. 3d at 651.
“Second, the risk of erroneous deprivation without
an inquiry into ability to pay is high.” Id. The record
suggests that many criminal defendants, including Named
Plaintiffs, have been imprisoned solely because they are
unable to pay the bail amount set by Judge Cantrell.
These are criminal defendants who have been found
to be indigent for the purpose of appointing counsel.
Accordingly, the inquiry into the ability to pay “must
involve at least notice and opportunity to be heard, [and
express findings in the record] as suggested by Turner;
an ability-to-pay inquiry without these basic procedural
protections would likely be ineffective.” Id.
Third, Judge Cantrell has not suggested any
government interest6 that would prevent or discourage
an inquiry into the ability to pay. Rather, he seems to
agree that it is appropriate to consider “[t]he ability of the
defendant to give bail.” R. Doc. 120-1 at 2. However, this
6. Defendant has not made any constitutional arguments
regarding the substance of Plaintiffs’ Count One claims.

167a
Appendix H
simple consideration is inadequate under the principles
laid out by the Supreme Court. Bearden requires that
this inquiry include court consideration of the reasons
why a criminal defendant cannot pay and of alternative
measures prior to imprisonment. 461 U.S. at 672; see Cain,
281 F. Supp. 3d at 652.
Here, it is clear that Judge Cantrell did not conduct
an inquiry into ability to pay or include satisfactory
procedural safeguards to that inquiry when setting bail.
To satisfy the Due Process principles articulated by
Supreme Court precedent, Judge Cantrell must conduct
an inquiry into criminal defendants’ ability to pay prior
to pretrial detention. “This inquiry must involve certain
procedural safeguards, especially notice to the individual
of the importance of ability to pay and an opportunity to
be heard on the issue. If an individual is unable to pay,
then [he] must consider alternative measures before
imprisoning the individual.” Cain, 281 F. Supp. 3d at 652.
Plaintiffs suggest that due process requires additional
procedures in order to “ensure the accuracy of [a] finding
that pretrial . . . detention is necessary.” R. Doc. 116-1 at
14. Plaintiffs cite Salerno and the safeguards provided
under the Bail Reform Act as the standard for these
additional procedural safeguards because they provide
confidence that a sufficient inquiry into ability to pay
is conducted prior to pretrial detention. In Salerno,
the Court noted that the Bail Reform Act is “narrowly
focuse[d] on individuals who have been arrested for a
specific category of extremely serious offenses.” 481 U.S.
at 750. Even with this heightened government interest,

168a
Appendix H
“[i]n a full-blown adversary hearing, the Government must
convince a neutral decisionmaker by clear and convincing
evidence that no conditions of release can reasonably
assure the safety of the community or any person.” Id.
The Court then praised other procedural safeguards found
to be sufficient under Due Process including: findings of
fact, statements of reasons for decisions, and the right to
counsel.” Id. at 750-51; see also Gagnon v. Scarpelli, 411
U.S. 778, 786, 93 S. Ct. 1756, 36 L. Ed. 2d 656 (1973) (listing
the minimum requirements of due process when revoking
probation). These procedures are required for defendants
charged with committing serious offenses. How much
more important are these safeguards when considering
pretrial detention for criminal defendants who may not be
accused of committing extremely serious offenses?
First, Plaintiff suggests that Due Process requires
proof under the clear and convincing standard “that
pretrial detention is necessary to mitigate either a risk
of flight or a danger to the community.” R. Doc. 116-1 at
16. Beginning with Addington v. Texas, 441 U.S. 418,
99 S. Ct. 1804, 60 L. Ed. 2d 323 (1979), the Supreme
Court has held that, when scrutinized under procedural
due process criterion, deprivation of liberty requires
a heightened standard. There, when considering the
government’s interest in “protect[ing] the community
from the dangerous tendencies of some who are mentally
ill,” the Court reasoned that the clear and convincing
standard struck an appropriate balance between
scrupulous protection of individual liberty interests and
the government interest in public safety. Id. at 424, 426.

169a
Appendix H
In cases where physical liberty is at stake in all kinds
of situations, the Court consistently applies the clear and
convincing standard. Foucha, 504 U.S. at 82; Cruzan ex
rel. Cruzan v. Dir., Mo. Dep’t of Health, 497 U.S. 261, 28283, 110 S. Ct. 2841, 111 L. Ed. 2d 224 (1990); Santosky v.
Kramer, 455 U.S. 745, 756, 102 S. Ct. 1388, 71 L. Ed. 2d
599 (1982); Addington, 441 U.S. at 433; see also Woodby
v. INS, 385 U.S. 276, 286, 87 S. Ct. 483, 17 L. Ed. 2d 362
(1966); Schneiderman v. United States, 320 U.S. 118, 123,
63 S. Ct. 1333, 87 L. Ed. 1796 (1943). While this Court
has not found a case requiring the clear and convincing
standard in the particular circumstances of this case,7
determining pretrial detention based specifically on risk
of flight, the Court is convinced of the vital importance of
the individual’s interest in pretrial liberty recognized by
the Supreme Court. In a Mathews analysis of the balance
required by Due Process of the private liberty interest
and interest of the government in ensuring that a criminal
defendant appears in court, the Court agrees with the
views expressed in the concurring opinion in United
States v. Motamedi, 767 F.2d 1403, 1409 (9th Cir. 1985)
(Boochever, J., concurring in part and dissenting in part). 8
7. Case law considering the standard required under the Bail
Reform Act alone has held that the preponderance of the evidence
standard is sufficient. See e.g., United States v. McConnell, 842
F.2d 105 (5th Cir. 1988). However, these cases did not consider the
burden of proof require by the Due Process Clause of the Fourteenth
Amendment. See e.g., McConnell, 842 F.2d 105; United States v.
Motamedi, 767 F.2d 1403 (9th Cir. 1985).
8. In United States v. Motamedi, the Ninth Circuit was
confronted only with the question of the proper standard required by
the Bail Reform Act. The Court finds Judge Boochever’s reasoning
persuasive when conducting an analysis of the standard required
by the Constitution.

170a
Appendix H
[T]he consequences to the defendant from an
erroneous pretrial detention are certain and
grave. The potential harm to society, although
also significant, is speculative, because pretrial
detention is based on the possibility, rather
than the certainty, that a particular defendant
will fail to appear. Moreover, society’s interest
in increasing the probability of detention is
undercut by the fact that it has no interest
in erroneously detaining a defendant who
can give reasonable assurances that he will
appear. I conclude therefore that the injury
to the individual from an erroneous decision
is greater than the potential harm to society,
and that under Addington due process requires
that society bear a greater portion of the risk
of error: the government must prove the facts
supporting a finding of flight risk by clear and
convincing evidence.
Id. at 1415.
Second, Plaintiffs suggest that arrestees must be
represented by counsel. R. Doc. 116-1 at 24. The importance
of the right to counsel is evident from its inclusion in the
Bill of Rights. The Sixth Amendment requires that the
government provide counsel for those who cannot afford
it at “critical stages” of criminal proceedings. Bell v.
Cone, 535 U.S. 685, 695-96, 122 S. Ct. 1843, 152 L. Ed.
2d 914 (2002). The Supreme Court has held that “critical
stages” are those that “h[o]ld significant consequences
for the accused.” Id. at 696; Coleman v. Alabama, 399

171a
Appendix H
U.S. 1, 10, 90 S. Ct. 1999, 26 L. Ed. 2d 387 (1970) (holding
that a preliminary bail hearing is a “critical stage . . . at
which the accused is . . . entitled to [counsel]”). There is
no question that the issue of pretrial detention is an issue
of significant consequence for the accused.
Under a Mathews analysis, the Court finds that
without representative counsel the risk of erroneous
pretrial detention is high. Preliminary hearings can be
complex and difficult to navigate for lay individuals and
many, following arrest, lack access to other resources that
would allow them to present their best case. Considering
the already established vital importance of pretrial
liberty, assistance of counsel is of the utmost value at a
bail hearing.
Judge Cantrell does not argue this point. In fact, the
record shows that public defenders are regularly provided
for those individuals found to be indigent at their initial
appearance before Judge Cantrell. The Court commends
this practice and encourages its continuance. Beyond this
encouragement, the Court finds that the right to counsel
at a bail hearing to determine pretrial detention is also
required by due process. The interests of the government
are mixed regarding provision of counsel at this stage.
It is certainly a financial burden on the state to provide
attorneys for the indigent. However, this burden is
outweighed not only by the individual’s great interest in
the accuracy of the outcome of the hearing, but also by the
government’s interest in that accuracy and the financial
burden that may be lifted by releasing those arrestees
who do not require pretrial detention. Accordingly, the

172a
Appendix H
Mathews test demonstrates that due process requires
representative counsel at pretrial detention hearings.
As discussed above, the record indicates that Judge
Cantrell’s bail procedures have not provided notice of
the importance of the issue of the criminal defendant’s
ability to pay, inquiry into the ability to pay, findings on
the record regarding ability to pay and consideration of
alternative conditions of release, or application of a legal
standard in the determination of the necessity of pretrial
detention. Accordingly, these procedures violate Plaintiffs’
procedural due process rights; Plaintiffs’ are entitled to
summary judgment on Count One and it is appropriate to
grant Plaintiffs’ motion for declaratory judgment.
The Court commends Judge Cantrell’s expressed
willingness to mend the bail procedures in his court to
comply with due process requirements. R. Doc. 120-1. As
a summary of the above discussed Mathews analysis, the
Court finds that in the context of hearings to determine
pretrial detention Due Process requires:
1) an inquiry into the arrestee’s ability to pay,
including notice of the importance of this issue
and the ability to be heard on this issue;
2) consideration of alternative conditions
of release, including findings on the record
applying the clear and convincing standard and
explaining why an arrestee does not qualify for
alternative conditions of release; and
3) representative counsel.

173a
Appendix H
D.

Count Two: Conflict of Interest

In Count Two, Plaintiffs argue that Judge Cantrell
has an unconstitutional conflict of interest that violates
due process when he sets bail. Plaintiffs challenge Judge
Cantrell’s multipurpose role in determining their ability
to pay bail, the amount of bail upon which pretrial release
is conditioned, and managing the Judicial Expense
Fund, a portion of which comes from fees levied on
commercial surety bonds. Plaintiffs argue that Judge
Cantrell’s management role over this fund creates an
unconstitutional conflict of interest that deprives them
of their right to a neutral fact finder in pretrial detention
hearings.
i. 	The Judicial Expense Fund
Louisiana Revised Statute 13:1381.4 sets up the
Judicial Expense Fund (“the Fund”) for the Orleans
Parish Criminal District Court (“OPCDC”). The Fund
receives revenue from fines, fees, costs, and forfeitures
imposed by the OPCDC. See La. Rev. Stat. § 13:1381.4.
Approximately $1 million per year in revenue comes from
fees levied on commercial surety bonds, representing
roughly 20-25% of the total Fund in a given year. R. Doc.
121-7 at 9. The fund is controlled by the Judges of the
OPCDC and “may be used for any purpose connected
with, incidental to, or related to the proper administration
or function of the court or the office of the judges . . . .”
La. Rev. Stat. § 13:1381.4(C). However, the Fund may
not be used to pay any judge’s salary. Id. § 13.1381.4(D).
Generally, the Fund is used to finance court operations

174a
Appendix H
including, but not limited to, staff salaries and benefits,
conferences and legal education, ceremonies, office
supplies, law books, jury expenses, and other services.
R. Doc. 121-7 at 8.
ii. 	Legal Standards
As discussed by the Court in Cain v. City of New
Orleans, the unbiased judge or neutral fact finder has long
been considered “essential to due process.” Pub. Citizen,
Inc. v. Bomer, 274 F.3d 212, 217 (5th Cir. 2001) (quoting
Johnson v. Mississippi, 403 U.S. 212, 216, 91 S. Ct. 1778,
29 L. Ed. 2d 423 (1971)). While disqualification of a judge
is not common, the Supreme Court has held that when a
judge has financial interests in the matter before him due
process is violated. In Tumey v. Ohio, the Supreme Court
“held that the mayor, acting as judge, was disqualified
from deciding Tumey’s case ‘both because of his direct
pecuniary interest in the outcome, and because of his
official motive to convict and to graduate the fine to help
the financial needs of the village.’” Cain, 281 F. Supp. 3d
at 655 (quoting Tumey v. Ohio, 273 U.S. 510, 535, 47 S.
Ct. 437, 71 L. Ed. 749, 5 Ohio Law Abs. 159, 5 Ohio Law
Abs. 185, 25 Ohio L. Rep. 236 (1927)). There, the mayor
acted as judge in courts that levied fines, some of which
went to village funds. Tumey, 273 U.S. at 521-22. These
funds covered some court expenses as well as some fees
paid to the mayor himself. Id. at 522.
Later, in Ward v. Village of Monroeville, the Court
held that a mayor’s court violated due process when it
financed a “major part” of the city funds that were also

175a
Appendix H
managed by the mayor. 409 U.S. 57, 58, 60, 93 S. Ct. 80, 34
L. Ed. 2d 267 (1972). There, the Court reasoned that the
principle articulated in Tumey did not rely on the mayor’s
personal interest in the funds. Id. at 60. Rather, the Court
articulated the following test: “whether the . . . situation is
one ‘which would offer a possible temptation to the average
man as a judge to forget the burden of proof required to
convict the defendant, or which might lead him not to hold
the balance nice, clear, and true between the state and
the accused.’” Id. at 60 (quoting Tumey, 273 U.S. at 532).
More recently, the Court has clarified that finding a
conflict of interest in violation of due process “do[es] not
require proof of actual bias.” Caperton v. A.T. Massey
Coal Co., Inc., 556 U.S. 868, 883, 129 S. Ct. 2252, 173 L.
Ed. 2d 1208 (2009). Rather, when determining whether
the Due Process Clause requires judicial recusal due to
a conflict of interest, the correct question is “whether,
‘under a realistic appraisal of psychological tendencies and
human weakness,’ the interest ‘poses such a risk of actual
bias or prejudgment that the practice must be forbidden
if the guarantee of due process is to be adequately
implemented.’” Id. at 883-84 (quoting Withrow v. Larkin,
421 U.S. 35, 47, 95 S. Ct. 1456, 43 L. Ed. 2d 712 (1975)).
The Fifth Circuit applied these principles in Brown
v. Vance, 637 F.2d 272, 274, 282 (5th Cir. 1981), holding
that a fee system that compensated justices of the peace
based on volume of cases filed was unconstitutional. There,
the Court reasoned that the Supreme Court’s concern in
Tumey and Ward

176a
Appendix H
was not . . . the probity of an individual judge
or perhaps even, of the great majority of
judges . . . rather [it was] in the inherent defect
in the legislative framework arising from
the vulnerability of the average man-as the
system works in practice and as it appears to
defendants and to the public.
Id. at 284. Accordingly, the Court found that the undeniable
opportunity and “possible temptation to the average
man as a judge to forget the burden of proof required”
created by the system was sufficient to “deprive[] criminal
defendants of their due process right to a trial before an
impartial tribunal.” Id. at 282 (quoting Tumey, 273 U.S.
at 532).
Most recently, this Court applied this line of cases
holding that collection of costs and fees by judges in
Orleans Criminal District Court who also administer
those monies as part of the Judicial Expense Fund had an
“institutional incentive[ that] create[d] an impermissible
conflict of interest when they determine, or are supposed
to determine, plaintiffs’ ability to pay fines and fees.” Cain,
281 F. Supp. 3d at 659. The Cain case dealt with the same
Judicial Expense Fund at issue in this case and a different
source of revenue also determined by judges. There, the
relevant facts included the above discussed management
of the Judicial Expense Fund by the judges and those
same judges determination of ability to pay the fines and
fees going to the Fund. Id. at 654.

177a
Appendix H
The Court in Cain reasoned that “[b]y no fault of their
own, the Judges’ ‘executive responsibilities for [court]
finances may make [them] partisan to maintain the high
level of contribution,’ . . . from criminal defendants.” Id.
at 657 (quoting Ward, 409 U.S. at 60). For that reason,
the Court found that the judge’s “substantial” conflict
of interest in adjudicating plaintiffs’ ability to pay fines
and fees “offend[ed] due process” “[s]o long as the Judges
control and heavily rely on fines and fees revenue.” Id. at
657-58.
iii. Analysis
Here, it is clear from the record that Judge Cantrell
participates in the management of the Fund, sets the
amount of bail, and determines arrestee’s ability to
pay bail. R. Doc. 121-7 at 8. As discussed above, the
Fund is partially financed by fees levied on commercial
surety bonds. Judges, including Judge Cantrell then use
these funds to finance court operations. Approximately
$1,000,000 gained from bond fees is deposited into the
Fund each year.9 This is roughly 20-25% of the Fund’s
total revenue in a given year.10 R. Doc. 121-7 at 9. “This
funding structure puts the Judges in the difficult position
of not having sufficient funds to staff their offices unless
9. The Fund gained $821,371 in bond fees in 2012, $1,062,224
in 2013, $1,026,282 in 2014, $1,008,108 in 2015, $848,089 in 2016, and
$839,006 in 2017. R. Doc. 121-7 at 9.
10. The revenue from bond fees represented 20% of the total
Fund revenue in 2012, 25.9% in 2013, 26.1% in 2014, 25.5% in 2015,
21% in 2016, and 19% in 2017. R. Doc. 121-7 at 9.

178a
Appendix H
they impose and collect sufficient [monies] from a largely
indigent population of criminal defendants.” Cain, 281 F.
Supp. 3d at 655.
Judge Cantrell’s participation in the management of
bond fee revenue creates a conflict of interest because
he is also responsible for determining whether a pretrial
detainee is able to pay bail and the appropriate amount
of bail. As stated above, due process requires that Judge
Cantrell make an inquiry regarding an arrestee’s ability
to pay and consider alternative conditions of release.
However, Judge Cantrell also has a financial interest in
these determinations as well as the determination of the
amount of bail because revenue collected as a percentage
of the bail set by him is promptly sent to the Fund. See
id. Accordingly, Judge Cantrell “ha[s] an institutional
incentive to find that criminal defendants are able to pay
bail” and to set higher bail amounts. Id.
[Defendant Cantrell’s] dual role, as [an]
adjudicator who determine[s] ability to pay
[and amount of bail] and as manager[] of the
OPCDC budget, offer[s] a possible temptation to
find that indigent criminal defendants are able
to pay [bail and higher amounts of bail]. This
“inherent defect in the legislative framework”
arises not from the bias of any particular Judge,
but “from the vulnerability of the average
man—as the system works in practice and as
it appears to defendants and to the public.”
Id. (quoting Brown, 637 F.2d at 284).

179a
Appendix H
The Tumey Court further reasoned that to offend due
process the judicial conflict of interest must be substantial.
273 U.S. at 534 (“The minor penalties usually attaching to
the ordinances of a village council, or to the misdemeanors
in which the mayor may pronounce final judgment without
a jury, do not involve any such addition to the revenue of
the village as to justify the fear that the mayor would be
influenced in his judicial judgment by that fact.); Cain,
281 F. Supp. 3d at 657. “[T]he proper question is ‘whether
the official motive here is “strong,” so that it “reasonably
warrants fear of partisan influence on the judgment.”’”
Id. (quoting Alpha Epsilon Phi Tau Chapter Hous. Ass’n
v. City of Berkeley, 114 F.3d 840, 847 (9th Cir. 1997)).
Here, it is clear that Judge Cantrell’s, as well as that
of the OPCDC, institutional interest in the fees derived
from commercial surety bonds is substantial. As discussed
above, the percentage of the Fund derived from these fees
is roughly 25% and these funds make up a considerable
portion of the salaries and benefits for judicial employees.
In Cain, the Court found that a similar percentage of the
Fund was enough to make the judges’ conflict of interest
substantial. Id. at 657-58 (“Fines and fees revenue is
obviously important to the Judges; fines and fees provide
approximately 10% of the total OPCDC budget and one
quarter of the Judicial Expense Fund.”).
As explained by the Court in Cain, this conflict of
interest is not created by Judge Cantrell, nor is it his fault.
The conflict of interest is “the unfortunate result of the
financing structure” and lack of sufficient funding from
the state and local governments for the criminal justice

180a
Appendix H
system. Id. at 658. However, the source of the conflict
does not change the fact that as long as Judge Cantrell
participates in the control of bond fee revenue and the
OPCDC relies on it as a substantial source of funding,
Judge Cantrell’s determination of Plaintiffs’ ability to
pay bail and the amount of that bail is in violation of due
process. See id.
Defendant makes several arguments that his dual role
in setting bail and administering the Fund do not offend
due process requirements. The Court will consider each
in turn.
First, Judge Cantrell argues that the Fund system
does not create a conflict of interest because if the OPCDC
needs additional funds it can request them from the state
legislature or local parish government. R. Doc. 120 at 9.
The Court approaches this claim with some incredulity.
Given the substantial percentage of the Fund coming
from bond fees, the Court finds it implausible that these
revenues would be easily replaced by solicitation of
state and local officials. Furthermore, OPCDC officials
themselves have noted the significance of this amount
of revenue and its sources to the Fund. See Cain, 281 F.
Supp. 3d at 658.11

11. The Court also notes that the Affidavit testimony submitted
to support this argument is the same testimony provided to Judge
Vance in the Cain case. R. Doc. 120-2. Judge Vance did not find the
argument negated her finding that the “OPCDC depends heavily on
fines and fees revenue” which also makes up approximately 25% of
the Fund. Cain, 281 F. Supp. 3d at 658.

181a
Appendix H
Second, Judge Cantrell argues that the revenues in
the Fund are publically audited and used appropriately.
The Court finds this fact irrelevant to the issues before it
as Plaintiffs are not arguing that the use of the revenues
violates their constitutional rights, but rather that the
determination of those revenues and control over them
by the same individual is the problem.
Third, Judge Cantrell argues that he is not subjected
to a quota, receives no rewards based on amount of revenue
collected, and has no personal interest in the Fund. The
Court finds that it is not necessary for Judge Cantrell
to have a quota, punishment, or reward associated with
the Fund in order to have a conflict of interest. The
significance of these funds for the payment of personnel
salaries and other administrative needs, approximately
$250,000 per chambers, is sufficient incentive to act as a
“possible temptation” to the “average man.” Additionally,
“[t]hat [Judge Cantrell] ha[s] an institutional, rather than
direct and individual, interest in maximizing [bond fee]
revenue is immaterial.” Cain, 281 F. Supp. 3d at 656.
“Ward itself involved a mayor who had no direct, personal
interest in traffic fine revenue; his interest related solely
to his ‘executive responsibilities for village finances.’ 409
U.S. at 60. Likewise, [Judge Cantrell’s] interest in [bond
fee] revenue is related to [his] executive responsibilities
for OPCDC finances.” Id. at 656-57.
Fourth, Judge Cantrell argues that all courts are
partially funded by fees from criminal defendants and if
this funding offends due process then no courts will be
functional. Defendant misses the point here because the

182a
Appendix H
problem is not specifically with the fact that the court is
partially funded by fees from criminal defendants and
those that utilize the court system. Rather the problem
lies with the inherent temptation and conflict of interest
when the same official is determining ability to pay bail,
and the amount of that bail, and also managing the funds
collected from fees on that bail.
Fifth, Judge Cantrell argues that Plaintiffs cannot
overcome the “presumption of honesty and integrity of
judges.” R. Doc. 120 at 13 (citing Valley v. Rapides Parish
Sch. Bd., 118 F.3d 1047, 1052-53 (5th Cir. 1997)). However,
in Brown v. Vance, when reviewing the district court’s use
of this standard, the Fifth Circuit found that the district
court had erred. 637 F.2d at 283.
There is no language in Tumey or Ward
qualifying the “possible temptation” standard
by the necessity of overcoming the presumption
of probity in favor of adjudicators. That added
burden comes from Withrow v. Larkin, 421 U.S.
35, 95 S. Ct. 1456, 43 L. Ed. 2d 712, upon which
the district court and the defendant strongly
relied. But the question in Withrow was
whether a board of physicians could exercise
both investigative and adjudicative functions.
Id. Likewise, the case cited by Judge Cantrell involved
the potential bias of a school board rather than a judge.
Valley, 118 F.3d at 1049. Accordingly, the proper standard
has been stated above, that the interest under Tumey and
Ward is not the actual bias or integrity of an individual

183a
Appendix H
judge, but rather “the vulnerability of the average manas the system works in practice and as it appears to
defendants and to the public [and] the possibility that
judges will fail to hold ‘the balance nice, clear and true.’”
Brown, 637 F.2d at 284. Furthermore, it is not only
important that justice be done; it is equally important
that justice appear to be done. The appearance of justice
is vital to perpetuation of the rule of law, a concept upon
which our society is based.
Finally, Judge Cantrell raises Broussard v. Parish
of Orleans arguing that the bail bond statutes do not
create an unconstitutional bias. The Court has previously
addressed the relevance of Broussard in the proper party
defendant context. R. Doc. 81 at 6. The Court again finds
that Broussard is not relevant to the issue of judicial
conflict of interest in this case. In Broussard the plaintiffs
challenged the constitutionality of Louisiana bail statutes
rather than alleging bias of individual judicial officers.
318 F.3d 644, 647 (5th Cir. 2003). There, the Fifth Circuit
affirmed the district court finding that Tumey and Ward
did not apply because the defendants, sheriffs, were not
exercising a judicial function. Id. at 662. In contrast,
Judge Cantrell does exercise a judicial function when
he, sitting as Magistrate Judge, determines Plaintiffs’
ability to pay bail and the amount of that bail. Therefore,
it is appropriate to apply the Tumey and Ward tests here
when determining whether there is an unconstitutional
conflict of interest.
The Court finds none of these arguments persuasive,
and finds that Plaintiffs have succeeded in demonstrating

184a
Appendix H
that Judge Cantrell’s participation in the management
of the Fund in conjunction with his determination of
Plaintiffs’ ability to pay bail and the amount of that bail is
a substantial conflict of interest that produces a “possible
temptation . . . not to hold the balance nice, clear, and
true between the state and the accused.” Ward, 409 U.S.
at 60 (quoting Tumey, 273 U.S. at 532). Accordingly,
Plaintiffs are entitled to summary judgment on Count
Two and are entitled to a declaratory judgment that Judge
Cantrell’s institutional incentives create a substantial and
unconstitutional conflict of interest when he determines
their ability to pay bail and sets the amount of that bail.
IV. 	CONCLUSION
As articulated above,
IT IS ORDERED that Plaintiffs’ motion for summary
judgment, R. Doc. 116, is hereby GRANTED and the
Court provides declaratory relief as laid out above.
IT IS FURTHER ORDERED that Defendant’s
motion for summary judgment, R. Doc. 121, is hereby
DENIED.
New Orleans, Louisiana, this 6th day of August, 2018.
/s/ Eldon E. Fallon		
UNITED STATES DISTRICT
JUDGE

185a
Appendix
I
APPENDIX I — DENIAL
OF REHEARING
IN THE
UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED OCTOBER 1, 2019
IN THE UNITED STATES COURT
OF APPEALS FOR THE FIFTH CIRCUIT
No. 18-30954
ADRIAN CALISTE, INDIVIDUALLY
AND ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED; BRIAN GISCLAIR,
INDIVIDUALLY AND ON BEHALF OF ALL
OTHERS SIMILARLY SITUATED,
Plaintiffs-Appellees
v.
HARRY E. CANTRELL, MAGISTRATE JUDGE OF
ORLEANS PARISH CRIMINAL DISTRICT COURT,
Defendant-Appellant
Appeal from the United States District Court
for the Eastern District of Louisiana
ON PETITION FOR REHEARING AND
REHEARING EN BANC
(Opinion

, 5 Cir.,

,

, F.3d

)

Before HIGGINBOTHAM, JONES, and COSTA, Circuit
Judges.

186a
Appendix I
PER CURIAM:
( ) Petition for Rehearing is DENIED and no member
ü
of this panel nor judge in regular active service on

the court having requested that the court be polled
on Rehearing En Banc, (Fed. R. A pp. P. and 5TH Cir.
R. 35) the Petition for Rehearing En Banc is also
DENIED.

( ) The Petition for Rehearing is DENIED and the
court having been polled at the request of one of the
members of the court and a majority of the judges who
are in regular active service and not disqualified not
having voted in favor, (Fed. R. A pp. P. and 5TH Cir.
R. 35) the Petition for Rehearing En Banc is also
DENIED.
( ) A member of the court in active service having
requested a poll on the reconsideration of this cause en
banc, and a majority of the judges in active service and
not disqualified not having voted in favor, Rehearing
En Banc is DENIED.
ENTERED FOR THE COURT:
					
UNITED STATES CIRCUIT
JUDGE

